<html>
<title> - SEA LEVEL RISE</title>
<body><pre>[Senate Hearing 112-622]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 112-622

                             SEA LEVEL RISE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   TO

 RECEIVE TESTIMONY ON THE IMPACTS OF SEA LEVEL RISE ON DOMESTIC ENERGY 
                        AND WATER INFRASTRUCTURE

                               __________

                             APRIL 19, 2012






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                       Printed for the use of the
               Committee on Energy and Natural Resources

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-897 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001














               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel


















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Abdalati, Waleed, Chief Scientist, National Aeronautics and Space 
  Administration.................................................     3
Berry, Leonard, Director, Florida Center for Environmental 
  Studies, Florida Atlantic University, Jupiter, FL..............    15
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Freed, Adam, Deputy Director, Mayor's Office of Long-Term 
  Planning and Sustainability, New York, NY......................    21
Janetos, Anthony C., Director, Joint Global Change Research 
  Institute, Pacific Northwest National Laboratory/University of 
  Maryland, College Park, MD.....................................    11
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Strauss, Benjamin H., COO & Director, Program on Sea Level Rise, 
  Climate Central, Princeton, NJ.................................     8

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    43

                              Appendix II

Additional material submitted for the record.....................    63

 
                             SEA LEVEL RISE

                              ----------                              


                        THURSDAY, APRIL 19, 2012

                               U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK. Why don't we get started? Thank you all 
for coming. Today we have a hearing on the impacts of sea level 
rise on domestic energy and water infrastructure.
    Over the past century a tremendous amount of high value 
infrastructure has been built along the coastlines of the 
United States. This infrastructure serves the needs of coastal 
communities and is the foundation for developing much of our 
abundant coastal energy resource. Much of that infrastructure 
has been built in low lying areas that were already prone to 
flooding from extreme weather. That's become even more at risk 
as sea levels have risen.
    About 5 million Americans now live in coastal areas that 
are less than 4 feet above sea level. There are nearly 300 high 
value energy facilities standing on land below that level. 
These energy facilities include power plants, oil and gas 
refineries, and natural gas infrastructure.
    Recent history has shown that not only is this 
infrastructure already vulnerable to extreme weather but also 
that when coastal energy assets are compromised the energy 
disruption affects the entire economy. Sea level rise takes the 
current level of vulnerability and multiplies it. When sea 
levels rise the storm surge associated with extreme storms gets 
even worse and even an average storm can have above average 
consequences. Water systems that were designed based on a lower 
sea level may not function properly. Salt water intrudes on 
fresh water resources that communities have depended on for 
years.
    These impacts from sea level rise are not theoretical and 
they are not disputed and they are not in the distant future. 
They are being confronted today in places such as Louisiana and 
Florida. The affected communities there are already paying 
substantial cost to try to address them.
    As the planet has warmed from human emissions of greenhouse 
gases, the rate of sea level rise has accelerated. It's 
expected to continue doing so. Improved scientific 
understanding of ice sheets and glaciers has led to higher 
projections of sea level rise for this century with the highest 
estimates indicating that several feet of rise are possible.
    When placed in the context of the continued rapid 
development along the coast, these increased projections of sea 
level rise are cause for concern and merit consideration by 
this Congress. It's no secret that the discussion of climate 
change, of which sea level rise is just one aspect, has become 
highly politicized here in the Congress. Outside the halls of 
Congress though, entities that depend on infrastructure at risk 
of sea level rise are taking the threat seriously and are 
incorporating the best science into their long term plans.
    The Department of Defense, in its 2010 Quadrennial Defense 
Review Report, highlighted the more than 30 U.S. military 
installations that are already facing elevated levels of risk 
from rising sea levels.
    The integrated energy company, Entergy, carried out a Gulf 
Coast adaptation study to assess and manage risks to its energy 
assets from climate change.
    Today we have a witness from Mayor Bloomberg's office in 
New York to discuss the efforts that New York City is 
undertaking to prepare for elevated sea levels.
    These examples are evidence that those that will be most 
directly affected by climate change do not have the luxury of 
delaying their planning process until the politics are more 
favorable.
    The discussion we're having today is an important one. 
Witnesses will be testifying about real world impacts. I hope 
that the hearing contributes to restarting a national 
conversation on this important issue.
    Let me turn to Senator Murkowski for any comments she has 
before introducing the witnesses.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Welcome to each 
of you this morning.
    Back in 2008 we held a useful hearing on this same topic. 
It's good to see some new faces at the witness table. I thank 
you for sharing your time and your expertise with the committee 
this morning.
    We pay a lot of attention to the issue of what is happening 
with our coastline in Alaska. We have about 6,640 miles of 
general coastline. The figure that I use is about 33,000 miles 
if you go around every little island that we have and add it 
up. It's really quite remarkable. You compare that to just 
under 5,000 miles of coastline in the lower 48.
    So we're paying attention to what is going on with water in 
the State of Alaska and rising levels. Ice that is receding 
that is causing greater erosion of our coastline. The Chairman 
mentions Florida. I was down there not too many weeks ago. When 
you fly over the delta areas there and recognize that whether 
it's rising sea levels or land that is basically sinking in 
many areas, how we deal with these challenges are really quite 
considerable.
    I mention Alaska. I think most say well, you don't have 
much in terms of population up there. You have limited 
infrastructure. That is true. But we certainly have our share 
of energy development. We certainly have some major challenges 
as it relates to the coastal erosion impacting many of our 
native villages all along the coastline.
    So I'm glad to not only hear about predictions of what the 
future holds, but hopefully some proposals for how we deal with 
the challenges that sea level rise will create as well. We face 
so many different issues within the committee here. It seems 
like every day we're presented with something. An electric grid 
that is pushed to its limit, rising gas prices that we talk 
about quite frequently and extremely costly reliance on foreign 
Nations, it's a long list of perils of crisis that we deal 
with.
    So I think often times it's easy to forget about these 
longer term issues that confront us. Taking time this morning 
to have this discussion about what is going on with our rising 
sea levels and how we may deal with those impacts is important. 
So I appreciate you taking the time to join us here this 
morning and look forward to the testimony.
    The Chairman. Thank you.
    Let me introduce our witnesses.
    Dr. Waleed Abdalati is the Chief Scientist with NASA. We 
appreciate you being here very much.
    Dr. Ben Strauss is the Chief Operating Officer and Director 
of the Sea Level Rise Program at Climate Central. We appreciate 
you being here.
    Dr. Anthony Janetos is the Director of the Pacific 
Northwest National Laboratory's Joint Global Change Research 
Institute.
    Dr. Leonard Berry is the Director of Florida's Center for 
Environmental Studies.
    Mr. Adam Freed is the Deputy Director with the New York 
City Mayor's Office of Long Term Planning and Sustainability.
    We appreciate you all being here. If each of you could take 
5 or 6 minutes and sort of make the main points that you think 
we ought to understand on this issue. We will include your full 
statement as part of our record. Then we'll have some 
questions.
    Dr. Abdalati, why don't we start with you and just go 
across the table?

    STATEMENT OF WALEED ABDALATI, CHIEF SCIENTIST, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Abdalati. Thank you. Mr. Chairman, members of the 
committee, it's my pleasure to appear before you today to 
discuss the topic of sea level rise.
    Sea level rise is really one of the most readily 
recognizable manifestations of our changing climate because its 
effects are very visible without the aid of instrumentation. 
You can actually just see it. Moreover sea level rise evolves 
relatively slowly and steadily presenting a clear expression of 
the integrated elements of our changing climate.
    Since the late 19th century measurements of sea level rise 
have been made using tide gauges in coastal regions. Because 
their measurements are only relative to the adjacent land 
rather than a global reference frame, and because their limited 
distribution grossly under samples the ocean, the picture they 
provide of past sea level rise--and current--is incomplete.
    Since 1993 NASA and its partners have been monitoring sea 
level continuously from space using satellite altimetry which 
provides more complete and representative information on the 
changing sea level. Data from these satellites indicate that 
sea level has risen at a rate of about 3.1 millimeters per 
year. Not much, but when you stack that up year after year, 
decade after decade, it's quite substantial.
    Estimates based on tide gauges prior to the satellite 
record offer rates of approximately half that amount. These 
values represent global averages. On a regional scale, which 
really is of greater concern to those who have to deal with the 
effects of rising seas, sea level can vary significantly from 
place to place.
    Some ocean areas including parts of the Eastern Tropical 
Pacific have experienced a lowering of sea level since 1993, 
while others such as the Western Pacific exhibit sea level rise 
rates several times greater than the global average. Since 
approximately one-third of all Americans live in counties that 
immediately border the Nation's ocean coasts, understanding 
this regional variability is very important.
    Projections of sea level rise have a large uncertainty as a 
result of our limited but emerging understanding of the factors 
that contribute to it. These projections range from a low of 
two-tenths of a meter (or about 9 inches) by the end of the 
century to a high of two meters (or about 6 and a half feet). 
Values near the low end are, the scientific community believes, 
quite a bit less likely than some of the others because they 
don't account for some potentially significant contributions 
for Greenland and Antarctica that have been revealed and better 
understood in recent years.
    However values at the high end are based on the warmest of 
the future temperature scenarios that we typically use to 
assess change and make these projections. So more likely we're 
somewhere in between. But those represent the major bounds.
    The expansion of oceans in response to warming 
temperatures, which is responsible for about a third of the 
recent sea level rise, is pretty well understood as we look to 
the future and try and make our projections. Glaciers and ice 
sheets, which contribute pretty much the remaining two-thirds, 
are more complicated. Scientists have a good understanding of 
their melting and accumulation characteristics, the input and 
the output by melt. But the movement of ice which controls the 
rate of discharge into the surrounding seas is less clear.
    Recent observations from satellites and otherwise show that 
a number of key outlet glaciers that drain the Greenland ice 
sheet and drain the Antarctic ice sheet have sped up 
dramatically in recent years. What's not clear is whether these 
accelerations are a precursor to much greater ice loss in the 
future or whether these changes may be self correcting as these 
glaciers adjust to their new shapes in ways that reduce the 
forces that drive that rapid discharge of ice. We just don't 
know and we're working to figure that out.
    Current and planned investments in missions like ICESat-2 
which measures ice elevation change, the GRACE follow on which 
measures mass change of ice, airborne observations of ice 
topography and the geometries of the sub-glacial bed will 
provide insights into the underlying mechanisms of these 
changes and indeed, already have. Satellite data from our 
international partners allow us to examine the variations in 
flow rates of outlet glaciers and track the magnitude and 
character of their acceleration. The information gained from 
these and other complementary endeavors is incorporated into 
ice sheet models designed to predict how ice sheets will 
contribute to sea level rise in the next one to two centuries.
    The modeling activity is an integrated effort jointly 
carried out by NASA and the National Science Foundation and the 
Department of Energy. These observations, along with sustained 
observations of ocean elevation, temperature and circulation 
characteristics, and global water transport, will inform models 
and improve our understanding of the physics, carrying us 
closer to a more complete and robust sea level rise prediction. 
The consequences of a one meter globally averaged rise in sea 
level by the end of this century would be very significant in 
terms of human well being and economics and potentially global 
sociopolitical stability. Because the ocean and in part the ice 
has significant lag in response to temperature changes, the 
rise in temperatures over the last century has already set an 
inevitable course for this century. As a result the effects of 
sea level rise in the coming decades should inform coastal, 
economic and political planning today.
    Thank you for the opportunity to appear before this 
committee today. I'll be pleased to answer any questions you 
may have.
    [The prepared statement of Mr. Abdalati follows:]

   Prepared Statement of Waleed Abdalati, Chief Scientist, National 
                  Aeronautics and Space Administration
    Mr. Chairman and members of the committee, it is my pleasure to 
appear before you today to discuss the topic of sea level rise. Sea 
level rise is one of the most readily recognizable manifestations of 
climate change, because it is directly observable without the aid of 
instrumentation, with very visible effects. Sea level rise is not as 
rapidly variable as many of the other indicators of climate change, 
such as temperature or precipitation. Rather it evolves relatively 
slowly and presents a clear expression of the integrated elements of 
our changing climate.
    Since the late 19th century, measurements of sea level rise have 
been made using tide gauges in coastal regions. These gauges provide 
tremendously valuable information on local changes in ocean height 
relative to their adjacent land. However, they provide an incomplete 
picture of the absolute and global rates of sea level rise because (1) 
their measurement is relative to the ground surface in which they are 
mounted, so they do not account for the upward or downward movement of 
that surface itself, and (2) their distribution is limited, making 
sample measurements in a few places rather than over the global ocean. 
These gauges reflect a bias toward the regions in which they are 
located, grossly undersampling the global ocean; thus they do not offer 
a picture of sea level rise's considerable regional variability. Since 
1993, NASA and its partners have been monitoring sea level continuously 
from space using satellite altimetry. Satellite altimetry has the 
advantage of being able to measure globally, for a more complete and 
representative sampling of the oceans. Moreover, it works in a global 
terrestrial reference frame rather than a local relative one, making 
its measurements independent of the local movement of the underlying 
surfaces.
    Since the beginning of the satellite record in 1993, sea level is 
estimated to have been rising at a rate of 3.1  0.4 mm/yr (see 
attached figure)*. Estimates based on tide gauges prior to 1993 are for 
rates of approximately half that amount.
---------------------------------------------------------------------------
    * Figure has been retained in committee files.
---------------------------------------------------------------------------
    These values represent global averages. Of greater concern to 
coastal managers and those who have to deal with the effects of sea 
level rise, are the regional values referred to earlier, which can vary 
significantly from place to place. Some ocean areas, including parts of 
the Eastern tropical Pacific, have experienced a lowering of sea level 
since 1993, while others, such as the Western Pacific, exhibit sea 
level rise rates several times greater than the global mean. This 
difference is related to: the rising or sinking of parts of the globe 
in response to the loss of the great ice sheets that blanketed much of 
North America roughly18,000 years ago; the global wind patterns, which 
distribute the water differently around the globe by pushing water 
toward land in some areas, and away from land in others; and the 
rotation of the Earth, which also changes the distribution of water. 
According to the U.S. Global Change Research Program report Global 
Climate Change Impacts in the US (2009), ``Approximately one-third of 
all Americans live in counties immediately bordering the nation's ocean 
coasts,'' and similar scenarios are true--often in greater 
proportions--for other nations. For this reason, it is very important 
to understand variations in sea level not just on a global scale, but 
on a regional scale as well.
    Looking toward the future, the projections of sea level rise have 
large uncertainty as a result of our limited--but emerging--
understanding of the factors that contribute to sea level rise. These 
projections range from a low of 0.2 meters by the end of the century to 
a high of 2 meters. Values near the low end of the range are less 
likely than others, since they do not account for some potentially 
significant contributions for the Greenland and Antarctic Ice Sheets. 
At the same time, the highest values are based on warmest of the 
temperature scenarios commonly considered for the remainder of the 21st 
century.
    To understand the current state of sea level rise, and estimate the 
future rates, it is important to understand the elements that influence 
it. In the simplest terms, sea level is the combined effects of the 
following components:

  <bullet> Ocean thermal expansion is the increase in ocean volume as 
        it warms.
  <bullet> Input from the world's glaciers and the Greenland and 
        Antarctic ice sheets can either raise sea level, when the 
        glaciers and ice sheets are shrinking and dumping their mass 
        into the ocean, or it can lower sea level, when they are 
        growing, and taking mass out of the ocean.
  <bullet> Terrestrial storage in groundwater, dams and reservoirs, 
        etc. can either raise or lower sea level.

    Our current estimates indicate that about a third of the sea level 
rise over most of the last three decades is coming from the expansion 
of the warming ocean, while two thirds is derived from the world's 
shrinking glaciers and from the Greenland and Antarctic ice sheets. The 
amount attributable to terrestrial storage is currently negligible.
    While sea level is simple to conceptualize, it is difficult to 
predict, as major contributing factors involved are very complex and 
not well understood. The biggest wild-card in the sea level equation is 
the Earth's great ice sheets. With the equivalent of about 7 meters of 
sea level in Greenland, and 60 meters in Antarctica, their potential 
for contributing to sea level rise is large. To understand how ice 
sheets contribute to sea level rise, one first has to understand their 
mass budget. As with sea level rise, the budget is the difference 
between the mass input to the ice sheet, which comes mainly from snow 
accumulation, and the output, which is mainly a combination of melting, 
discharge or calving of icebergs, and sublimation (direct transition 
from snow to water vapor). If global average air temperatures continue 
to increase along the trends observed over the last 100 years, all of 
these components--accumulation, melting, and discharge rates--are 
expected to increase.
    Analysis of satellite, aircraft and in situ observations, coupled 
with models of the accumulation and precipitation, make clear that the 
Greenland ice sheet has been losing mass at a rate that contributes 
about 0.6 + 0.01 mm/yr to sea level rise, and Antarctica is losing ice 
that translates to the equivalent of 0.45 + 0.2 mm/yr of sea level 
rise. What has the attention of the scientific community, however, is 
that a number of key glaciers in both Greenland and Antarctica have 
dramatically accelerated their flow to the sea in recent years. Some 
have more than doubled their speed in just a few years. This is in 
response to the warming of surrounding seas, which causes the floating 
ice at the ends of the outlet glaciers that drain the ice sheet to 
melt, which then reduces their restraining force on the glaciers 
upstream, causing the ice to accelerate. In the simplest terms, the 
warmer the seawater gets, the less resistance to flow there is in the 
outlet glaciers, and the more rapidly they dump their ice into the sea.
    This phenomenon is of particular concern in the West Antarctic ice 
sheet (WAIS), an area about the size of the states of Texas and 
Oklahoma combined. WAIS contains the equivalent of 3.3 m of sea level, 
and all that ice rests on a soft-bed that lies below sea level. In this 
configuration, as warm seawater melts the floating ice shelves, causing 
them to retreat and the glaciers that feed them to speed up, there is 
no mechanism to stop the retreat and associated discharge, if warming 
continues. Thus the WAIS exhibits great potential for substantial and 
relatively rapid contributions to sea level rise.
    In Greenland, the situation is not as dramatic, since the bed that 
underlies most of the ice is not below sea level, and the potential for 
unabated retreat is limited to a few outlet glaciers. In Greenland, 
however, summer air temperatures are warmer and closer to ice's melting 
point, and we have observed widespread accumulation of meltwater in 
melt ponds on the ice sheet surface. The water from these melt ponds 
often drains rapidly to the bottom of the ice, where it lubricates the 
interface between the ice and the underlying bedrock, and causes a 
rapid acceleration of the ice toward the sea. Both the acceleration due 
to ice shelf retreat, and the acceleration due to meltwater 
penetration, represent potential instabilities and can lead to rapid 
sea level rise. To be clear, ``rapid'' in terms of sea level rise means 
on the order of about a meter or two in a century. There is evidence 
that during some periods over the last 18,000 years, oceans have risen 
by as much as 5 cm/yr (5 meters in a century), which is roughly fifteen 
times the current rate. Such rapid rates of sea level rise are a result 
of rapid discharge of ice from the Earth's great ice sheets, which, 
during the last glacial maximum, were much larger than today.
    These past high rates amplify the importance of understanding the 
underlying mechanisms and their likely behavior in the future. The 
importance is underscored by the vulnerability of coastal populations 
and infrastructure. Unfortunately, while we have the ability to observe 
changes in ice sheets, sea level, and ocean characteristics, our 
ability to predict these phenomena is very limited, and requires a 
greater understanding of the physical processes at work.
    The expansion of oceans in response to warming temperatures is 
fairly well understood, as are some aspects of ice sheet changes--
specifically the loss of ice through melt, and the accumulation of ice 
through precipitation. But the motion of ice sheets, which control the 
rate of discharge to the surrounding seas, are not well understood and 
cannot at present, be predicted with confidence. The speed-up I 
described earlier may constitute a sustained, enhanced discharge 
keeping rates of sea level rise high; it may be a precursor to a more 
substantial discharge through increased acceleration; or it may be 
self-correcting, as these glaciers adjust to their new shapes in a way 
that reduces the forces that carry the ice out to the sea.
    With the development of satellite and airborne remote sensing 
capabilities, coupled with ever-advancing field measurements and 
modeling efforts, we are beginning to understand current changes and 
gain insights into what the future may hold for the Greenland and 
Antarctic ice sheets. Our satellite and airborne capabilities are 
providing observations of glacier flow rates, ice topography (which is 
indicative of the underlying processes that affect change), mass 
change, and depth and topography of the bedrock that lies beneath the 
ice. This last point is particularly important because it is the 
geometry of the bed, in conjunction with surface elevations, that 
determine the extent to which glaciers will continue to accelerate or 
will slow down.
    Current and planned investments in missions such as the Ice, Cloud 
and Land Elevation Satellite 2 (ICESat-2--measuring elevation change) 
and the Gravity Recovery and Climate Experiment (GRACE) follow-on 
(measuring mass change) and airborne observations of ice topography bed 
geometries provide insights into the underlying mechanisms of ice sheet 
changes. NASA also works with data from its international partners to 
examine the variations in flow rates of outlet glaciers, tracking the 
magnitude and character of their acceleration. The information gained 
from all of these projects is incorporated into ice sheet models 
designed to predict how ice sheets will contribute to sea level rise in 
the next one or two centuries. The modeling activity is an integrated 
effort jointly carried out by NASA, the National Science Foundation, 
and the Department of Energy (DOE). NSF also invests in basic 
observations and process studies that are either directly coordinated 
with or are complementary to NASA's activities, and DOE is building 
dynamical models of Greenland and Antarctica, where future sea level 
rise projections take advantage of observations provided by NASA and 
NSF. Through these investments and activities, the scientific community 
is making progress toward addressing the wild-card of the sea level 
rise equation, but we are still a ways off from a level of 
understanding that would allow us to predict future changes accurately.
    Sustained observations of ocean elevation from satellites, in 
particular with the Jason satellite series operated by NOAA in 
collaboration with our European partners, combined with tide gauges 
will provide an ongoing measurement of current rates of sea level rise. 
Continued observations of ice sheets and glaciers will provide 
necessary insights into the physical processes that govern their 
contributions to sea level rise. Ongoing measurements of ocean 
characteristics will continue to inform our assessments of temperature 
and circulation characteristics, which affect the rate of expansion. 
Continued observations of the movement of water throughout the Earth 
will provide important insights into the characteristics of land-water 
storage. All of these data are critical inputs used to inform models 
and improve our understanding of the physics, carrying us closer to a 
more complete and robust sea level rise prediction.
    A complementary method for predicting future sea level rise is to 
compare past temperatures to past sea levels reconstructed from the 
geological record of Earth's climate history. There is a fairly robust 
relationship between the two, and by using this relationship or 
correlation, one can predict values of sea level rise for estimated 
values of future temperatures. This method is a statistical, rather 
than a physical approach, and when applied to future warming scenarios, 
this method provides the highest estimates (2 meters of globally-
averaged sea level rise) for the end of the century. It has the 
advantage of not requiring a detailed understanding of the complex 
physics in order to make a prediction, and it produces results 
consistent with recent history. However, because it does not directly 
incorporate underlying physical processes, this method provides limited 
insight into mechanisms and characteristics of future sea level rise.
    In summary, we can say with confidence that sea levels have been 
rising at a rate of approximately 3.1 mm/yr over the last 30 years. 
About a third of this rise is attributed to thermal expansion and about 
two thirds comes from the melting, retreat, etc. of glaciers and ice 
caps. The projections for the future are very uncertain, and range from 
a low of 0.2 meters by the end of the century to a high of 2 meters. 
This large uncertainty is a result of our currently limited 
understanding of instabilities in flow rates of outlet glaciers on the 
Greenland and Antarctic ice sheets. Moreover, some coastal areas will 
experience perhaps little or no rise in sea level, while others may 
experience rates that are far greater than this globally-averaged 
value. The consequences of a 1 meter rise in sea level by the end of 
this century would be very significant in terms of human well-being and 
economics, and potentially global socio-political stability.
    Finally, because the ocean and in part the ice have a significant 
lag in response to temperature changes, the rise in temperatures over 
the last century has already set an inevitable course for this century. 
As a result, the effects of sea level rise in the coming decades should 
inform coastal, economic, and political planning today.

    The Chairman. Thank you very much.
    Dr. Strauss.

STATEMENT OF BENJAMIN H. STRAUSS, COO AND DIRECTOR, PROGRAM ON 
         SEA LEVEL RISE, CLIMATE CENTRAL, PRINCETON, NJ

    Mr. Strauss. Good morning Chairman Bingaman, Senator 
Murkowski and other distinguished members of the committee. 
Thank you for your attention to this important topic.
    I'm Dr. Ben Strauss, co-author of several recent reports 
and peer review papers assessing sea level risk to the lower 48 
States. I'm also Director of the Program on Sea Level Rise at 
Climate Central, a New Jersey based, non-profit research 
organization that conveys scientific information to the public. 
We take strictly new climate or energy policy positions.
    My testimony will address two topics.
    First, how sea level rise is amplifying risk from coastal 
storm surges.
    Then, the communities and infrastructure exposed at the 
lowest elevations.
    The nearest term sea level projections I will share in 
inches may sound small but they are dangerous. The key problem 
is that rising seas raise the launch pad for coastal storm 
surges and tilt the odds toward disaster. Just a few extra 
inches could mean the difference to flood and disable New York 
City's subway system as an example. You might think of it this 
way. Raising the floor of a basketball court would mean a lot 
more dunks.
    In the long term we are likely to see many feet of sea 
level rise and be forced to redraw the map of the United 
States. The high end of projections for this century would be 
enough to turn Miami-Dade County, Florida into a collection of 
islands. But in the nearer term we will mainly experience sea 
level rise as more and more coastal floods reaching higher and 
higher. In fact, according to our analysis sea level rise due 
to global warming has already doubled the annual risk of 
extreme coastal flooding across widespread areas of the Nation.
    Global average sea level has risen about 8 inches since 
1880. This means that warming is already contributing to the 
damage caused by any coastal flood today. Studies back an 
additional global rise likely this century between one and 7 
feet.
    In some areas, especially for Louisiana, Texas and the Mid-
Atlantic States, sinking land will add to the total effective 
rise. Taking such local factors into account we made mid range 
projections for sites around the lower 48 of one to 8 total 
inches increase by 2030 and 4 to 19 by 2050 depending upon 
location. All along the Pacific from Seattle to the Oregon 
coast to San Francisco to Los Angeles, the part of past and 
projected sea level rise from global warming more than triples 
the odds of century floods by 2030 in our analysis as you can 
see from the display to my left.
    The places with asterisks have a more than 3 times ratio 
between the red bar which gets the odds of a century flood by 
2030 with global warming projections. The blue bar gets the 
odds in a world without sea level rise from global warming. The 
same is true inside the Chesapeake and Delaware bays and many 
sites to the north, a 3 x or more ratio.
    These increases are likely to cause a great deal of damage 
at over half of the 55 sites where we studied flood risk. Storm 
surges on top of sea level rise have better than even chances 
to reach more than 4 feet above the high tide line by 2030. Yet 
nearly 5 million U.S. residents live in 2.6 million homes on 
lands below this level. Multiplied by the national average 
sales price of existing homes in 2010 this stock comes roughly 
to more than $500 billion of residential real estate.
    An enormous amount of infrastructure also lies in the same 
zone from airports to waste water treatment plants and 
including almost 300 energy facilities as you can see in the 
second display along with subtotals for some States and some 
populations figures. The facilities shown are mainly natural 
gas, oil and gas, and electric facilities. More than half are 
in Louisiana, the vast majority of those unprotected by levies.
    In 285 municipalities more than half the population lives 
on land below the 4 foot mark. 106 of those places are in 
Florida, 65 are in Louisiana and 676 towns and cities spread 
across every coastal State in the lower 48, except for Maine 
and Pennsylvania, more than 10 percent of the population lives 
below the 4 foot mark. Maps and statistics for 3,000 coastal 
towns, cities, counties and States are name and zip searchable 
at sealevel.climatecentral.org and I urge you and your 
colleagues and staff members to explore the places important to 
you.
    In conclusion the risks from sea level rise are imminent 
and serious. This is not a distant problem only of concern for 
our children. Escalating floods from sea level rise will affect 
millions of Americans and threaten countless billions of 
dollars to buildings and infrastructure.
    I look forward to answering any questions you may have 
regarding this data and being a resource in any way I can to 
you and your offices. Thank you.
    [The prepared statement of Mr. Strauss follows:]

Prepared Statement of Benjamin H. Strauss, COO and Director, Program on 
             Sea Level Rise, Climate Central, Princeton, NJ
    Good morning, Senator Bingaman and colleagues. Thank you for your 
attention to this important topic. I am Dr. Ben Strauss, coauthor of 
two recent peer-reviewed papers making an assessment of sea level risk 
to the lower 48 states, as well as the summary report* submitted with 
my written testimony. I am also Director of the Program on Sea Level 
Rise at Climate Central, a nonprofit research organization that conveys 
scientific information to the public. We take no policy positions.
---------------------------------------------------------------------------
    * See Appendix II
---------------------------------------------------------------------------
    In my testimony today as in my research, I will address two topics: 
first, how sea level rise is amplifying the risk from coastal storm 
surges, and then, what communities and assets are exposed at the lowest 
elevations.
    The nearest-term sea level projections I will share, in inches, may 
sound small. But they are dangerous. The key problem is that rising 
seas raise the launch pad for coastal storm surges, and tilt the odds 
toward disaster. Just a few extra inches could mean the difference to 
flood a family's basement--or New York City's subway system, disabling 
it for months. You might think of it this way: raising the floor of a 
basketball court would mean a lot more dunks.
    In the long term, we are likely to see many feet of sea level rise, 
and be forced to redraw the map of the United States. The high end of 
projections for this century would be enough to turn Miami-Dade County, 
Florida into a collection of islands. But in the near term, we will 
mainly experience sea level rise as more and more coastal floods, 
reaching higher and higher.
    In fact, according to our analysis, sea level rise due to global 
warming has already doubled the annual risk of extreme coastal flooding 
across widespread areas of the nation. Global average sea level has 
risen about 8 inches since 1880. This means that warming is already 
contributing to the damage caused by any coastal flood today. Diverse 
studies bracket additional global rise likely this century between 1 
and 7 feet.
    In some areas, especially for Louisiana, Texas, and mid-Atlantic 
states, sinking land will add to the total effective rise and compound 
problems. Taking such local factors into account, we made mid-range 
projections for sites around the lower 48 of 1-8 total inches increase 
by 2030, and 4-19 by 2050, depending upon location. All along the 
Pacific, from Seattle to the Oregon coast to San Francisco to Los 
Angeles, the component of past and projected sea rise from global 
warming more than triples the odds of ``century'' floods by 2030 in our 
analysis, as you can see from the display. The same is true inside the 
Chesapeake and Delaware Bays, and many sites to the north.
    These increases are likely to cause a great deal of damage. At over 
half the 55 sites where we studied flood risk, storm surges on top of 
sea rise have better than even chances to reach more than 4 feet above 
the high tide line by 2030. Yet nearly 5 million U.S. residents live in 
2.6 million homes on land below this level. Multiplied by the national 
average sales price of existing homes in 2010, this stock comes to more 
than $500 billion of residential real estate, in a rough estimate. An 
enormous amount of infrastructure also lies in the same zone, from 
airports to wastewater treatment plants, and including almost 300 
energy facilities--as you can see in the second display, along with 
population figures. The facilities shown are mainly natural gas, oil 
and gas, and electric facilities. More than half are in Louisiana, the 
vast majority there unprotected by levees.
    In 285 municipalities, more than half the population lives on land 
below the 4-foot mark. One hundred and six of these places are in 
Florida and 65 are in Louisiana. In 676 towns and cities spread across 
every coastal state in the lower 48 except Maine and Pennsylvania, more 
than 10% of the population lives below the 4-foot mark. Maps and 
statistics for 3,000 coastal towns, cities, counties and states are 
name-and ZIP-searchable at sealevel.climatecentral.org, and I urge you 
and your colleagues and staff members to explore the places important 
to you.
    In conclusion, the risks from sea level rise are imminent and 
serious; this is not a distant problem only of concern for our 
children. Escalating floods from sea level rise will affect millions of 
Americans, and threaten countless billions of dollars of damage to 
buildings and infrastructure.
    Thank you for your attention.

    The Chairman. Thank you very much.
    Dr. Janetos.

STATEMENT OF ANTHONY C. JANETOS, DIRECTOR, JOINT GLOBAL CHANGE 
   RESEARCH INSTITUTE, PACIFIC NORTHWEST NATIONAL LABORATORY/
            UNIVERSITY OF MARYLAND, COLLEGE PARK, MD

    Mr. Janetos. Thank you, Mr. Chairman. Members of the 
committee, thank you very much for the opportunity to come and 
speak with you this morning. I want to make several points 
drawing on my written testimony.
    One, which we've already heard some of, is that there is--
there are known vulnerabilities of the current energy 
infrastructure to the conditions under which they exist today. 
Current sea levels, the rate of rise of sea level, however 
modest in today's world and variability in the climate system, 
frequency and intensity of storms as we know them now.
    But these vulnerabilities are being increased as sea levels 
inexorably continue to rise with risks of damage, service 
interruption and longer term service reduction of vulnerability 
of that infrastructure.
    Third, while we immediately think of the Gulf region, for 
understandable reasons, it is not by far the only part of the 
U.S. with infrastructure that's potentially vulnerable. In 
addition to the exhibit that we just saw, I show in my written 
testimony a map drawn from a very recent scientific assessment 
showing energy facilities, production facilities, in the State 
of California that are potentially at risk of inundation from 
reasonable levels of storm surge.
    Fourth, the risk in any particular location depends very 
strongly on local conditions, subsidence, the status of barrier 
islands. Barrier islands turn out to be particularly important 
because they tend to absorb wave energy. As they erode that 
energy is simply transmitted to the infrastructure and to the 
coastline. In many parts of both the Gulf and the Southeast and 
further up the eastern seaboard, including places closer to 
here in the Newport News, Hampton Roads area, both NOAA and the 
USGS have identified those areas as being highly sensitive to 
the impacts of sea level rise including their energy 
facilities.
    As Senator Murkowski noted in her opening statements, 
Alaska is also seeing very large and rapid changes both due to 
sea level rise, but also due to the loss of ice and 
dramatically increased erosion which has the capacity to effect 
energy development patterns.
    We've already seen both short term interruption and longer 
term reductions in service as a consequence of extreme storms. 
While Hurricane Katrina is the best known example, it's by no 
means the only one. Important to keep in mind is that the 
physical vulnerability of the energy infrastructure itself is 
not the only issue to keep in mind.
    The delivery of energy services, after all, is primarily 
what we care about in both the short term and the long term. 
That also depends quite critically on the status of the 
transportation sector, roads and rails, on communications, on a 
whole host of other aspects of infrastructure. There was, 
within the last 5 years, there was an excellent scientific 
assessment done by the Department of Transportation and the 
U.S. Geological Survey, for example, to look at the 
transportation infrastructure in the Gulf which showed clearly, 
and this is also illustrated in my written contribution, that 
literally thousands of miles of roads and rails that are below 
4 feet of elevation.
    It's worth keeping in mind that the storm surge of Katrina, 
when it made landfall, was over 25 feet. So there's substantial 
transportation infrastructure that's already at risk.
    While we do know these things about the current state of 
vulnerabilities of both energy and transportation 
infrastructures, the scientific assessment literature and the 
risk assessment literature on these topics is really very 
recent. Most of the major assessments have been done, 
scientific assessments, have been done within the last 5 years. 
The two major reports coordinated in the--by colleagues at Oak 
Ridge National Laboratory, were literally done and submitted 
within the last 6 weeks. So we are still, I think, at a very, 
very early stage in trying to assess the depth and the 
confidence that we have in our knowledge base.
    The primary literature itself is still rather sparse. This 
is an area where research is poised to make significant 
contributions to our understanding of this risk and what might 
be done about it as we move forward. In that respect, siting 
decisions, we've talked mostly about current infrastructure. 
But siting decisions for future infrastructure are almost 
completely unexplored. How all the factors that will go into a 
whole set of siting decisions are really relatively unexplored 
in today's world.
    So this is, in closing, this is an area where our ability 
to balance known risks and vulnerabilities with our still 
developing understanding of potential adaptations and actions 
that might be taken. Our relative lack of knowledge that would 
contribute to better siting decisions for the future makes this 
an area where research contributions could make a substantial 
difference. Thank you.
    [The prepared statement of Mr. Janetos follows:]

Prepared Statement of Anthony C. Janetos, Director, Joint Global Change 
Research Institute, Pacific Northwest National Laboratory/University of 
                       Maryland, College Park, MD
    Good morning, Mr. Chairman and members of the Committee. Thank you 
for inviting me to testify this morning. I am very pleased to be able 
to speak briefly on the topic of the vulnerability of the energy 
infrastructure to sea-level rise, and more broadly to climate 
variability and change.
                 a concise summary of current knowledge
    Other witnesses on this panel will speak to the scientific issues 
behind rising sea-levels. The figure below, drawn from the last 
scientific assessment of the Intergovernmental Panel on Climate Change, 
shows mean global sea-level changes over the past century (figure 
provided by V. Burkett)*.
---------------------------------------------------------------------------
    * All figures have been retained in committee files.
---------------------------------------------------------------------------
    By the year 2100, global sea-level could rise somewhere between an 
additional 20 cm and 60 cm, depending on what emissions trajectory the 
world ends up on, and how sensitive the interacting processes of 
thermal expansion and glacier ice dynamics are to rising temperatures, 
both globally and regionally. The science in this area is quite 
dynamic, and some of the physical uncertainties are large, making 
detailed predictions difficult.
    In any particular coastal region, sea-level rise is governed not 
only by the dynamics of the global ocean, but by the particular 
physical forces at work in that region itself. So, for example, local 
bathymetry is important on the ocean side, and so are the dynamics of 
the land itself--whether it is subsiding, as in much of the Gulf Coast, 
for example, or rising, as in parts of the Pacific Northwest. Examples 
from several locations in the Gulf are shown below (figure provided by 
V. Burkett).
    But regardless of the particular rates of sea-level rise in any one 
place, it is clear that there is always some degree of concern about 
potential impacts of infrastructure to rising sea-level, for many 
reasons. This concern can be divided into two parts. The first aspect 
is the degree to which infrastructure is exposed to current or 
increased physical impacts of rising seas.
    One of the biggest concerns in this respect is storm surge, the 
risk of which increases as sea-level rises for the simple reason that 
there is more water to be transported by winds, tides, and waves. So 
even without changes in frequency or intensity of storms, rising sea-
levels will lead to greater storm surge, and therefore greater risk to 
existing infrastructure. An example of why storm surge is of such 
importance is shown by Hurricane Katrina, whose initial surge was more 
than 25 feet at the time of landfall. Katrina's effects included a 
reduction in oil production of roughly 19% for the year through 
disruption of energy infrastructure, and linked transportation 
infrastructure (summarized in Wilbanks et al 2012a).
    The presence or absence of barrier islands can make a very large 
difference in the amount of physical energy that near-shore or on-shore 
infrastructure is exposed to. Barrier islands can absorb a large amount 
of wave energy by acting in effect as natural seawalls, and thereby 
reduce (but not eliminate) the exposure of infrastructure to the 
effects of waves and storm surge (figures below from V. Burkett).
    If storm frequency or intensity were to change as a consequence of 
longer-term changes in the physical climate system, that would also 
have an effect on exposure to physical impacts. The science is mixed on 
these points, with recent scientific assessments from the US Global 
Change Research Program (2010) suggesting that increases in tropical 
storm frequency is not well-supported by the science, but that tropical 
storm intensity is likely to increase over the coming decades.
    The second major component of the potential impacts of sea-level 
rise and climate variability and change on energy infrastructure is the 
intrinsic vulnerability of the existing infrastructure. Infrastructure 
that is already situated in coastal waters, or energy generation, 
transportation, or grid infrastructure that is on the coasts is 
variously vulnerable to storms, erosion, temperature extremes, and 
other aspects of the physical climate system. Some of this 
vulnerability comes simply from location. Several scientific 
assessments and papers identify the locations of major collections of 
energy and other infrastructure in the Gulf region, for example 
(Burkett, Wilbanks, CCSP study). These clearly are vulnerable to the 
effects of tropical storms and the rising sea-level of the Gulf. But 
the Gulf is not the only region with infrastructure that is potentially 
vulnerable. The Hampton Roads/Newport News region of Virginia, for 
example, has been recognized both by NOAA and USGS as being potentially 
quite vulnerable to sea-level rise impacts, and there are power plants 
in coastal regions of California that have been identified as 
potentially vulnerable (figures below from Wilbanks et al 2012a and 
2012b).
    Operators of equipment in the Gulf already recognize, and have 
operational policies in place to deal with the existing stresses caused 
by the physical environment in the Gulf. But it is not clear yet what 
additional procedures might need to be put in place to adapt to 
changing conditions, in large part because of the difficulty in 
projecting climate variability and sea-level rise on regional scales.
    Burkett (2011) identifies six primary drivers of vulnerability of 
coastal (both on-shore and off-shore) energy infrastructure:

  <bullet> Increased ocean and atmospheric temperature
  <bullet> Changes in precipitation pattern and runoff
  <bullet> Sea-level rise
  <bullet> More intense storms
  <bullet> Changes in wave regimes
  <bullet> Increased dissolved CO2 and ocean acidity

    This list of physical drivers of vulnerability recognizes that both 
changes in the ocean environment and the near-shore terrestrial 
environment (e.g. runoff) as well as the climate system itself have 
potentially important implications for energy and other infrastructure.
    Wilbanks and colleagues (2012a,b) point out that the vulnerability 
of the energy sector's physical infrastructure is also linked to the 
vulnerability of other societal infrastructure--in particular, the 
condition and vulnerability of the transportation sector to similar 
physical stresses. Likewise, the vulnerability of the grid itself to 
changes in the physical climate system is important. There are both 
well-documented case studies from particular events (with an emphasis 
on the impacts of severe storms), and concerns about the potential for 
both average conditions and extremes to change over time. A major 
contribution of these assessments is the recognition that the delivery 
of energy services is a multi-sectoral phenomenon, and thus 
considerations of the linked vulnerabilities of major infrastructures 
should be part of an analysis of potential adaptation options. The 
figure below (Wilbanks 2012a) illustrates the complexity of sectoral 
interactions that affect the response of energy infrastructure to 
climate variability.
    A particular example of known vulnerabilities of closely related 
sectors to energy comes from a major scientific assessment of the 
vulnerability of the transportation sector in the Gulf Region, jointly 
conducted by the US Department of Transportation and the US Geological 
Survey (CCSP 2008). One illustration of their results, the distribution 
of road and rail networks vulnerable to long-term inundation, is shown 
below.
                what can additional research contribute?
    While the scientific community and both the public and private 
sectors are assessing what is known about current risks and 
vulnerabilities, there are many knowledge gaps that make assessing 
future risks and vulnerabilities difficult. These gaps provide an 
opportunity for additional contributions from both fundamental and 
applied research.
    In order to help identify some of the knowledge gaps, we provide an 
overall framework based on a research project in our own laboratory, 
supported by SERDP, that will do a vulnerability analysis of military 
installations (Moss, personal communication).
   overview of research approach for vulnerability assessment of dod 
                             installations
    When adapted to the needs of the energy sector, and particularly to 
issues associated with understanding the vulnerability of that sector 
to sea-level rise and other changes in the physical climate system, 
this framework provides a guide to several potentially important 
interdisciplinary research topics.

  <bullet> We clearly need to improve our understanding of the 
        interactions of energy demand and supply with other sectors, 
        including land-use and water, but also transportation. Along 
        with this integrated understanding should come the ability to 
        model integrated systems on regional scales.
  <bullet> At the same time, determine the sensitivity of the energy 
        sector to other stresses and forcing agents, e.g. changes in 
        population, in demand for energy services, in cooling 
        technologies, in the productivity of terrestrial and coastal 
        ecosystems, in the availability of alternative renewable 
        sources of energy such as hydropower and biofuels.
  <bullet> Understanding and quantifying regional climate change, and 
        other regional changes in the physical environment, such as 
        sea-level rise and storm surge, is also a very high priority. 
        The relationships between global changes in these physical 
        systems and regional changes are complicated, but the scaling 
        questions must be resolved so that decision-makers can analyze 
        different possible scenarios of the future at scales that 
        matter to their decisions.
  <bullet> It is critically important to understand the potential 
        magnitude of changes in the climate system, including the 
        oceans, for several decades. But just as important will be 
        fundamental research on other modes of variability in the 
        climate system, including seasonal-to-interannual variability 
        and any potential changes in storm frequency and intensity or 
        other extreme events.
  <bullet> And as important as it is to understand the changes in the 
        physical environment, their forcing agents, and the processes 
        that control how they affect important features of climate, or 
        important aspects of sensitivity of natural systems, it is just 
        as important to understand the human dimensions of change. A 
        much better understanding, and the ability to model adaptation 
        decisions must be sought in order to understand how different 
        potential futures might be addressed in reasonable and 
        thoughtful ways.

    Thank you very much for your attention.
References
Burkett, Virginia. 2011. Global climate change implications for coastal 
and off-shore oil and gas development. Energy Policy 39:7719-7725.
Burkett, Virginia. Personal communication (figures).
CCSP. 2008. Impacts of climate change and variability on transportation 
systems and infrastructure: Gulf Coast study.
Moss, Richard. Personal communication (figure).
USGCRP. 2010. Global Climate Change Impacts on the United States. US 
Global Change Research Program. Washington, DC.
Wilbanks, Tom et al. 2012a. Climate change and infrastructure, urban 
systems and vulnerabilities. Technical Input Report to the US Dept. of 
Energy in support of the National Climate Assessment. Oak Ridge 
National Laboratory. 119 pp.
Wilbanks, T.W. et al. 2012b. Climate change and energy supply and use. 
Technical Input Report to the US Dept. of Energy in support of the 
National Climate Assessment. Oak Ridge National Laboratory. 90 pp.

    The Chairman. Thank you very much.
    Dr. Berry.

   STATEMENT OF LEONARD BERRY, DIRECTOR, FLORIDA CENTER FOR 
ENVIRONMENTAL STUDIES, FLORIDA ATLANTIC UNIVERSITY, JUPITER, FL

    Mr. Berry. Mr. Chairman, Senator Murkowski, thank you. As 
we've learned the sky is not falling but the water is rising. 
That's a problem for Florida.
    It's a special problem. I know Florida is always a special 
case if you read the newspapers. But sea level rise is a 
special problem for Florida for 3 or 4 reasons.
    One, Florida is flat.
    Second, many of those people Ben is talking about live 
within 3 feet above sea level and more are coming there year by 
year.
    Unfortunately Florida is limestone. Limestone is porous. So 
we're not just dealing with the question of water rising. We're 
dealing with the question of water infiltrating into our 
subsurface, polluting, already polluting, our aquifers and 
potentially bringing real dangers to our water supply with high 
energy risks.
    So those 3 or 4 things are at risk for all of Florida. In 
some of my remarks I focus on the Southeast. That's because the 
risks are very heavy there. But all of Florida is impacted, not 
so much the Gulf Coast, but every other part.
    It's not a future problem for us in Florida. At high tides 
we get flooding. That didn't happen 20 years ago. Drains back 
up with unfortunate consequences in some houses. I won't go 
into the details.
    The canals which were planned 50 years ago and built 50 
years ago are beginning not to function. That 8 inches of sea 
level rise that we heard about is the difference. The country 
is so flat that even that 8 inches allows the canals not to 
drain by gravity.
    Water backs up. People get flooded. So we're either dealt 
with drought or flood.
    But that's a current problem. What we're more concerned 
about is the projections for the future. We're looking at 
projections locally where we're focusing, not on 2100 because I 
think people's eyes glaze over at 2100.
    We're focusing on 2030 and 2060. Those two dates are well 
within the planning arisance of most of the agencies. Planning 
roads, planning airports, planning energy facilities, 2060 is 
tomorrow.
    We're looking at the potential for 3 to 7 inches of rise by 
2030, 9 to 27 by 2060. Those are big numbers for us in Florida. 
The impacts for 2060, we estimate 400,000 square miles of 
Florida would be impacted, directly or indirectly.
    Billions of dollars, with a B, of real estate, problems 
from schools, hundreds of schools would be impacted. Most 
importantly and we're worrying about current energy facilities. 
If we're going to deal with the new water facilities, we're 
going to deal with the pumping.
    We're going to deal with adjusting to this level of impact. 
A lot more energy is going to be needed. So we're not 
worrying--we are worrying about current energy.
    But we're also worrying about how we deal with future 
energy. We're going to have to look at the Gulf Stream maybe. 
We've already got some research efforts there, solar energy as 
well as our conventional sources.
    At the ground level people are responding. I think the 
example of the Four County Compact in Southeast Florida is an 
important one. Four counties that normally fight like, 
whatever, to compete with one another are actually working 
together on a sea level rise plan because they feel that what 
happens in one county is going to happen--is going to impact 
the others.
    They, in a brilliant effort, managed to get through the 
State of Florida legislature some legislation last year that 
said we are going to form Adaptation Action Areas. They are 
going to be able by law be able to define areas where special 
adaptation might be experimented with. That process is 
beginning.
    I'd have to say the universities are working pretty hard on 
this topic. The Federal agencies on the ground, particularly in 
association with Everglades National Park and its problems are 
working on this topic. We realize that inaction is not a 
permissible response.
    We propose, I think, 5 things.
    That further effort to be made to identify areas at special 
risk.
    That we should use the Special Adaptation Areas to identify 
planning and removal and reconstruction efforts which would 
incorporate sea level rise into all of our future planning, 
future meaning more than 5 years.
    We should look at the Everglades Comprehensive Restoration 
Plan in the light of sea level change.
    Last, but not least, we should look at the future energy 
impacts that sea level rise will need for the State and for the 
Nation.
    Thank you.
    [The prepared statement of Mr. Berry follows:]

   Prepared Statement of Leonard Berry, Director, Florida Center for 
    Environmental Studies, Florida Atlantic University, Jupiter, FL
    My name is Dr. Leonard Berry. I am the Director of the Florida 
Center for Environmental Studies, Distinguished Professor of 
Geosciences at Florida Atlantic University (FAU) and the Co-Director of 
the Climate Change Initiative at FAU.
                              introduction
    Florida is a special case for sea level rise; it is very flat with 
millions of people living along the coast. A large portion of the 
population relies on subsurface water which is being compromised by 
salt water intrusion due to the porous limestone underlying much of 
Florida. Sea level rise is also complicated by the threat of hurricanes 
and storm surge. Water management in Florida is highly organized, but 
will need major adjustments to accommodate our changing circumstances. 
Most adaptation responses will require a substantial increase in energy 
usage, which will test our already limited resources.
                       people and sea level rise
    Florida has a population of nearly 19 million people and this is 
projected to double in the next 50 years. Approximately 14 million 
people live along the coast. Most of our coastal assets are in low 
elevation areas where water supplies, roads, storm sewers, power grids 
and other infrastructure are at risk from storm surges and flooding at 
high tide. In view of the current sea level rise projections, the areas 
most at risk include: the Florida Keys, coastal and inland Miami-Dade 
County (the City of Miami is the 7th largest city in the country), 
coastal and inland portions of Broward County, the Florida Everglades, 
and the cities, Fort Lauderdale, Cape Canaveral, Charlotte Harbor, 
Cedar Key, and Pine Island Sound. All of these have elevations below 
two feet (Annex C)*.
---------------------------------------------------------------------------
    * See Appendix II for Annexes A-C.
---------------------------------------------------------------------------
    Florida has recorded 5-8 inches of sea level rise in the past 50 
years, and this intensifies existing water management issues. Future 
projections suggest 3-7 inches of additional rise by 2030 and 9-24 
inches by 2060 (Figure 1)**.
---------------------------------------------------------------------------
    ** Figures 1-4 have been retained in committee files.
---------------------------------------------------------------------------
                   florida geology and sea level rise
    The porous limestone underlying much of Florida resembles Swiss 
cheese and makes the state particularly vulnerable to sea level rise. 
Due to this geological structure, building barriers to prevent sea 
level rise is often impractical and financially prohibitive. The coast 
is also vulnerable to periodic tropical storms and hurricanes with 
related storm surge: Hurricane Andrew had storm surges above 17 feet. 
Every increment of sea level rise adds to the devastation of storm 
surge. The combination of sea level rise, intense rainfall, and storm 
surge creates the on-going potential for major flooding.
                       impacts already identified
    Sea level rise is already creating multiple complications in 
Florida.
1) Coastal Flooding
    Even though Florida has experienced only a few inches of sea level 
rise, we are already seeing flooding at high tide due to the backup of 
drainage systems. This new phenomena occurs regularly at lunar high 
tides and is an indicator of future problems as sea level continues to 
rise.
2) Flood Control Issues in Miami-Dade County
    Sea levels were lower when South Florida's flood gates were 
constructed in the 1950s and 1960s. With the few inches of sea level 
rise that we've seen in the past decades, several of these flood gates 
are unable to discharge storm water at their design capacity during 
high tides.
    There is already a multi-million dollar need to retrofit or rebuild 
many South Florida flood gates and a recent report finds that only six 
more inches of sea rise may cripple almost half the area's flood 
control capacity.
3) Salinization of Aquifers
    Many coastal wellfields that withdraw freshwater from the 
productive Biscayne limestone aquifer are located along the coastal 
belt of the Lower East Coast. These wellfields are extremely vulnerable 
to saltwater intrusion due to rising sea level and drinking water 
extraction
    For example, because of sea level rise and salt water intrusion 
into fresh water wells, officials in the City of Hallandale Beach are 
spending $16 million to upgrade their storm water system and to move 
the city's entire drinking water supply westward. City officials 
understand that this is a temporary solution to a problem that will 
worsen in the coming decades.
                        future projected impacts
1) Water Management
    Much of the coastal flood protection infrastructure designed and 
built by the U.S. Army Corps of Engineers 50 years ago will lose its 
design capacity if the projected sea level rise for South Florida 
becomes a reality.
2) Vulnerable Real Estate
    There are 4,315 square miles of vulnerable areas that include 
agricultural land, developed land, forests, mangroves, marsh and tidal 
flats, other swamp and forested wetlands, pastures, sandy beaches, 
scrub, grasslands, prairies, and sandhills. Also included are the 
southern parts of Everglades National Park, billions of dollars of 
residential real estate, hundreds of schools, hospitals, and hotels, as 
well as two nuclear reactors and hundreds of hazardous material sites.
3) Transportation Readjustment
    A recent study emphasized the need for a detailed assessment of the 
implications for roads and other transportation taking into account 
2060 projections for sea level rise. Local studies of South Florida and 
the West Central Coast show that some communities and major 
metropolitan areas such as Fort Lauderdale will lose parts of their 
transportation networks at this level of sea level rise.
4) Coastal well contamination
    Coastal well contamination will extend further inland as sea level 
rise continues.
    Most coastal communities in South Florida depend on wellfields that 
tap underground freshwater aquifers for their water supply. Saltwater 
intrusion into these aquifers is due to the current sea level and 
concentrated coastal development already threatens the region's water 
supply. Between the years 1995 and 2000, a compilation of data resulted 
in an approximate location of the freshwater/saltwater interface on the 
Lower East Coast (Figure 4). The heavily populated area from the 
Florida Keys to Palm Beach County is considered especially vulnerable. 
Many coastal wellfields which withdraw freshwater from the productive 
Biscayne aquifer are located along the coastal belt of the Lower East 
Coast and will be highly vulnerable if saltwater intrusion is 
accelerated due to rising sea level. A more detailed analysis is needed 
to identify the impact of projected sea level rise on selected utility 
wellfields that are at risk of saltwater intrusion.
        implications for energy, water, and resource management
    Water is already heavily managed in Florida with extensive canal 
systems. These will need major retrofitting and reconceptualizing as 
sea level rises. Energy needs will grow rapidly with additional pumping 
needed both for water supply and drainage, desalinization (which is 
considerably energy intensive), and with increased cooling needs due to 
higher temperatures.
    Power demands for additional water treatment cannot be supplied by 
the current grid infrastructure or installed capacity. The results of 
the current water/energy nexus evaluation suggest the possibility of 
conflicts over water supplies in the near future. To reduce this 
potential, resolution of water rights, water quality, and other laws 
will be important.
    Due to the projected increase of energy demands, Florida will need 
to continue to explore alternative as well as traditional energy 
sources. There is widespread, long term potential in alternative energy 
sources such as solar energy, biofuels, and harnessing the readily 
accessible Gulf Stream as an ocean energy resource.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Table 1: Initial Estimates of Energy Adaptation and Costs (source: 
personal communication with Dr. Frederick Bloetscher, Florida Atlantic 
University.)
                               Responses
    Many of Florida's decision makers are aware of these problems and 
are beginning to respond to them.
1) Organizations
    Counties and cities are organizing to respond to sea level rise at 
the local level. The Southeast Florida Climate Change Compact is a 
unique partnership of four diverse counties and was formed precisely 
for the purpose of responding regionally to the impacts of sea level 
rise and other climate related phenomena. This organization has a 
detailed action plan and needs statement that is summarized in Annex A. 
One important contribution of this group is that they have identified 
the need for special adaptation action areas. Legislation incorporating 
this language was passed by the Florida legislature and signed into law 
in 2011. Federal adoption of similar legislation would not only benefit 
Florida but also other states vulnerable to sea level rise.
    Coastal cities such as Punta Gorda, Florida, have invested in 
detailed adaptation plans to monitor and respond to sea level rise. 
Regional planning councils across the state have undertaken initiatives 
that will in part address sea level rise issues. Florida's Department 
of Economic Opportunity has established a multi-agency, multi-
disciplinary focus group to address sea level rise future planning. The 
South Florida Water Management District is conducting extensive 
hydrological modeling and scenarios, along with collaborating with 
other organizations and agencies.
2) Research and Education
    The Florida State University System is undertaking significant 
research programs and state and local projects on sea level rise 
monitoring and adaptation. These include the Florida State University 
System's Climate Change Task Force, the National Science Foundation-
funded Coastal Areas Climate Change Education Partnership, the CLEO 
institute, the Resilient Tampa Bay Project, and a large-scale NASA/
Florida Atlantic University project. The Florida Climate Institute is 
currently expanding to multiple universities and will continue and 
build upon the previously mentioned research and projects. Several 
state and federal agencies have on-going sea level rise studies, these 
agencies include: the Florida Department of Transportation, the Florida 
Department of Economic Opportunity, the Florida Division of Emergency 
Management, US Fish and Wildlife, NOAA, US Army Corps of Engineers, 
National Park Service, the US Geological Survey (USGS), the South 
Florida Water Management District and the Florida Department of 
Environmental Protection. The USGS and other agencies have on-going 
programs on the implications of sea level rise and Everglades' 
restoration. A major summit on the risk and response of sea level rise 
in Florida is scheduled for June 2012 (Annex B).
3) Data Gathering and Monitoring
    There is an on-going need for a thorough vulnerability assessment, 
particularly for communities affected by sea level rise. Comprehensive 
data gathering is necessary. Monitoring environmental changes is vital 
to understanding the impacts of sea level rise. The USGS, in 
coordination with other local agencies, will need to establish a 
region-wide, formal saltwater intrusion monitoring network. Federal 
agencies will also need to develop and implement computer models to 
understand and predict both saltwater intrusion and flooding under 
future sea level rise scenarios.
                          the cost of inaction
    It is important to note that:

          1. For every dollar spent on hazard mitigation, society saves 
        four dollars in the long term
          2. When the mitigation efforts have been on flooding hazards, 
        it is a five to one return on investment
          3. The largest return on investment occurs when mitigation 
        projects focus on reducing business interruption from loss of 
        utilities. Most of Florida's utility infrastructure is 
        underground, situated directly on the coast, and at risk.
          4. Building resilience now will pay off tomorrow.
          5. New coastal infrastructure and large scale, long term 
        restoration projects (i.e. Everglades Restoration) may not be 
        successful and may be a waste of resources and time if sea 
        level rise is not accounted for in the planning and 
        implementation.
          6. There will be long-term societal costs as people move from 
        their homes to inland areas.
                      what should we be doing now
          1. We need to further identify areas and communities at 
        special risk using the State of Florida Adaptation Action Area 
        legislation. Efforts should be made to align Federal 
        legislation with these critical state level policies.
          2. There is an urgent need to incorporate sea level rise 
        projections into all infrastructure and water management plans, 
        including the Everglades Restoration. We can evaluate and 
        better understand the value and utility of restoring freshwater 
        flow. We need increased motoring activities, including 
        additional National Water Level Program Networks (NWLON), which 
        will be important in understanding and tracking changes in sea 
        level rise for the state. Establishment of a state-wide 
        saltwater intrusion monitoring network is also recommended.
          3. We should be identifying future energy needs, including 
        the cost of adaptation, for the coming decades, and moving 
        towards traditional and alternative energy forms to meet these 
        needs.
          4. In addition, we need to utilize our past response to 
        extreme events to create more sustainable community systems. 
        Florida emergency management is already successfully working 
        towards such initiatives.
                               conclusion
    The impacts of sea level rise are already a reality in South 
Florida and, as sea level rise continues, they will further impact all 
parts of Florida. The actions outlined above need to be taken now to 
increase our resilience and prepare for and minimize these impacts. 
People and organizations on the ground are already responding. We are 
delighted that, through this hearing, the US Senate is also responding. 
The people of Florida are already concerned about sea level rise as 
local awareness through major efforts has increased significantly. A 
larger role for the Federal Government is clearly warranted.
                  additional resources and references
Florida Center for Environmental Studies: http://www.ces.fau.edu/
Florida Climate Institute: http://floridaclimateinstitute.org/
South Florida Water Management District: http://www.sfwmd.gov
Four County Compact: http://www.southeastfloridaclimatecompact.org/
Climate Central: http://www.climatecentral.org/
University of South Florida, Resilient Tampa Bay: http://sgs.usf.edu/
rtb/index.php

    The Chairman. Thank you very much.
    Mr. Freed.

  STATEMENT OF ADAM FREED, DEPUTY DIRECTOR, MAYOR'S OFFICE OF 
      LONG-TERM PLANNING AND SUSTAINABILITY, NEW YORK, NY

    Mr. Freed. Good morning, Mr. Chairman, Senator Murkowski 
and members of the committee. On behalf of Mayor Michael 
Bloomberg, thank you for the opportunity to testify on the 
impacts of sea level rise in New York City. The steps we are 
taking through PlaNYC, a long term sustainability plan to 
increase our climate resilience.
    As a city with more than 520 miles of coastline, New York 
City faces real and significant climate risks even without sea 
level rise. Today, more than 200,000 New Yorkers live within 
the Federal Emergency Management Agency designated 1 in 100 
year flood zone. These zones contain vibrant neighborhoods, 
critical infrastructure, natural areas, historic landmarks and 
approximately 200,000 jobs including Wall Street in Lower 
Manhattan.
    Our current vulnerability was tested by Tropical Storm 
Irene which resulted in the first mandatory evacuation in New 
York City affecting approximately 370,000 residents. The New 
York City Panel on Climate Change, convened by Mayor Bloomberg, 
found that New York City sea levels have risen about an inch a 
decade over the past century. This rate is increasing. Our sea 
levels could rise by more than 2 feet by mid century and by as 
much as 4 and a half feet by 2100. This will significantly 
increase the size of our flood zones and lead to greater 
impacts in areas subject to flooding.
    The consequences of sea level rise in New York, if not 
addressed, could have a significant ripple effect throughout 
the U.S. economy. The city generates over $600 billion a year 
in economic activity, roughly 4 percent of the Nation's GDP. 
New York Harbor is home to the Nation's second and third 
largest trade gateways handing over $350 billion in exports and 
imports, over 11 and 20 percent of the Nation's waterborne and 
air freight, respectively.
    Sea level rise will significantly impact our energy and 
water infrastructure, the subject of today's hearing. New York 
is one of the most reliable, densest and extensive energy 
networks in the country including over 90,000 miles of 
underground power cables, over 200 substations and 17 in-city 
power plants. Many of our power plants are located near the 
water to allow fuel deliveries, the use of water for cooling 
and steam generation and water discharges.
    Today, 10 of our 17 in-city power plants are in the 1 in 
100 year flood zone. By the 2050s modest rates of sea level 
rise will increase this number to 13, double the number of 
substations in flood zones, and increase the miles of power 
cables, steam and natural gas pipes vulnerable to coastal 
flooding.
    In terms of our water infrastructure the city's drainage 
and waste water system consists of over 7,000 miles of sewers 
and 96 pumping stations. Our 780 combined sewer and storm 
outfalls and 14 waste water treatment plants are located on the 
water so that gravity can drain the sewer system and treated 
waste water can be discharged into the harbor. A change in sea 
level could substantially limit the ability of these systems to 
drain or discharge requiring system wide and costly system 
upgrades.
    Addressing these risks in a dense urban environment poses 
significant challenges. It is not feasible, desirable or cost 
effective to pick up and move New York City to higher ground. 
Instead PlaNYC includes over 30 initiatives to increase the 
city's climate resilience, our ability to prepare for, 
withstand and recover from extreme events and environmental 
changes. This includes working with FEMA to update the city's 
flood insurance rate maps which have not been significantly 
revised since 1983 when sea levels were 3 inches lower.
    The FIRMs however, only incorporate historic information 
and do not and will not reflect future sea level rise. To 
ensure sea level rise is incorporated into the design and 
operation of our critical infrastructure, we launched a task 
force composed of 26 city, State and Federal agencies and 15 
private infrastructure operators to identify the impacts of 
climate change on our infrastructure and to develop coordinated 
strategies to mitigate these risks. As a part of this effort, 
we are working with the U.S. Army Corps of Engineers, a 
critical partner in these efforts, and academic institutions to 
evaluate a variety of coastal protection strategies. An effort 
funded in part by HUD's Sustainable Communities Program.
    Finally, we are building city projects today to better 
manage these risks. Several waste water treatment plants 
include flood gates and plans to rise critical infrastructure 
above future flood heights. Parks such as Brooklyn Bridge Park 
on Governor's Island, include shoreline treatments and salt 
resistant plantings that can accommodate periodic flooding. The 
entire 60 acre Willets Point's development site in Queens is 
being elevated out of the coastal flood plain.
    Local governments, however, cannot meet this challenge 
alone.
    The Federal Government can assist us by providing 
information, decisionmaking tools, flexible policies and 
funding that support local resilience.
    FEMA should regularly update its FIRMs and provide flood 
elevation data for the 1 in 500 year flood zone. They should 
also include overlays that show where flood lines could be in 
the future as the buildings and infrastructure we build today 
are likely to last through the end of the century.
    Federal agencies could also provide localities with high 
resolution LiDAR data which is the most accurate topographical 
data available.
    In addition Federal agencies must recognize the need for 
regulatory flexibility in urban areas like New York City where 
we do not have room to retreat from the shoreline. Regulatory 
flexibility may also be needed for the water supply system as 
climate events could increase turbidity.
    Funding should be allocated to the U.S. Army Corps of 
Engineers to conduct risk reduction studies in high risk 
communities, the starting point for decisions regarding major 
coastal protection measures. If substantial investments in 
coastal protections are needed Federal funding will be 
necessary both for these measures and to adapt our aging 
infrastructure.
    We must recognize the seriousness of the challenge posed by 
sea level rise and our responsibility to meet them. Climate 
risks should be addressed through an informed, decisionmaking 
based on the latest scientific information and a thorough 
understanding of the cost and benefits of action and inaction. 
New York City is implementing a flexible risk based approach 
that emphasizes those initiatives that have tangible benefits 
today and will have even greater benefits as our sea level 
rise.
    But we cannot do this alone. We need the active and ongoing 
support of our Federal partners. I thank you for the 
opportunity to testify today.
    [The prepared statement of Mr. Freed follows:]

 Prepared Statement of Adam Freed, Deputy Director, Mayor's Office of 
          Long-Term Planning and Sustainability, New York, NY
    Good morning, Mr. Chairman and Members of the Committee. I am Adam 
Freed, Deputy Director of the New York City Mayor's Office of Long-Term 
Planning and Sustainability. On behalf of Mayor Michael R. Bloomberg, 
thank you for the opportunity to testify on the impacts of sea level 
rise on New York City and the steps we are taking through PlaNYC, our 
long-term sustainability plan, to increase our climate resilience.
    As a city with more than 520 miles of coastline, New York City 
faces real and significant climate risks, even without sea level rise. 
Today, more than 200,000 New Yorkers live within the Federal Emergency 
Management Agency (FEMA)-designated 1-in-100 year flood zone. These 
zones contain vibrant neighborhoods, critical infrastructure, natural 
areas, historic landmarks, and approximately 200,000 jobs. Our current 
vulnerability was tested by Tropical Storm Irene, which resulted in the 
first mandatory evacuation in New York City effecting 370,000 
residents.
    The New York City Panel on Climate Change, convened by Mayor 
Bloomberg, projects that the city's sea levels could rise by more than 
two feet by mid-century and by as much as four and a half feet by 2100. 
This will significantly increase the size of our flood zones and lead 
to greater impacts in areas subject to flooding.
    The consequences of sea level rise on New York City have national 
significance. The city is the hub of the largest regional economy in 
the U.S., generating over $600 billion a year--4% of our nation's GDP. 
New York Harbor is home to the nation's second and third-largest trade 
gateways, handling over $350 billion in imports and exports--over 11% 
of the nation's waterborne freight and over 20% of air freight. We are 
home to the headquarters of 45 Fortune 500 companies. Thus, sea level 
rise impacts in New York, if not addressed, could have a devastating 
ripple effect throughout the U.S. economy.
    Sea level rise will significantly impact our energy and water 
infrastructure. New York City has one of the most reliable and 
extensive energy networks in the country, including over 90,000 miles 
of underground power cables, over 200 substations, and 17 in-city power 
plants. Many of our power plants are located near the water to allow 
fuel deliveries, the use of water for cooling and steam generation, and 
water discharges. Today, 10 of the 17 power plants located within the 
city are in the 1-in-100 year flood zone. By the 2050s, modest rates of 
sea level rise will increase this number to 13, double the number of 
substations in flood zones, and increase the miles of power cables and 
steam and natural gas pipes vulnerable to coastal flooding.
    In terms of water infrastructure, the City's drainage and 
wastewater system consists of over 7,000 miles of sewers 95 pumping 
stations. Our 780 combined sewer and storm outfalls and 14 wastewater 
treatment plants are located along the shoreline so that gravity can 
drain the sewer system and treated wastewater can be discharged into 
the harbor. A change in sea level relative to outfalls could 
substantially limit the ability of these systems to drain or discharge, 
requiring costly, system-wide upgrades.
    Addressing these climate risks in a dense urban environment poses 
challenges--it is not feasible, desirable, or cost-effective to pick up 
and move New York City to higher ground. Instead, PlaNYC includes over 
30 comprehensive initiatives to increase the city's climate 
resilience--our ability to prepare for, withstand, and recover from 
extreme events and environmental changes.
    This includes working with FEMA to update the city's Flood 
Insurance Rate Maps (FIRMs), which have not been significantly revised 
since 1983 when sea levels were three inches lower. The FIRMs, however, 
only incorporate historic information and do not reflect the impacts of 
sea level rise. To ensure sea level rise is incorporated into the 
design and operation of the city's critical infrastructure, we launched 
a task force, composed of 26 city, State, and Federal agencies and 15 
private infrastructure operators, to identify the impacts of climate 
change on the city's critical infrastructure and develop coordinated 
strategies to mitigate these risks. As part of this effort, we are 
working with the U.S. Army Corps of Engineers--who remain a critical 
partner in addressing the risks posed by sea level rise--and academic 
institutions to evaluate a variety of coastal protection strategies--an 
effort funded in part by the U.S. Department of Housing and Urban 
Development's Sustainable Communities program.
    Finally, we are building city projects to better manage these 
risks. Several wastewater treatment plants include flood gates and 
plans to raise critical equipment above future flood heights. Many 
parks, such as Brooklyn Bridge Park, include shoreline treatments and 
salt-resistant plantings that can accommodate periodic flooding. The 
entire 60-acre Willets Point development site in Queens is being 
elevated out of the floodplain.
    Local governments, however, cannot meet this challenge alone. The 
Federal government can assist us by providing critical information, 
decision-making tools, policies that support local resilience, and 
funding for flood studies and infrastructure. FEMA should regularly 
update its FIRMs and provide flood elevation data for the 1-in-500 year 
flood zone, so that we can be better informed to take action. FEMA 
should also include overlays that show where the flood lines could be 
in future years--as the buildings and infrastructure we build today are 
likely to last a century. Federal agencies could provide localities 
with high-resolution LiDAR data, which is the most accurate 
topographical data available. They could also issue guidance on the 
differences between Federal storm surge models, such as SLOSH and 
ADCIRC, and when it is appropriate to use them. A model for the 
provision of many of these tools is the United Kingdom's Climate 
Impacts Programme (UKCIP), which is funded by the national government.
    While we all share the objective of protecting and restoring 
coastal wetlands, federal agencies must recognize the need for 
regulatory flexibility in urban areas like New York City, where we do 
not have room to retreat from the shoreline in response to rising sea 
levels. For example, a recent rule prohibiting the use of Clean Water 
Act Section 320 funds under the National Estuary Program for certain 
actions in or near open water or wetlands significantly limits our 
ability to use these funds to protect our coastline.
    Regulatory flexibility may also be needed for water supply systems 
as climate events could increase turbidity. Funding should be allocated 
to the U.S. Army Corps of Engineers to conduct storm damage risk 
reduction studies in high-risk communities, the starting point for 
decisions regarding major coastal protection measures. If substantial 
investments in coastal protections are needed based on a thorough cost-
benefit analysis, federal funding will be necessary for these measures 
as well as to adapt our aging infrastructure. We have received funding 
from the Department of Housing and Urban Development's Sustainable 
Communities program--a critical program that enables cities to reduce 
barriers to achieving affordable, economically vital, and sustainable 
communities--to identify and evaluate flood resilience strategies and 
design standards that may be compromised by climate change. For FY13, 
the President has again requested $100 million for the program, which 
was funded in FY11 but was zeroed out in FY12. I urge Congress to 
continue this innovative program.
    We must recognize the seriousness of the challenges posed by sea 
level rise and our responsibility to meet them. Climate risks should be 
addressed through informed decision-making, based on the latest 
scientific information, and a thorough understanding of the costs and 
benefits of action and inaction. New York City is pursuing and 
implementing a flexible, risk-based approach that emphasizes the most 
effective initiatives that have tangible benefits today and will have 
even greater benefits as our sea levels rise. But we cannot do this 
alone. We need the active and ongoing support of our Federal partners.
    Thank you again for the opportunity to testify.

    The Chairman. Thank you very much. Thanks to all of you for 
the excellent testimony.
    Let me start with 5 minutes of questions. Then I'll defer 
to the others here to ask their questions.
    I think the testimony Mr. Freed just gave is particularly 
focused on what we need to be trying to understand here in the 
Congress. That is what are the actions the Federal Government 
could take to assist local areas, communities, and States to 
deal with this sea level rise, which has already occurred, but 
is expected to increase over the next decades.
    As I understand everyone's testimony, I don't think there's 
any disagreement that we're going to see increased sea level 
rise in future decades, increased over what we've already seen. 
I think the figure one of you mentioned a was 9- or 10-inch 
increase since 1880? Is that accurate?
    Mr. Strauss. Eight inches.
    The Chairman. Eight inches since 1880. But that's expected 
to be increased in future decades.
    Mr. Strauss. Yes, we'll probably get another 8 before 2050.
    The Chairman. So the expectation is that another 8 inches 
of sea rise is likely before 2050?
    Mr. Abdalati. I think it's well within the range. I'm 
comfortable with that number. It's well within the range of 
possibilities. It actually may be at the low end.
    The Chairman. OK.
    Let me just ask if there are other suggestions? Several of 
you have mentioned things.
    Dr. Berry mentioned a couple of things--I think Mr. Freed 
did--that the Federal Government should be doing to try to help 
local and State governments deal with this thing. Also to make 
sure that the decisions that are made at the Federal level with 
regard to siting and design and construction of infrastructure 
take into account this information that you've all described to 
us.
    Are there things that we ought to be doing that we're 
falling short on at this point?
    Dr. Abdalati, did you have any more thoughts on that point?
    Mr. Abdalati. I think as scientists and as people who deal 
with the effects of sea level rise there is always the interest 
and need, frankly, for more information. The challenge, as you 
are well aware, is balancing that against the resources 
available.
    I think the implications that you have heard have made 
clear that the risks are great. I shouldn't say the risks, I 
should say more the vulnerabilities--are quite substantial. 
Because we don't know--we can't tighten up that range for the 
future--we have to make plans, I would say, that exercise 
prudent judgment in the face of that uncertainty.
    So, you know what the Federal Government can do, and 
frankly is doing, is invest. I won't speak to the specifics of 
adaptation and what supports those approaches. I think that 
they've been outlined quite nicely.
    Where I come from is the information. Trying to get that 
uncertainty down, trying to understand what's likely on our 
horizon so that we can plan better. In that sense we are 
actually making substantial investments in monitoring the ocean 
characteristics and monitoring the ice sheet and modeling these 
capabilities.
    So what I believe the Federal Government can do and is 
working to do in terms of information is support the activities 
that NASA, the National Science Foundation, the Department of 
Energy, our international colleagues, frankly, are undertaking 
to tighten those numbers, better understand what's happening so 
that the policy levers we need to pull can be addressed or 
utilized more effectively.
    The Chairman. Dr. Strauss, do you have suggestions for 
things we ought to be doing at the Federal level that would 
respond to this situation?
    Mr. Strauss. Yes, I think if we want to reduce the risk and 
the vulnerability, the actions the Federal Government can take 
can be divided into a few simple categories. I'll just stop at 
that high level.
    One is to preserve, restore, protect natural defenses like 
barrier islands, salt water marshes, beaches. Those things form 
a front line of defense against storm surge. That's being made 
riskier by sea level rise.
    A second area is to build artificial defenses where that is 
appropriate and efficacious.
    A third approach is not to build more in harm's way.
    A fourth approach is to consider a planned retreat from 
places that cannot be effectively protected.
    The Chairman. That sounds like a logical set of options.
    Any of the rest of you want to add?
    Dr. Berry, did you have something to say?
    Mr. Berry. Picking up on earlier comments, I think we need 
2 kinds of information.
    I think we need, as was said, that we need information 
about, better information about what's going to happen in the 
future.
    But I also think, taking a slightly pessimistic view that 
sea level will go on rising, we need much more detailed 
information on areas at risk. That needs more specific air 
photography, more specific mapping.
    I think as we, in areas like the Gulf Coast in Florida, 
which are susceptible to hurricanes, it's not the exact amount 
of sea level rise. It's the storm surge and the associated 
flooding. That is not just a coastal issue. It's inland too. I 
think understanding the risk to communities particularly at 
some of the disadvantaged communities that are most at risk is 
really an important part of planning for the future.
    The Chairman. My time is expired on this first round. But I 
wanted to acknowledge Rafe Pomerance who is in the audience. He 
has been urging we have a hearing on this subject for some 
time. I appreciate his persistence on that.
    Let me defer to Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I'll continue on with your line of discussion here, because 
I think all we need to do is look to Alaska to see what it is 
that we have been doing to identify those areas at risk.
    We've done an inventory of those coastal villages that are 
at risk of literally dropping into the ocean. We have done 
that.
    We have looked to evacuation plans.
    We have looked to how we can build out revetments along the 
sea wall.
    But our reality is that with the Federal agencies that 
exist, they are there to help after the disaster has happened. 
FEMA will only respond once the crisis has occurred. Once 
you've dropped off the edge.
    The Corps of Engineers, we learned, was very limited in 
terms of what it is that they can do to provide assistance. So 
Mr. Freed, I listened with interest to your comments about the 
protection plans. In reality we are not set up well to adapt, 
to have an adaptation plan in place where you then can take 
Federal dollars and State dollars, local dollars, to provide 
for a path forward.
    We can help on the mitigation end. We can help with 
cleaning up the crisis. But we're not very good envisioning and 
being proactive. I think this is something that we need to look 
critically at.
    I was in Louisiana a few weeks ago, as I mentioned. I think 
that is one of the most graphic examples that we have in this 
country of the impact to our energy infrastructure. Because 
that's what this hearing is about, due to sea level rise, is 
Highway 1 or Louisiana Highway 1, that narrow little skinny 
corridor that's nothing but a road connecting you to Port 
Fouchon that hosts the energy infrastructure truly for the 
Nation in terms of what is coming in, what is going out, how we 
service off shore.
    It's a pretty phenomenal community, if you will, that is 
connected by a road that is at or below sea level. The effort 
to raise that up so that we avoid wiping out the road is one 
that has been a many year effort, many billions of dollars. 
They've made some progress to it. But it is a perfect example 
of our vulnerability. We just kind of close our eyes and hope 
we make it through the next hurricane.
    Senator Landrieu isn't here today to speak to it or she 
would be, I'm sure, passionately pounding the desk here. I'll 
do so on her behalf in recognizing that we've got an obligation 
here with energy infrastructure that we have committed to. Yet 
we've got one way in. It is truly at risk.
    So the question I would have to all of you is on the budget 
side. The President has sought $769 million in his 2013 budget 
request to pay for what the Administration is calling Climate 
Finance. It's my understanding that well over $5 billion to 
date has been spent and this has been to direct funding 
overseas to assist.
    The question that I have coming from my coastal villages 
when they find out that it's going to be $150 million to move a 
village of 350 people and they're told that can't happen. Then 
they find out that we're spending money, billions over the 
years, to help overseas. The question is what are you doing to 
help us at home?
    I know that the people of Louisiana ask the same thing. 
They probably ask you, Dr. Berry, down in Florida. What are we 
doing here to help?
    Can you speak to the issue of how we can better prepare the 
map that was presented up there in terms of the number of 
communities that are below 4 foot? I think this should be a 
real wake up call to us that we've got some obligations that 
are pending now. What do we do with them?
    We'll start with you, Mr. Freed.
    Mr. Freed. Yes, thank you for the question, Senator 
Murkowski.
    I think the most critical action or one of the most 
critical actions the Federal Government can do is ensuring that 
the FEMA flood maps are up to date and updated regularly.
    Senator Murkowski. They're lousy right now, by the way.
    Mr. Freed. We know New York City's has a plus or minus 3 
foot margin of error which is well within the bounds of what we 
expect for sea level rise toward the end of the century, so a 
significant risk. That's our current exposure. So ensuring 
they're regularly updated, ensuring they're updated with the 
latest available technology, LiDAR data and ensuring that they 
are forward looking because the flood maps don't just dictate 
flood insurance but our building code in the city where we 
require certain flood protections.
    How infrastructure and where infrastructure are sited and 
to what level is all dependent on the flood maps which by their 
nature and definition only look at historic storms, only look 
at historic flooding. We know that that environmental baseline 
has shifted and is not as relevant as it was looking at future 
risks. So ensuring those are up to date and regularly updated 
is critical.
    I think when you look at the cost of adaptation it's very 
hard to think about because much of what needs to be done will 
be incorporated into existing planning. So as you're upgrading 
a facility, as you're building a waste water treatment plant, 
which you would do even without sea level rise, what is the 
incremental addition that sea level rise and future projections 
play a role into that. So it's not as if there is a single 
price tag for these set of projects that absent sea level rise 
we wouldn't do.
    How do you incorporate that into the ongoing infrastructure 
investments that are necessary to upgrade our aging 
infrastructure throughout the country and in urban areas? What 
is that additive that's needed to address for climate risks?
    Senator Murkowski. Others want to speak to that?
    Dr. Janetos.
    Mr. Janetos. Thanks very much. I would like to move forward 
on this line of discussion. One of the things that the Federal 
Government is doing but could continue to do is the creation of 
a set of tools that actually enable the sort of analysis of 
potential futures. There are 3 elements of those tools.
    One is understanding the energy sector and the investment 
in infrastructure itself. What is a sector actually vulnerable 
to, not just with respect to sea level rise but with respect to 
changes in demand, to the availability of new technologies, how 
sensitive is it to changes in the up shore, onshore, 
environment that after all controls how we manage that land, 
controlled runoff, controls the availability of water, 
sedimentation.
    Second, those integrated tools need to be able to move from 
the sorts of global observations of which we have many to 
actually being able to simulate local conditions, to take into 
effect local subsidence or rising of the land, either sinking 
or rising, the existence or changes in barrier islands. But 
changes in the local geography and physical forcings that 
determine, that help determine, that vulnerability and how it 
will evolve in the future.
    Then the last element that these integrated tools really 
need to incorporate are aspects. The ability to model different 
potential consequences of adaptation actions because one of the 
things that will determine how decisions are made is what 
options are actually available to local institutions, to 
cities, municipalities and towns. Without knowing what options 
are available to them after all, how are they to decide whether 
one is more effective or more desirable than another?
    We really do need to have the development of integrated 
tools that allow us, with the best fundamental science that we 
can muster, but then allow us to put that in the service of 
these decisionmaking institutions and individuals.
    The Chairman. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. I noticed that 
there are very few colleagues from the other side of the aisle 
here in this hearing. But ironically there's an elephant in the 
room.
    [Laughter.]
    Senator Franken. Climate change is the elephant. Climate 
change induced sea level rise is clearly impacting the health 
and security of our Nation. But this is a fact of life that's 
going unnoticed by too many Americans because science has taken 
a back seat to politics.
    We saw this on the Senate Floor shortly after the EPA came 
out with its scientific finding that greenhouse gases endanger 
public health and welfare. Yet this scientific question turned 
into mostly a party line vote here in the Senate. Unfortunately 
this measure to overturn the scientific finding of the EPA did 
not pass, but underscores the difficulty to address this 
challenge when we are so divided on the issue of climate 
change.
    I'd like to go right down the list of panelists. Can each 
of you tell me whether you agree or disagree with the EPA 
finding that the rise in greenhouse gases endangers public 
health and welfare?
    Mr. Abdalati. I certainly agree with that. It does so in 
many ways. Sea level being--particularly getting at the welfare 
component--sea level being the topic we're discussing today, 
but also in terms of air quality, pollution, the effects of 
water distribution associated with that. Where there was a 
reference to a 100-year flood zone; well, those 100-year zones 
based on historical data don't really apply today because 
things are different now. So vulnerabilities: the availability 
of water resources, the kinds of crops that can grow in one 
place are now better suited for others, and so on and so forth.
    So there is very strong scientific consensus on what is 
happening and why, and strong consensus on--not as strong 
because opinions vary--but on the effects associated with 
climate change. But I do want to be clear, you know, science 
needs skeptics. When we stop questioning ourselves and when we 
stop questioning each other, science suffers for it and society 
suffers for it.
    So any respectable scientist welcomes constructive debate 
and discussion, but on the matter of climate change and its 
associated impacts, the consensus is strong. It doesn't mean we 
stop questioning ourselves or each other, but the consensus is 
strong, and I absolutely agree with the EPA finding.
    Senator Franken. OK. I encourage skepticism, but I don't 
encourage cynicism and denial that's paid for.
    Mr. Abdalati. I totally agree. I appreciate your saying 
that.
    Senator Franken. Dr. Strauss.
    Mr. Strauss. I agree with EPA's finding. I agree with Dr. 
Abdalati. There is a strong scientific consensus about what is 
happening.
    On the subject of this hearing, I would like to point out 
again. That under our noses is the fact and it's been budgeted 
and detailed and accounted for that we have 8 inches of global 
sea level rise, more in some places locally, but 8 inches of 
global rise which has been caused by global warming over the 
last century. So if your basement was flooded because a 5 inch 
wall of water came pouring down your stairs you were a victim 
of climate change.
    That's happening with coastal floods today. It's unlabeled. 
It's unrecognized. But it is, in fact, a current and ongoing 
impact.
    Senator Franken. Dr. Janetos.
    Mr. Janetos. Senator, I've had the privilege of either 
participating in or leading a number of the impact scientific 
assessments of climate impacts in the U.S. over the last 
decade. Every one of them has come to the same conclusion. That 
for natural resources and as we've seen today, for major parts 
of our existing infrastructure, the impacts of changes in the 
climate system are not some theoretical thing that will happen 
to our children and grandchildren.
    Things are happening now. They're well documented. I was 
actually a reviewer of the underlying scientific assessment 
that EPA did to support its finding. I agreed with it then and 
I agree with it now.
    Senator Franken. Is it OK if we go through all the 
witnesses?
    The Chairman. Go ahead.
    Senator Franken. Dr. Berry.
    Mr. Berry. Yes. I'll be brief. I agree.
    But I also think that from a practical point of view 
instead of too much debate about global warming focusing on the 
issues like we are today is a very productive way forward. But 
I agree totally.
    Mr. Freed. Thank you, Senator. I unequivocally agree with 
that finding. I think there are very few elements of our lives 
that will not be impacted to some degree by climate change.
    Just want to add and thank for the opportunity to be here 
because while there are national and international debates 
about whether climate change is happening and what are the 
impacts from things like sea level rise, it's often the State 
and local governments who are left to deal with the real 
impacts that are already occurring. So greatly appreciate being 
included in today's discussion.
    Senator Franken. OK. My time is up. Thank you to all the 
witnesses.
    I just want to say something I've said before that we are 
paying the price already for this. That part of our debate on 
what kind of energy we go forward with and what kind of energy 
we use and what kind of energy we develop. Part of the cost 
benefit analyses of all of that has to take in account, into 
account, what we're talking about today.
    If we don't we're sticking our head in the sand. Now I've 
had an ostrich and an elephant in my testimony.
    [Laughter.]
    Senator Franken. Thank you.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. I can't possibly 
compete with Senator Franken for purposes of analogies, but I 
very much share your concerns, Senator. I appreciate your 
making the point.
    Gentlemen, you all have raised some important issues. Dr. 
Strauss, Senator Cantwell and I were just commenting that you 
kept looking at the two of us, Oregon and Washington. So we 
understand what the stakes are in terms of storm surges and 
tsunamis.
    My judgment with respect to some of these key questions 
about rising sea levels also now factors in the fact that I 
went to Fukushima last week, about a week or so ago. Of course, 
there they had the triple whammy. They had the earthquake. They 
had the tsunami which destroyed most of the site's backup 
generators for the plants even one of their emergency battery 
banks. Then we had the hydrogen explosions as well.
    Now, Dr. Strauss, you noted in your testimony something 
that I think really hasn't gotten a lot of debate. It certainly 
should after Fukushima and with the latest evidence. That is 
that a rising sea level raises the launch pad for storm surges. 
It is going to raise the launch pad for tsunamis as well.
    Now what I'm thinking about on the basis of what I saw a 
little bit ago at Fukushima, unit four, you know, in 
particular, particularly damaged one. Just the inventory of the 
essentially, the hottest, you know, materials. You have another 
earthquake/tsunami kind of rupture with these spent fuel, you 
know, rods in these pools. The spent fuel rods are going to 
melt. They could catch fire.
    That's going to release a lot of radioactivity. All of this 
is compounded by the testimony that you gave essentially this 
morning with respect to the rising sea level raising this, you 
know, launch pad. So I believe the question that I'd like to 
ask and maybe start with you, Dr. Berry.
    We've got a lot of nuclear plants located along the coast 
all over the world because of the need for, you know, cooling 
water. On the basis of these rising sea levels and also what 
was seen at Fukushima, what I've tried to outline just in a 
minute or so. Is it your view that it's time for us to do some 
rethinking with respect to the location of vulnerable plants? 
Plants that are near to catastrophic, you know, flooding that 
was, for example, caused by a tsunami that Dr. Strauss, all but 
stared down Senator Cantwell and I and kind of talking about?
    This is not abstract issues for us in the Pacific 
Northwest. These are very, very real. So what is your thinking 
with respect to that point, Dr. Berry?
    Mr. Berry. Florida has the, I think, unique distinction of 
having two nuclear power stations on barrier islands. Barrier 
islands are by definition fragile environments. There were good 
reasons to locate them there.
    But as a colleague of mine says, 3 feet of sea level rise 
would be a problem for Turkey Point. For example, that nuclear 
power station because Turkey Point when out of commission for a 
few hours with Hurricane Andrew and the storm surge associated 
with that, 3 extra feet and with a storm that was a longer 
duration. Hurricane Andrew was very fierce, but it went through 
very quickly.
    I would recommend very importantly that the NRC begin to 
look very closely at the implications of sea level rise on our 
nuclear facilities and our other energy facilities that are 
near the coast.
    Senator Wyden. One last question if I might for you, Dr. 
Strauss. Can you amplify a little bit on this question of the 
rising sea level serving as a launch pad because for us in the 
Pacific Northwest that is going to be a very real issue? I 
juxtaposed what I saw at unit 4 and these, as you know, these 
facilities are right next to the ocean.
    There's what amounts to a makeshift bag of rocks that 
constitutes a sea wall. It just takes your breath away at the 
thought of sort of what you've outlined in terms of rising sea 
levels, tsunamis triggered by earthquakes. I mean, give us a 
little bit more analysis of the implications of an elevated 
launch pad and what that means in terms of trying to our think 
through public policies to deal with them.
    Mr. Strauss. Thank you, Senator. I lived in Seattle for a 
couple of years and Portland for a summer, maybe that's why I 
was directing my gaze.
    Let me start with something a little different, quickly. 
The Pacific Northwest seems to get an enormous earthquake 
magnitude, about 9.0, every 300 to 500 years. The last one was 
in 1700.
    One that that those earthquakes do besides creating a lot 
of direct damage is lower the elevation of the land sometimes 
dramatically, very suddenly. The forecast would be for maybe 
one or two meter drop at the next 9.0 earthquake along portions 
of the coast. So while a lot of areas in the United States are 
slowly subsiding that's not very much the case in the Pacific 
Northwest.
    In fact, parts are lifting up slowly because of the tension 
between tectonic plates. But the earthquake is when that 
tension relieves, the plate drops. So you could have places 
that are suddenly a meter lower which is another way of raising 
the launch pad once you get past the damage from the quake.
    The other point is that all along the Pacific sea level 
rise from climate change is making a big difference--is along 
the Pacific sea level rise is converting century storms into 
decade storms or annual storms faster than anyplace else in the 
United States. That's because while you don't have hurricanes. 
So the difference today between a 1-year storm and a storm that 
happens only once in a hundred years is relatively small.
    Because that difference is relatively small, a small amount 
of sea level rise converts what's today a once a century storm 
into an annual storm fairly quickly. Now if you have steep 
slopes it may not be a great problem. But in flatter areas or 
where there are critical facilities, it is.
    So what all that means is that on the Pacific Coast you'll 
start to see water in places where it wasn't more quickly than 
in other places.
    Senator Wyden. My time is up. But I want to thank you for 
your work and your scientific expertise.
    Dr. Strauss, I think this is going to help provide a wakeup 
call for us to put in place policies to start dealing with 
this. I thank you.
    The Chairman. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. Thank you Dr. 
Strauss and panelists for bringing up these issues.
    I would just note that my colleague, Senator Collins and I 
worked on an adaptation bill several years ago. We got this 
bill out of the Commerce Committee, but not all the way through 
Congress. I also must tell you that we're seeing the impacts of 
climate change right now in the Pacific Northwest, on ocean 
acidification levels, and the related negative affects on the 
shell fish industry. So we're really seeing economic impacts 
today.
    In regard to your statement about the impact of storms, I'm 
not so sure we haven't already had those 200-year events back 
to back in the last few years when we saw major damage. But now 
you're talking about a century flood more than triples by 2030. 
I am concerned about these threats because we have so much 
vulnerable property in the Puget Sound. We have something like 
$27 billion worth of structures that could be impacted by this 
rise in sea level.
    So, to me, the issue is what do we do now? Do you think 
that this is partly an issue of getting maps established? Some 
verification of these maps at local levels? When you think 
about what we've been doing for emergency response and things 
of that nature, we have to get the information and develop a 
plan.
    We have to get people to understand what the impacts are 
and then we can support communities in trying to plan around 
them. We know this already because of the general threat of 
tsunamis. But what you're saying is get ready.
    We're going to see a lot more of this. It's going to have a 
very, very dramatic economic impact, much greater than people 
realize.
    Mr. Strauss. Thank you, Senator.
    Yes. I expect there will be a significant economic impact. 
That we're already experiencing one, although we may not label 
it as such.
    I agree with my colleagues that we will be able to deal 
with this problem much more efficiently if we have better 
information. One side of that better information is improved 
maps, improved elevation maps at a very fine scale in coastal 
areas. I know a lot of progress is being made on that front 
with laser, LiDAR elevation mapping.
    I think the more difficult area is actually around 
understanding storm surge and the water dynamics. You know, our 
analysis--so our analysis of elevation, in my research, covers 
all of the area, all the coastal area in the lower 48. But our 
analysis of storm surge focuses on 55 water level stations that 
NOAA maintains around the coast. One is in Seattle. But they're 
scattered.
    So understanding in detail what the storm surge patterns 
are in between those 55 stations involves a lot of scientific 
fire power, a lot of computing, a lot of simulation of 
different storms from different angles, at different tides. So 
there is a tremendous amount of work that I think we could do 
to improve our understanding of how sea level rise will 
interact with storm surges and progressively reach new areas 
posing new risks.
    Senator Cantwell. I can tell you I plan on introducing 
legislation to make sure that we implement what is necessary to 
become a weather ready Nation. The notion that we have 
information that could be helpful to the American public about 
storms but we just don't have the dedicated computing time to 
take all the algorithms and run the scenarios is a mistake. We 
must move forward.
    The fact that NOAA now has almost hand held devices that 
can communicate within an instant of an earthquake what the sea 
level rise would be in a geographic area--that's the kind of 
technology we need to have in first responders' hands. So I 
think we just have to figure out how to be much more aggressive 
about outlining these maps and scenarios for people, so that we 
can start planning.
    Obviously, we need to do more. I mean, you're talking about 
effects that are going to take place regardless of whether we 
do anything about climate change or greenhouse gas emissions 
through climate change legislation. These are things that are 
going to happen.
    So now the question is if we keep making it worse, what are 
the scenarios that are going to happen? I believe that this is 
worth a lot of prevention. To do this, we need the computing 
time.
    Just as an example, we were without a Doppler system in the 
Northwest. Now we have that state-of-the-art Doppler system on 
the coast, and it can tell us much more about storm intensity. 
It can say exactly where that water level is going to be. It 
helps us communicate this to people.
    But, first, we have to get the information to local 
governments, to individuals, to first responders, so that they 
can understand what the scenario really is. I think today's 
hearing, Mr. Chairman, really goes a long way in highlighting 
how critically important this is to our economy. We just can't 
sustain this kind of level of sea level rise without a plan.
    We need a plan.
    Thank you.
    The Chairman. Thank you.
    Let me ask, you know, I think the way we've been talking 
about it and the way I've thought about it most of the time is 
that we need to have good information in order to make good 
decisions about investment in infrastructure. But it seems to 
me that we also need good information in order to make good 
decisions about investment in protection.
    That we have sort of an article of faith here in Congress 
that we want to help protect wetlands, coastal wetlands and 
there are a lot of coastal wetlands that are very much at risk. 
We saw some of the damage to them with the various hurricanes 
in the Gulf Coast.
    What does this expected sea rise tell us about what we 
ought to do with regard to protection of wetlands. I mean, do 
we need to be hardnosed about which areas are in fact worth 
protecting because they are sufficiently resistant to this kind 
of thing that they can make it? What areas can we just not 
expect to protect?
    Maybe that's too hard or too subjective a question to 
answer very well. But I don't know if anyone wants to take a 
shot at it.
    Dr. Berry.
    Mr. Berry. I think the Fish and Wildlife Service is putting 
a good deal of effort in Florida and in the Southeast and 
generally looking at this very issue. One of the strategies, 
maybe, that you decide which wetlands are able to migrate 
inland and which are not. Try to make decisions about the value 
of protecting coastal wetlands.
    The ideal circumstance is to have that wetland migrate 
inland as the sea level rises. If that can happen and there's 
space for it. We're actually looking at corridors of protected 
areas that could be used for natural and people assisted 
migration, not only of wetlands, but of animals and other 
characteristics.
    But we are in danger of losing 30 to 40 percent of our 
coastal wetlands through the sea level rise process. That is a 
very unfortunate view of the future. But it's likely to happen.
    The Chairman. Dr. Freed.
    Mr. Freed. Mr. Freed, but thank you for the promotion.
    The Chairman. Mr. Freed, excuse me.
    Mr. Freed. You're making my Jewish mother very proud of me 
now.
    [Laughter.]
    The Chairman. Great.
    Mr. Freed. You know, New York City already has over 6,000 
acres of wetlands. Many people don't think of New York City 
with the vast natural earth that we have. We have a number of 
projects working with the U.S. Army Corps of Engineers with the 
bi-State Port Authority of New York and New Jersey to restore 
those wetlands for the ecological value that they have.
    However, as was just pointed out, you often can't migrate 
the wetlands back when you have sea level rise, when you have 
densely populated, already built up areas. What we want to do 
is look at what is the ecological value of the wetlands that we 
may lose to the wetlands that we have. Figure out where it 
makes the most sense to make investments to protect them and 
preserve them.
    One of the strategies we're looking at is creating a 
mitigation banking system where we can actually use economic 
growth and development to create a mitigation bank to then 
preserve those areas and those wetlands that have the greatest 
ecological value, contiguous areas. I think looking for those 
strategies where you can pinpoint and really maximize the 
investments in which you're making are critical to address the 
issues that we have. Use the ecologically based adaptation 
strategies, the natural systems that know how to protect us 
against the risks that we face.
    The Chairman. Dr. Janetos.
    Mr. Janetos. Senator, we understandably focus on the 
effects of the physical effects of inundation of sea level rise 
when we talk about coastal wetlands. But there are two other 
factors to also keep in mind as we start to think about what 
affects their ability to survive in place.
    One of those is the actual acidity of the ocean water 
itself. The extra carbon dioxide in the atmosphere has actually 
had the effect of raising the acidity of the ocean, coastal 
oceans, as well. While we don't understand everything we would 
like to understand about the sensitivity of plants and aquatic 
marine plants and animals to that increase in acidity, for many 
of the species that we do know something about we're starting 
to see adverse impact.
    So that's one thing to keep in mind.
    The second is that the survivability of wetlands on the 
coast also depends, in large part, on what happens upstream. 
The availability of sediment coming down river, simply the 
availability of water flow coming down to the coast depends 
critically on how or if we manage lands upstream. So an 
integrated knowledge and the integrated strategies of 
protecting or continuing to value those coastal ecosystems or 
their ecological value also depends not only on knowing about 
the sea level rise itself, but on what's happening in the near 
shore environment upstream on solid land.
    The Chairman. Dr. Strauss, did you want to make a comment?
    Mr. Strauss. Yes. I, just briefly, I'd like to expand on 
Dr. Berry's comments to say some salt water marshes will be 
able to migrate at least within a certain range of rates of sea 
level rise. But they'll only be able to migrate if there is 
available adjacent land.
    So one possible step that we can take if we want to 
maximize the ability of marine wetlands to protect us from 
storm surges is to protect the adjacent land that is available 
for migration and expand our idea of what the footprint of a 
wetland is from, you know, the current wetland to the potential 
future wetland.
    The Chairman. Very good.
    Senator Franken, did you have questions?
    Senator Franken. Yes, I do. Thank you, Mr. Chairman.
    Dr. Abdalati, Minnesota is OK for now, right?
    [Laughter.]
    Mr. Abdalati. You're doing fine for now.
    Senator Franken. OK. Good. We have Lake Superior in 
Minnesota. A little known fact is that the Great Lakes? 
coastline is twice as long as the Atlantic seaboard. Almost 3 
times the length of the Gulf of Mexico. So you can see why 
we're thinking about water too.
    But the issue is complex and the international upper Great 
Lakes study has shown there are major differences between 
climate impacts on sea levels and on Great Lake levels. We 
know, for instance, that because of increasing evaporation over 
the past 60 years, Lake Superior levels have been dropping. But 
lake levels can rise or drop quickly and the possibility of 
higher levels at times cannot be dismissed.
    These uncertainties impact commerce, recreational uses and 
water and sewage and sewer infrastructure. If we are going to 
have sound management of the Great Lakes coast we ought to have 
a better understanding of the factors impacting those lakes. 
The study called for a collaborative effort among Federal, 
State and local agencies on Great Lake management and 
decisionmaking.
    My question, Dr. Abdalati, is, is NASA aware of this 
collaborative, adaptive management process being developed for 
the Great Lakes?
    Mr. Abdalati. I would certainly have to check with the 
Director of our Applications Division in Earth Science for 
specifics on that. But I will say, you know, you touched on 
some very important points. The mechanisms that are affecting 
the levels of the lakes are different. But they are no less a 
manifestation of our changing climate.
    You referred to the increased evaporation. There's also the 
flip side of that, the ability of the atmosphere to carry more 
water vapor leads to larger precipitation events as well. The 
movement of lake water from one shore, you know, as the winds 
circulate pushing the lake up on one side, lowering it on 
another and vise versa, happens, is also associated with the 
complex weather and climate patterns that occur.
    So, you know, I agree--or what you put your finger on is--
there are multiple manifestations of our changing climate. 
While the mechanisms of sea level rise and the mechanisms of 
lake changes are different, they are interconnected in that 
way.
    I think partnerships, as was referred to at all levels of 
our government, are essential for success because each brings 
to the table a different perspective, a different element and 
different capabilities.
    Senator Franken. What resources, such as NASA's climate 
modeling capacity or hydro-climatic data collection abilities 
can you provide to this Great Lakes Management Process?
    Mr. Abdalati. Certainly our insight to climate prediction, 
our insight to water movement and water transport--what a lot 
of people don't realize is we have satellites, a pair in 
particular called GRACE (Gravity Recovery and Climate 
Experiment), that measure the movement of water. They get a lot 
of visibility because they're tracking changes in the ice 
sheets and their contributions to sea level rise.
    But they also track changes in lake volume for lakes that 
are large enough. Terrestrial water storage, you know, when 
soil becomes moist that has a gravity signal that these 
satellites observe.
    There are certain space based capabilities. There are 
higher resolution, visible imagery that can look at the 
characteristics in coastal regions, the erosion processes, the 
exposure processes, the health of the surrounding vegetation.
    Actually I was glad to hear about the LiDAR mapping 
application because that was actually pioneered by NASA. We've 
used it to track elevation changes in glaciers, but one of the 
activities when I was a post-doc at Wallops Flight Facility was 
doing beach mapping using LiDAR to track--or measure--the beach 
characteristics before a hurricane and then after a hurricane 
to assess--or quantify--the erosion characteristics and get at 
the underlying physics.
    That has been transitioned largely to commercial 
enterprises. But certainly that capability, those tools and our 
expertise in that area, I think would be of tremendous value 
for the vulnerability assessment: management input, or 
capabilities, or input to management practices, and so forth.
    So the satellites, the aircraft, the models, our 
relationships with industry in making these kinds of 
observations, and finally the context and the broader climate 
Earth system characteristics, are all elements that would 
support a strategy that integrates State functions, Federal 
functions as well as the local municipalities.
    Senator Franken. I would like to ask you or urge you to 
work with my office and to pursue this aggressively. I think 
it's a good opportunity.
    Mr. Abdalati. I'd be more than happy to do that.
    Senator Franken. Oh, thank you. Thank you very much.
    Mr. Chairman.
    Mr. Abdalati. I actually have to because my wife is from 
Minnesota and I owe it to her. I have to pay back.
    Senator Franken. I understand that.
    [Laughter.]
    The Chairman. You have that same situation.
    Senator Franken. My wife is from Maine.
    The Chairman. Oh.
    Senator Franken. So I have to do certain things regarding 
Maine.
    The Chairman. I see. I see.
    Senator Franken. But I understand the dynamic.
    [Laughter.]
    The Chairman. I see, general dynamic.
    Senator Franken. Yes.
    The Chairman. Alright. Let me ask about a specific issue. 
My impression is that private insurance companies are not 
anxious and rushing forward to provide insurance against the 
kinds of flooding that we're talking about in these coastal 
areas. So it falls to the Federal Government to provide that 
insurance.
    Do we know if the information you folks have been 
testifying on this morning is adequately incorporated into the 
projections for what it's going to cost the taxpayer, the 
Federal Government, to cover the cost of these expected future 
climate changes? Is that something that is factored in or is it 
just we're sort of flying blind here? We don't have any idea we 
just pay the bills when they come in?
    Don't have any expectation as to what--as I've understood 
the way insurance companies operate they do pretty 
sophisticated projections of what their liabilities are going 
to be going forward. Only by doing that are they able to set 
the premiums at a level that allow them to make money. At the 
Federal level I don't know if we're doing that.
    Have any of you looked at this question or have any 
information about it?
    Mr. Freed.
    Mr. Freed. Certainly. In New York City there's a large 
disconnect, I think, between the information we have and know 
is coming and what is provided. There are large parts of the 
city and Long Island where you simply can't buy flood or wind 
insurance that the private insurance market has abandoned those 
areas because they view the risk as too great.
    Those areas are larger than the 1 in 100 year flood zone. 
Because they recognize that the risk has migrated out of those 
zones and is beyond that which then leaves the National Flood 
Insurance program on the line to provide insurance as a last 
resort. In many cases the property values are capped at 
$250,000 in the flood insurance program which can often exceed 
the full value of the homes that they're insuring.
    Therefore there's a large unmet risk that you either need 
to try to seek the private market to fill or the property owner 
themselves is left to fill after an emergency which then 
increases the cost beyond the flood insurance program to 
disaster aid and recovery. So I think there's an enormous 
disconnect. You're seeing the private insurance markets 
reacting by simply not providing insurance to those areas.
    The State, local, Federal Government will have to fill that 
unmet need.
    The Chairman. Dr. Berry.
    Mr. Berry. Very similar situation in Florida. We have 
Citizen's Insurance which I pay into which is a State 
insurance. That is not backed by a great deal of reinsurance.
    It's not backed by the amount of reinsurance that would 
enable us to deal with a major hurricane. As time goes on it's 
going to be more and more difficult, I think, to get insurance.
    We do have a meeting in June in which this is an important 
component. We're looking at it as a specific issue and getting 
some of the insurance companies at the table.
    The Chairman. Good.
    I think this has all been very useful. We appreciate the 
excellent testimony. We will try to take some of your 
suggestions for actions we can take here at the Federal level 
and urge those on our colleagues here.
    Thank you. That will conclude our hearing unless you had 
another question, Senator Franken?
    If you did, go ahead.
    Senator Franken. Thank you, Mr. Chairman.
    Basically I wanted to ask about addressing climate change 
in the long term. I think it requires that we grow clean energy 
sources. But many of our Federal incentives that had been in 
place like the Wind Energy Production Tax Credit are expiring 
which is a serious blow to clean energy and to tens of 
thousands of jobs including, Mr. Abdalati, in Minnesota.
    So this is a little pressure on you. We actually found a 
way to extend these incentives. It would require closing a few, 
well it's not loop holes, it's subsidies that we give to big 
oil and gas companies. It's the top 5 that made $137 billion of 
profits in 2011.
    I think that if you make $137 billion, if you're those 5 
companies, you really don't need tax subsidies from the 
taxpayer. So the Senate recently voted on the measure to close 
$2000 billion, $2 billion worth of these subsidies to help our 
alternative energy sector and that measure failed largely 
again, along party lines. I find that really troubling.
    This means that those who voted against the measure said no 
to growing our clean energy economy simply because they don't 
want the profits of big oil to go down $2 billion, I guess, or 
they argued that this would increase the cost of gas at the 
pump. Although we had experts on what was causing the price of 
gas. My question on that they said that eliminating these 
subsidies would have either a non-existent effect on the price 
of gas or negligible.
    My question is that Minnesota has reached a goal to reach 
25 percent renewable energy as early as 2025. We're already 
ahead of pace on that. Hopefully that's just the starting 
point.
    Could you talk about the importance of expanding clean 
energy globally as a way to address climate change and rising 
sea levels?
    Mr. Abdalati. I'll comment because you brought up a very 
important point. I won't comment specifically on what should be 
done to increase the development of renewable energies or 
alternative energy sources. But what I will say is we're well 
aware the climate is changing. I don't think there's, in the 
scientific community, any dispute about that.
    The climate has always changed. It always will for various 
reasons. But the success of society in the face of those 
changes really depends on 3 things:
    It depends on how big the changes are.
    How rapidly they come.
    Our ability to anticipate and prepare for them.
    So when you're talking about alternative energy sources 
you're tackling two of those 3 elements. You're tackling the 
potential magnitude of the change, not just of climate but 
ultimately sea level as well. You're tackling the rate of 
change.
    So in my view, if that is not motivation--if the success of 
society in the face of these changes--is not motivation, I'm 
not sure what is. You know, there are some who challenge even 
the assertion--or the assessment--that climate is changing, and 
for these reasons. But if you look at the fact that we mention 
insurance companies, those whose economies--or economic 
models--depend on data and accurate data, are among the biggest 
users of climate data, are taking this seriously.
    Our military charged with the safety of our Nation, 
protecting our citizens, are taking this very seriously.
    So it's clear there are changes coming.
    It's clear that the way we use energy is contributing to 
those changes.
    I think it should be equally clear that our success in the 
face of those changes really depends on slowing them down, 
keeping them as small as we reasonably can. I'm not talking 
about going crazy and reeking economic havoc. Although I don't 
know what it would take to do that.
    But investments in alternate energy are, I think, essential 
for a successful future.
    Senator Franken. Dr. Strauss.
    Mr. Strauss. Thank you, Senator.
    I'd like to elaborate for a moment on the big picture, sea 
level wise. Dr. Abdalati made two excellent points. We have 
some ability to influence the speed of change and the amount of 
change. Both of those things are critical.
    We can turn to long term history for some guidance about 
what might be possible like the mutual fund ads say, past 
performance does not guarantee what will happen in the future. 
But it is some indicator.
    The last time that it was about as warm as it is today, 
before the last, the warm period before the last ice age, about 
125,000 years ago. It was about 4 degrees warmer Fahrenheit. 
Four degrees of warming Fahrenheit from where we are now is for 
the scientific community about a best case scenario of what we 
might limit ourselves to with an aggressive transition to 
renewable energies.
    At that time, when it was 4 degrees warmer, sea level was 
very likely at least 20 feet higher than it is today. You 
wouldn't recognize the United States map with 20 feet higher 
sea levels.
    We also know that in the warming, since that time, there 
was a period when sea levels rose more than one foot per decade 
for more than 2 centuries. So that's ten feet a century, very 
fast. So either that amount of rise or that speed of rise would 
be very crippling.
    We don't know that we're headed to either of those things. 
But we do know that the global ice sheet system is capable of 
delivering them under some circumstances. So I think it is very 
prudent for us to look.
    You know, it's very important to look at reducing 
greenhouse gas emissions if we want to reduce the chance of 
high speed sea level rise or the chance of long term extreme 
sea level rise.
    Senator Franken. Yes. I mean, is that OK, Mr. Chairman?
    Mr. Janetos. Senator, one of the activities that we had 
underway in our institute for, literally, for a couple of 
decades is the development and use of models that actually look 
at the affect of the evolution of the energy mix, the 
technology mix and how what affect that can have on where you 
end up on climate forcing, where you end up in terms of 
atmosphere concentration of greenhouse gases and ultimately 
affects on the climate system.
    As we heard at the beginning of the testimony which sea 
level rise gets realized over the 21st century depends, quite 
critically, on which scenario the world ends up on. We don't 
pretend to predict the future because all those scenarios 
depend on a whole host of economic and political decisions. But 
one thing we can say with some confidence is that transition to 
a mix of energy technologies that produce enough energy as 
demand rises, but do so in a way that minimize and begin to 
reduce the actual emissions of greenhouse gases to the 
atmosphere is a transition that really has to happen rapidly if 
there's going to be a good likelihood of stabilizing both 
concentrations and the forcing of the atmosphere within this 
next number of decades.
    Senator Franken. This just seems like such an important 
hearing for in terms in subject matter, in terms of our future. 
I think that's sort of an understatement. I think it's 
something that in this committee, we need to talk about.
    I think economically it will only help us to develop these 
renewable energy sources of solar and wind and biomass. I think 
that we're going to be competing with the rest of the world 
because it's going to be so obvious where we're headed and what 
we need to do.
    I just feel that it's our responsibility here in the Senate 
to be addressing this and addressing it head on and not be 
afraid to do that. Have the conversation lead us to be the best 
stewards of this planet for our children and our grandchildren 
and other generations. So I want to thank the Chairman for 
calling this important hearing. I want to thank all the 
witnesses.
    Mr. Chairman.
    The Chairman. Thank you very much for being here and being 
so involved in the issue and the committee work. Thank you all 
again for testifying. I think it's been very useful.
    That will conclude our hearing.
    [Whereupon, at 11:15 a.m. the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

  Responses of Benjamin H. Strauss to Questions From Senator Bingaman
    Question 1. There are many questions about how reliable sea level 
projections are. Can you describe in more detail the strengths and 
limitations of the models and also how best decision-makers should use 
the information that is available for future planning.
    Answer. Sea level projections include a wide range of uncertainty, 
but there are many reasons for decision-makers to take the high end of 
current projections very seriously.
    Scientists take two main approaches for projecting future sea 
levels: physical models and semi-empirical models. Physical models have 
the strength of building directly from known physical processes 
affecting sea level. However, the scientific community has not yet 
found a way to model Greenland and Antarctic ice sheets close to 
accurately, and these are by far the most dangerous factors 
(representing about 200 feet of sea level rise potential in total, as 
compared to about 2 feet in total potential from small glaciers, and 
about one foot per century potential from the expansion of ocean water 
as it warms). Physical models have generally left out aspects of ice 
sheet response, and model projections (for example, projections given 
in the last two reports of the Intergovernmental Panel on Climate 
Change, or IPCC) have been low compared to observed sea level rise 
since 1900.
    By contrast, semi-empirical models have been able to match historic 
sea levels over the last 100 years, and even 1,000 years, with great 
fidelity. Semi-empirical models use historic relationships between 
global temperature and the rate of sea level change to make their 
projections. This approach implicitly captures all factors that have 
contributed to recent sea level changes (including all contributions 
from ice sheets), and implicitly incorporates all of them into 
projections. Physical modelers criticize semi-empirical models because 
they do not tie directly to physical processes, and because the whole 
approach relies on extrapolation. As temperatures reach farther into 
new heights not seen in the record on which a model is based, it 
becomes less clear whether historic relationships will continue to 
apply.
    On the one hand, semi-empirical models probably exaggerate the 
contribution of glaciers in the future, because the stock of glacial 
ice will dwindle and disappear (something the model can't ``know'' 
based on the last century). On the other hand, the models may well 
underestimate the contribution of ice sheets--which hold 100 times the 
water that glaciers do--because ice sheets appear to have only just 
begun exerting their influence. If ice sheets decay in new ways in the 
21st century, compared to the 20th century, big surprises are possible. 
During the last Ice Age, sea levels bottomed out about 400 feet lower 
than today. But during the great thaw from about 20,000 years ago until 
about 8,000 years ago, the sea rose faster at certain times than one 
foot per decade, a rate much greater than the darkest contemporary 
projections.
    Semi-empirical models generally project more sea-level rise this 
century than physical models do, but there is a real possibility that 
both approaches underestimate what could happen. Greenhouse gases are 
increasing in the atmosphere today at a rate many times faster than 
anything the planet has seen in at least the last 55 million years, so 
it is reasonable to expect surprises. This is why, for example, New 
York State and City have decided to use two sea-level rise scenarios, a 
traditional one and a fast-melt scenario--one kind of approach 
decision-makers might consider. (The fast-melt scenario assumes an 
extra 3+ feet of sea level rise per century, based on the overall 
average sea level rise rate during the long thaw from the last Ice 
Age.)
    Both physical and semi-empirical models rely on projections of 
future greenhouse gas emissions, and on global climate models that 
translate those into temperature projections. It is a common (although 
not universal) practice to present a range of sea-level projections 
based on a range of possible emission scenarios in one bundle. Whenever 
this is the case, it is important for decision-makers to recall that so 
far, we are on a path close to the highest of all major emission 
scenarios used. Continuing on such a path would point toward the higher 
part of any range of sea level projections.
    The deep historical record also points toward higher projections. 
Before the last Ice Age, there was a warm period, about 125,000 years 
ago, with global temperatures perhaps slightly warmer than today, and 
certainly cooler than the temperatures projected this century under the 
higher emissions scenarios. During that last warm period, sea level 
peaked 20-to-30 feet higher than today. The planet was in a different 
orbit then, so the warm period is not a perfect analog to today, but it 
certainly points toward caution about how high we might ultimately 
drive sea levels.
    The international scientific community, as reflected by the IPCC, 
has a demonstrated track record of underestimating sea-level rise. 
Based on personal observations, I'd also add that for many climate 
scientists, it can feel safe, reflexive, or ``conservative,'' to 
emphasize projections that deviate relatively little from present 
conditions (despite--or perhaps because of--accusations of 
``alarmism''). Such projections generally incorporate less novelty, and 
ask less of their audiences. However, for a decision-maker with 
responsibilities for public safety or economic wellbeing, ignoring 
high-end projections would seem to be the opposite of conservative.
    One more note about sea level projections is critical for future 
planning. Most projections are given as a range to be achieved by a 
given year--say, by 2050 or 2100. This can lead to the impression that 
the rise would then stop. In fact, under the higher projections, the 
rate of sea level rise continues to accelerate so it is rising faster 
than ever at the end date. Both the speed and amount of sea level rise 
contribute to the dangers it poses, but ultimately, high speed would 
threaten social stability the most. So the high-end sea-leve rise 
projections include a double threat.
    In conclusion, decision-makers would be well served by taking the 
high end of model projections for sea-level rise very seriously--for 
semi-empirical as well as physical models.
    Question 2. Opponents of policies to reduce carbon emissions often 
cite the costs and economic burden of such policies as a main reason 
for their opposition. Your testimony here today would indicate that the 
costs of inaction, and also of not planning for a certain level of 
climate change that we have already committed to, are quite high. Are 
there studies that effectively quantify these costs, and if so, how do 
they compare to the costs of being proactive?
    Answer. A recent peer-reviewed study by James Neumann and 
colleagues estimated the value at risk from sea level rise by 2100 for 
the contiguous US, and also estimated total costs with proactive 
adaptive measures. For a ``mid SLR scenario'' of 2.2 feet by 2100 (in 
fact, this is toward the lower end of most recent projections), the 
authors found just over $1 trillion at risk ($600 billion with 3% 
discounting) if no action were taken. By contrast, the estimated total 
cost plus damages under an optimized program of defense and retreat was 
estimated at $236 billion under the same scenario ($64 billion 
discounted). This finding suggests enormous costs and exposure for 
failure to plan and respond to sea level increases. Under a ``high SLR 
scenario'' of 4.1 feet, the estimated total cost plus damages under an 
optimized program was $324 billion ($75 billion discounted).
    A global analysis by Robert Nicholls and colleagues estimated $7 
vs. $70 billion in annual coastline defense costs for North America by 
2100, for 1.5-foot vs 6.5-foot sea-level rise scenarios. Under the 
high-rise scenario, the study assumed abandonment of 25% of vulnerable 
land. The study did not estimate damages, only the cost of defenses--
which the Neumann study suggests are many times less than the damage 
potential.
    A third recent study, by Ross Hoffman and colleagues, found 7-9% 
increases in overall annual storm damage costs along Gulf and Atlantic 
coasts of the U.S., through 2030, assuming essentially linear 
continuation of recent historical trends in sea level rise (in other 
words, a very low sea level rise scenario not allowing for 
acceleration--although accelerated sea level rise has recently been 
detected from Cape Hatteras to Boston). Locally, increases of 20% or 
more were common. Factoring in potentially warmer sea surface 
temperatures (and thus aggravated storms), the overall annual storm 
damage increase grew, and ranged from 18-20%.
    These studies all focus on direct potential damages and the cost of 
defenses. The literature on the economics of sea-level rise so far does 
little to address potential broader negative indirect impacts on 
economy-wide growth and welfare, although these are regarded as 
possible. However, the studies cited above do showcase recent thinking 
and highlight the very large costs of failing to reduce heat-trapping 
pollution, and of failing to plan for the increasing amounts of sea 
level rise to which we are already committing ourselves.
    At a smaller scale and from a more practical, less theoretical 
perspective, my answer to question 1a from Senator Cantwell throws some 
light on costs being scoped by local governments as they contemplate 
putting defenses in place today.
    Overall, the costs of inaction are poorly understood, and very 
likely underestimated. As a prime example, we are not even counting the 
cost of the roughly 8 inches of global sea level rise we have already 
experienced due to warming over the last century. Today, every single 
coastal flood is wider and deeper due to sea level rise. Therefore, a 
fraction of the economic damage from every coastal flood can already be 
linked to climate change. However, no one is yet doing the accounting 
or labeling required to count this cost.
    Values used in this answer are 2010 dollars.
    Question 3. From the maps that you submitted with your testimony it 
appears that the nation's energy infrastructure in Louisiana is 
particularly vulnerable to sea level rise. What impacts do you expect 
that could have on the country as a whole?
    Answer. The Department of Homeland Security has estimated that 
having Louisiana Route 1 and Port Fourchon, which it serves, out of 
service for 90 days would lead to a long-term reduction of 120 million 
barrels of oil and 250 billion cubic feet of natural gas production, 
and would have up to an $8 billion negative impact on the US economy 
(GDP). Rising seas increase this risk.
    More broadly, the Gulf coastal region, including low-lying coastal 
areas of Texas, Louisiana, Mississippi and Alabama, has about $500 
billion in oil and gas assets, plus $300 billion in electric utility 
assets, expected to grow to $930 billion combined by 2030, according to 
a study by Entergy. The region is responsible for roughly half of the 
nation's natural gas and oil production, and half the oil imports. 
Entergy estimates $2.7-4.6 billion in annual extra damages and costs 
from climate change in the region, by 2030, depending upon climate 
scenario.
    Entergy's research also suggests $0.5-1.1 billion in increased 
annual impacts in Louisiana, alone, with $0.4-0.7 billion of this 
directly from increases in flooding and storm surge (aggravated by sea 
level rise), and the balance from increased wind and rain and business 
interruption.
    Question 4. Are there particular power plants or other pieces of 
energy infrastructure that are of primary concern? Is it feasible to 
protect them, or will they simply need to be retired or replaced?
    Answer. The analysis I presented is best suited for assessing 
aggregate exposure (e.g. totals per state or nationally), and not the 
risk to individual pieces of infrastructure. Certainly there are 
individual facilities of primary concern--for example, facilities that 
might pose important dangers if damaged (e.g. nuclear plants), or 
assets that contribute significantly to the national energy supply 
(e.g. Route 1 in Louisiana, which serves a large proportion of oil and 
gas extraction facilities in the Gulf of Mexico). For the most accurate 
risk assessment, the danger to such vital facilities should be examined 
on a case-by-case basis using best available elevation data (ideally 
laser-based LiDAR data) and physical hazard modeling (e.g. simulated 
storm events), incorporating a wide range of future sea level rise 
scenarios, including high-end. Individual circumstances will determine 
the feasibility and economics of protection vs. retirement in each 
case.
    That said, in the long run, I have no doubt that retreat will be 
the only practical recourse for many sites. The main questions are 
when, and whether facilities can complete their useful lifetimes first.
  Responses of Benjamin H. Strauss to Questions From Senator Murkowski
                      tools for fixing the problem
    Question 1. In Congress, it has become apparent that cap-and-trade 
lacks the support needed to pass, and internationally, the U.N. has 
failed to develop a treaty that all nations are willing to ratify. What 
we are left with at the moment are regulations by the EPA under the 
Clean Air Act, which many of us oppose due to our concerns about their 
economic impact.

          a. How much of a difference will CAFE standards and New 
        Source Performance Standards for power plants actually have on 
        projected sea level rise?

    Answer. According to many projections, strong reductions in global 
total greenhouse emissions would make a large difference for sea level 
rise by the end of the century. CAFE standards and New Source 
Performance Standards would contribute toward such reductions, but I am 
not aware of any analysis that would let us assess what effect those 
measures alone might have on sea level rise.
    By the end of the century, strong reductions could make the 
difference between keeping or losing South Florida; a defensible or 
indefensible problem in most coastal areas; and stabilizing or 
accelerating rates of sea level rise. It is important to note, however, 
that due to momentum built into the physical system, it may already be 
too late to slow down sea level rise over the next four decades; and we 
may already be committed to considerable sea level rise over the long 
run. A recent study, for example, projected we might see about five 
feet of rise by 2300 even if all global greenhouse gas emissions 
permanently stop in 2016. (On the other end of the spectrum, five feet 
this century--a possibility if we make no cuts in emissions--would be 
vastly more difficult to adjust to. Like a bullet, the faster sea level 
rise moves, the more dangerous it is.)
                           setting priorities
    Question 2. A New York Times article from 2007, entitled ``Feel 
Good vs. Do Good on Climate,'' brings up a number of interesting points 
on this subject. Using New York as a case in point, the article states 
that ``The warming that has already occurred locally is on the same 
scale as what's expected globally in the next century.'' Bjorn Lomborg 
is also quoted as saying, ``No historian would look back at the last 
two centuries and rank the rising sea level here as one of the city's 
major problems.''

          a. In comparison to malaria, famine, and other global 
        problems that are affecting people right now, how much 
        attention should be paid to rising sea levels?

    Answer. Many global problems cause great suffering and deserve much 
attention. Most of them are fairly cyclical: so far in global history, 
disease and hunger tend to come and go, rise and fall, as even do armed 
conflict and war. What distinguishes many problems associated with 
global warming, and sea level rise in particular, is their one-way and 
irreversible nature. Carbon dioxide lingers in the atmosphere for 
centuries, and ice sheets that melt or crumble into the sea would take 
millennia to rebuild. It is true that few or no historians would rank 
sea level rise over the past two centuries as a major problem, but sea 
level is already rising about three times faster than it was one 
hundred years ago, and is expected to accelerate much more, in a world 
where far more population and assets are concentrated along the coast 
than ever before.
    In choosing whether and how much to invest in reducing global 
warming and its impacts, versus other problems, this one-way ratchet is 
important to remember. It is also important to remember that emissions, 
temperature and sea level rise are all currently accelerating. If and 
when we choose to cut emissions, research indicates we will already be 
locked into decades more of increasing damage and distress, before 
improvements from the cuts become noticeable. There is a great danger 
that by the time impacts become painful and obvious enough to loom 
large in most people's eyes compared to other immediate issues of the 
day, we will already be committed to much greater pain for generations 
to come. (Pain that could include much more famine--consider this 
summer's drought a small foretaste of the threat to agriculture--and 
the geographic spread of tropical diseases like malaria.)
    With respect to the local vs. global warming analogy, consider the 
difference between heating one toe to 105 degrees (say, by dipping it 
in a hot tub), versus heating your whole body through and through to 
the same temperature. The former is a minor discomfort, while the 
latter is a life-threatening systemic crisis. The two situations are 
not fairly comparable.
                            accuracy to date
    Question 3. Scientists and researchers have been making projections 
about sea level rise for years--if not decades. Climate models are 
constantly being re-worked, and refined, but hearings like these 
provide an opportunity to look back as well as forward.

          a. To the extent that past projections were made for sea 
        level rise in 2010, 2012, or another point around the current 
        period, how accurate have those projections been?

    Answer. The projections for sea level rise by 2010, made by both 
the third and fourth major assessments of the Intergovernmental Panel 
on Climate Change--whose reports are generally regarded as the 
international scientific consensus near the time they are made--have 
been markedly too low. Actual sea level rise has been on the very upper 
edge of the entire wide range of possibilities projected.
    For more background on sea level rise projections, please see my 
reply to Senator Bingaman's first question.
  Responses of Benjamin H. Strauss to Questions From Senator Cantwell
    Question 1. Knowing the responsibilities states, cities, and 
localities already have and their limited ability to raise additional 
resources, it seems like we are going to have to establish some sort of 
federal program that can direct the billions of dollars needed to adapt 
our nation's infrastructure to and protect our citizens from the 
impacts of climate change.

          a. Do you believe such a Federal role and funding stream is 
        necessary?

    Answer. It seems very likely that many or most coastal cities, 
counties and states will not be able to afford the cost of adapting to 
sea level rise, or at least will choose not to pay it. In fact, 
examples are already accumulating of cities studying the cost of 
protection, and balking at the price tag, or choosing projects that 
will not offer meaningful protection.
    Norfolk, VA engaged the Dutch engineering firm Fugro to design and 
cost out defenses. Sea wall cost came to $300 million (compared to an 
$800 million total annual budget for the city). Norfolk declined the 
proposal because of its high price and because the solution didn't 
protect against inland flooding and sewer overflow (which can be 
complicated by rising seas--drainage of inland water is retarded). 
Norfolk, population 250,000, is now developing a plan to seek federal 
aid for a comprehensive $1 billion fix over the next 30 years, 
according to the Washington Post.
    An Army Corps of Engineers levee project that could have protected 
communities in north and central Lafourche, LA, from storm surge on top 
of rising seas, at a cost of roughly $1 billion, was recently canceled, 
according to Houma Today.
    The Washington Post reported this spring that Louisiana has so far 
not been able to find $320 million to raise a vulnerable, low-lying 
section of LA Route 1, which serves Port Fourchon, a lynchpin in the 
nation's current energy infrastructure (for more see answer to question 
no. 3 from Senator Bingaman).
    In Seattle, WA, citizens will vote this fall on a $290 million bond 
ballot measure to repair and rebuild a downtown waterfront seawall. The 
new seawall will be built to tolerate 11 inches of sea level rise. 
Climate Central's recent peer-reviewed research projects 11 inches of 
sea level rise (90% confidence range: 4-21 inches) for the Seattle area 
by 2050. Even if the citizens vote to pay and the wall is built, it 
will not protect the city for even close to its planned 100-year life 
under a wide range of sea-level rise scenarios.
    Question 1b. Wouldn't a price on carbon, which could serve to both 
reduce the severity of these climate impacts and provide the needed 
funds, make the most sense?
    Answer. It is my understanding that the great majority of 
economists believe a price on carbon would be the most efficient way to 
reduce emissions and therefore future impacts. Most impact reduction 
would be realized after 2050, because of the powerful momentum of 
warming. Although our actions today can reduce future costs, many 
costly impacts are indeed unavoidable (and already taking place, even 
if not labeled as costs of climate change).
    Question 2. As we think about our economic and energy future, we 
need to consider the real costs of inaction. A recent study has 
estimated that the impacts of climate change will cost my home state of 
Washington 10 billion dollars per year by 2020. This is an enormous 
burden that will be arriving very soon.
    Answer. It is imperative that we get ahead of this curve and 
prepare for these impacts now. To that end, we must maintain vital 
funding of research programs and facilities that advance scientific 
knowledge and understanding and provide the foundation for cost-
effective, innovative solutions. Unfortunately, funding carve-outs in 
the Department of Energy's Office of Science have impacted base program 
funding for user facilities and research in recent years.
    In my home state, PNNL is working on solutions to the challenges 
climate change imposes, but to succeed, they need our continued 
support. In these fiscally austere times, it makes even less sense to 
be a penny wise and a pound foolish. PNNL is conducting important 
research, for example through the Atmospheric Radiation Measurement 
(ARM) Program, to get a better sense of what changes in climate are 
already occurring and will likely occur in the future--advancing our 
understanding of the climate system that include complex components 
such as aerosols, clouds, and the carbon cycle.
    PNNL is also working to provide better information to plan for the 
coming impacts. They're developing high resolution models that 
incorporate critical infrastructure and natural resources of each 
region to inform mitigation and adaptation decisions at the state and 
regional level. This information will be invaluable for infrastructure 
planning by natural resource managers, energy companies, and government 
agencies that currently face great uncertainties in their decision 
making in response to changing regional climates.
    It seems to me that the upfront costs of this research and planning 
will be extremely modest relative to the costs coming down the road.
    Question 2a. Do all of you agree that proposed cuts to research and 
development will impede our ability to prepare for and mitigate the 
worst impacts of climate change?
    Answer. Without any cuts at all, the national investment in 
research on climate change, its impacts, and reducing and coping with 
those impacts, is almost certainly very small compared to the scale of 
the threat. What would the defense budget be if an enemy power 
threatened to annex much of South Florida, the boot of Louisiana, Long 
Island, and the United States' largest ports and naval bases? This is a 
sampling of effects from something like a worst-case scenario for sea-
level rise this century (and that is just one climate change impact; 
drought and agricultural effects may be more damaging).
    Question 2b. Do you hear from states and localities appreciating 
your analysis and that they use your data to make better planning 
decisions?
    Answer. Our data have only just been released this spring, so it is 
early for collecting this kind of feedback, but I understand our work 
will be incorporated in the coming national climate assessment, and has 
been used for public education by groups and individuals in at least 
Massachusetts, Florida, North Carolina, and California.
                                 ______
                                 
    Responses of Waleed Abdalati to Questions From Senator Bingaman
    Question 1. There are many questions about how reliable sea level 
projections are. Can you describe in more detail the strengths and 
limitations of the models and also how best decision-makers should use 
the information that is available for future planning.
    Answer. Two methods have been used for projecting sea level rise. 
The first is through models that seek to accurately describe the 
physics that affect sea level changes. These include expansion of 
oceans as they warm, the physics associated with the movement, melting, 
and accumulation of glaciers and ice sheets, and the variability in 
stored groundwater. These models have the strength of being physically 
based, enabling a representation of the underlying causes of sea level 
rise. They have the limitation, however, of not being able to fully 
capture the effects of changes in the flow rates of glaciers on ice 
sheets, which can contribute substantial amounts to sea level, as a 
result, this approach, while grounded in physics has historically 
underestimated sea level rise, and has historically not been able to 
capture the accelerating ice loss from ice sheets.
    The second method is to compare past temperatures to past sea 
levels reconstructed from the geological record of Earth's climate 
history. There is a fairly robust relationship between the two, and by 
using this relationship or correlation; one can predict values of sea 
level rise for estimated values of future temperatures. This method is 
a statistical, rather than a physical approach, and when applied to 
future warming scenarios, this method provides the highest estimates (2 
meters) for the end of the century. It has the advantage of not 
requiring a detailed understanding of the complex physics in order to 
make a prediction, and it produces results consistent with recent 
history. However, because it does not directly incorporate underlying 
physical processes, this method provides limited insight into 
mechanisms and characteristics of future sea level rise.
    Despite the limitations, all of the many peer-reviewed, science-
based sea-level models predict that sea-level rise will continue for 
the foreseeable future, although the models differ as to the precise 
rate of the average rise, and most models have underestimated current 
rates of sea level rise.
    In addition, there is considerable regional variability in the rate 
of sea level rise, which makes prediction at a particular location very 
difficult. This variability is a result of ocean circulation 
characteristics, changes in land processes and characteristics in 
different regions, the Earth's rotational characteristics, the sources 
of sea level rise, etc.
    For the purpose of supporting decision-making, the key points to 
keep in mind are as follows:

  <bullet> the projections have a very wide range of uncertainty;
  <bullet> they historically have underestimated rates of sea level 
        rise, largely because there are some physical processes 
        associated with rapid ice loss that the community is just 
        beginning to get a handle on;
  <bullet> there is considerable regional variability, such that local 
        values may be much higher or lower than the global average, 
        which is currently 3.1+0.4 mm/yr.;
  <bullet> improving the projections requires continued acquisition and 
        analysis of data on sea levels, ocean characteristics, ice 
        sheets, glaciers, and groundwater storage, and continued 
        improvements in models through the analysis and incorporation 
        of these data.
  <bullet> Besides scientific uncertainties, some of which are 
        mentioned above, uncertainty in future greenhouse gas emissions 
        also contributes to uncertainty in future sea level rise.

    NASA, in conjunction with our partner agencies, both domestically 
and internationally, continues to invest in the observations and 
analysis that support current assessments and future predictions of sea 
level rise, both globally and regionally.
    Question 2. Opponents of policies to reduce carbon emissions often 
cite the costs and economic burden of such policies as a main reason 
for their opposition. Your testimony here today would indicate that the 
costs of inaction, and also of not planning for a certain level of 
climate change that we have already committed to, are quite high. Are 
there studies that effectively quantify these costs, and if so, how do 
they compare to the costs of being proactive?
    Answer. There is an urgent need to better estimate the economic 
costs of climate change; without such estimates the cost-effectiveness 
of measures to mitigate or adapt to climate change cannot properly be 
assessed.
    Economic analysis is out of the purview of NASA's mission. This 
type of cost estimate should be performed as part of the National 
Climate Assessments (http://www.globalchange.gov/what-we-do/assessment) 
that have been conducted by the US Global Change Research Program and 
which can be found at http://library.globalchange.gov/. However, due to 
a lack of capacity, both past Assessments and the ongoing Assessment 
(scheduled for completion in 2013) include very little economic 
analysis.
    Question 3. Are there particular power plants or other pieces of 
energy infrastructure that are of primary concern? Is it feasible to 
protect them, or will they simply need to be retired or replaced?
    Answer. The protection our domestic energy infrastructure is 
critical to national safety, security and the livelihood of many 
Americans. The vulnerability is a combination of the amount of sea 
level rise, climate and weather patterns in the vicinity of these 
components of the infrastructure, the elevation and the surrounding 
landscape of where they are situated, and the resilience of these 
structures. NASA's efforts and expertise in sea level focus on the 
magnitude and distribution of sea level rise, which can inform risk 
assessments, however, determining the vulnerability is beyond the scope 
of the agency's activities.
    Responses of Waleed Abdalati to Questions From Senator Murkowski
                      tools for fixing the problem
    Question 1. In Congress, it has become apparent that cap-and-trade 
lacks the support needed to pass, and internationally, the U.N. has 
failed to develop a treaty that all nations are willing to ratify. What 
we are left with at the moment are regulations by the EPA under the 
Clean Air Act, which many of us oppose due to our concerns about their 
economic impact.

          a. How much of a difference will CAFE standards and New 
        Source Performance Standards for power plants actually have on 
        projected sea level rise?

    Answer. There is no question that international and domestic 
regulatory policies will influence the future state of sea level; 
however, the relative impact on future sea level rise of CAFE standards 
and New Source Performance Standards in particular lies outside the 
current scope of NASA scientific research. Of course, these regulations 
also have beneficial effects on air quality and human health, and CAFE 
standards are projected to save consumers $1.7 trillion in fuel costs 
over the life of the program.
                           setting priorities
    Question 2. A New York Times article from 2007, entitled ``Feel 
Good vs. Do Good on Climate,'' brings up a number of interesting points 
on this subject. Using New York as a case in point, the article states 
that ``The warming that has already occurred locally is on the same 
scale as what's expected globally in the next century.'' Bjorn Lomborg 
is also quoted as saying, ``No historian would look back at the last 
two centuries and rank the rising sea level here as one of the city's 
major problems.''

          a. In comparison to malaria, famine, and other global 
        problems that are affecting people right now, how much 
        attention should be paid to rising sea levels?

    Answer. Sea level rise is one of many global challenges people face 
right now, in the United States and elsewhere. Each of these challenges 
has major implications and should be regarded as matters of great 
importance by the public, the science community, and policy makers. The 
relative urgency of one problem over another depends on the values we 
place on life and property, the degree of threat posed by each one, and 
the risks we as a nation are willing to take. In the United States, sea 
level rise is very likely to adversely affect the well-being of many of 
our citizens, and come at a great cost in terms of property and 
infrastructure. Deferred action on the sea level and climate change 
fronts means the costs of adapting will be great. Assessing how the sea 
level threat compares to the other threats humans face depends on 
information and accurate models. At NASA we continue to acquire this 
information, and use it to inform models, so that the risks and 
vulnerabilities can be appropriately assessed.
                            accuracy to date
    Question 3. Scientists and researchers have been making projections 
about sea level rise for years--if not decades. Climate models are 
constantly being re-worked, and refined, but hearings like these 
provide an opportunity to look back as well as forward.

          a. To the extent that past projections were made for sea 
        level rise in 2010, 2012, or another point around the current 
        period, how accurate have those projections been?

    Answer. Past projections of sea level rise have typically 
underestimated the observed rate of rise. The figure* below is taken 
from Church et al., Oceanography, 2011 and shows a comparison of 
projections from the Fourth Assessment Report of the Intergovernmental 
Panel on Climate Change. Sea level projections from this report were 
matched with observations in the year 1990. The range of projections is 
shown by the orange band and the beige lines. For the beige lines, an 
attempt was made to account for a more rapid loss of ice from the ice 
sheets in light of rapid changes in glacier flow that the climate 
models could not simulate. Nevertheless, the observations from tide 
gauges (black line) and from satellite altimeters (red line) fall near 
the top of all projections.
---------------------------------------------------------------------------
    * Figure has been retained in committee files.
---------------------------------------------------------------------------
Reference
    Church, J. A., J. M. Gregory, N. J. White, S. M. Platten, and J. X. 
Mitrovica, Understanding and Projecting Sea Level Change, Oceanography, 
24(2), pp. 130-143.
                   letter from former nasa officials
    Question 4. On March 28th, your agency's Administrator, Charles 
Bolden, received a letter from approximately 50 former NASA officials. 
The letter asked that NASA ``refrain from including unproven and 
unsupported remarks'' in climate-related statements. The letter also 
mentions ``catastrophic forecasts,'' and I want to ask you about that 
characterization. As with any prediction of future events, estimating 
sea levels over the next century is a decidedly difficult task. And it 
is made more complicated when attempts to forecast specific 
consequences--to infrastructure, people, or wildlife--are involved.

          a. My question is: how important do you feel it is to be 
        clear and transparent about the range of uncertainty associated 
        with these types of predictions?

    Answer. It is not merely important, but it is absolutely essential 
that scientists provide clear characterizations of uncertainty when 
making predictions about the range of possible future scenarios. If 
scientists are not transparent about uncertainty it diminishes both the 
credibility and utility of the results. This is why both the IPCC 
Assessments and the peer-reviewed literature upon which they are based 
make such extensive efforts to include characterizations of uncertainty 
that are rigorous, transparent, and use carefully-defined terminology.
    It is equally important to remember that while we cannot precisely 
predict the future, we can make informed estimates based on past and 
current observations, and our knowledge of physical processes. 
Therefore, the path to decreasing uncertainty is through observations, 
and continuously improving our understanding of the physical processes 
that drive the Earth system. It is also important to remember that, no 
matter how good our science may become, future climate will always be 
uncertain because it depends on future human actions.
    Unfortunately, in a world where discussion seems to revolve around 
extremes, some use uncertainty to imply doubt, and subsequently offer 
it as a reason for inaction. In fact, uncertainty implies the 
possibility of higher risk, and can be used to support the case for 
stronger, not weaker, action to minimize risk. None-the-less, for 
policy to be informed, and for the dialogue on the topic to be honest, 
scientists must continue to be as clear about what we don't know, as we 
are about what we believe to be the case.
    Responses of Waleed Abdalati to Questions From Senator Cantwell
    Question 1. Knowing the responsibilities states, cities, and 
localities already have and their limited ability to raise additional 
resources, it seems like we are going to have to establish some sort of 
federal program that can direct the billions of dollars needed to adapt 
our nation's infrastructure to and protect our citizens from the 
impacts of climate change.

          a. Do you believe such a Federal role and funding stream is 
        necessary?
          b. Wouldn't a price on carbon, which could serve to both 
        reduce the severity of these climate impacts and provide the 
        needed funds, make the most sense?

    Answer. As I stated in this hearing, the climate has always 
changed. It always will, for a variety of reasons. The success of 
society in the face of those changes really depends on how big the 
changes are, how rapidly they occur, and our ability to anticipate and 
prepare for them. There is a significant level of federally funded 
research under way targeted at determining what the future will likely 
bring, so that we can be equipped to prepare for the changes that lie 
ahead. What is learned through this research can also inform policies 
targeted at slowing and reducing the change, to levels that can be more 
easily adapted to. The federal government plays a critical role in 
developing the necessary knowledge to successfully confront the 
challenges associated with climate change, and this must continue. 
Placing a price on carbon is one tool that can be used to incentivize 
people to find alternative forms of energy that may have less of an 
impact on our environment and sea level. The effectiveness of this 
approach, and how it compares to others is not clear, and is not 
something NASA is involved in studying. What is clear, however, is that 
the reliable evaluation of this effectiveness requires an understanding 
of the physical processes at work, which is where the contributions 
from the NASA investments are critical.
    Question 2. As we think about our economic and energy future, we 
need to consider the real costs of inaction. A recent study has 
estimated that the impacts of climate change will cost my home state of 
Washington 10 billion dollars per year by 2020. This is an enormous 
burden that will be arriving very soon.
    It is imperative that we get ahead of this curve and prepare for 
these impacts now. To that end, we must maintain vital funding of 
research programs and facilities that advance scientific knowledge and 
understanding and provide the foundation for cost-effective, innovative 
solutions. Unfortunately, funding carve-outs in the Department of 
Energy's Office of Science have impacted base program funding for user 
facilities and research in recent years.
    In my home state, PNNL is working on solutions to the challenges 
climate change imposes, but to succeed, they need our continued 
support. In these fiscally austere times, it makes even less sense to 
be a penny wise and a pound foolish. PNNL is conducting important 
research, for example through the Atmospheric Radiation Measurement 
(ARM) Program, to get a better sense of what changes in climate are 
already occurring and will likely occur in the future--advancing our 
understanding of the climate system that include complex components 
such as aerosols, clouds, and the carbon cycle.
    PNNL is also working to provide better information to plan for the 
coming impacts. They're developing high-resolution models that 
incorporate critical infrastructure and natural resources of each 
region to inform mitigation and adaptation decisions at the state and 
regional level. This information will be invaluable for infrastructure 
planning by natural resource managers, energy companies, and government 
agencies that currently face great uncertainties in their decision 
making in response to changing regional climates.
    It seems to me that the upfront costs of this research and planning 
will be extremely modest relative to the costs coming down the road.

          a. Do all of you agree that proposed cuts to research and 
        development will impede our ability to prepare for and mitigate 
        the worst impacts of climate change?

    Answer. For decades our nation's investment in research and 
development has led to great advances in our understanding of, and 
ability to predict, sea level rise and climate change. Continued 
commitment to research and development will no doubt lead to more 
robust climate predictions and predictions of future sea level rise, 
and will increase our ability to successfully deal with climate change. 
In these challenging fiscal times, it is the difficult task of our 
nation's policy makers to balance the need for these investments 
against other challenges we face. We at NASA work hard to maximize the 
science return on that investment, no matter its size.
    Question 2b. Do you hear from states and localities appreciating 
your analysis and that they use your data to make better planning 
decisions?
    Answer. NASA's Earth Science Division includes an Applied Sciences 
Program, which partners with public and private organizations such as 
state and local governments on ways to incorporate NASA Earth 
observational data and science results in their decision-making 
activities and services. These have proven to be both valuable and 
appreciated. Some examples of these successful collaborations are given 
below.
New Mexico Department of Health Utilizes NASA Satellite Products for 
        Dust Storm Forecasting
    A NASA-funded project with the New Mexico Department of Health 
(DoH) led to the production of daily 48-hour dust forecasts drawing on 
observations from MODIS and CALIPSO. Dust storms are known to trigger 
asthmatic responses and cardiovascular issues in susceptible 
individuals. These forecasts are available to the public and end-users 
throughout the state via the New Mexico DoH web portal (http://
nmtracking.unm.edu) and are also linked to the national CDC 
Environmental Public Health Tracking Network (EPHTN).
NASA/ARRA Project aids California Agricultural Community
    Agricultural uses of water account for more than 80% of total water 
consumption in many Western states, and optimization of irrigation 
management is a key component of sustaining agricultural water 
supplies. Knowing how much and when to irrigate can be a complicated 
and costly decision. Through American Reinvestment and Recovery Act 
(ARRA) funds, NASA worked with California Department of Water Resources 
(CDWR) on a project to apply NASA Earth satellite observations in the 
California Irrigation Management Information System (CIMIS). The 
project integrated NASA Terra, Aqua, and Landsat satellite measurements 
with agricultural weather conditions from CIMIS to map key indicators 
of crop water requirements and agricultural irrigation demand across 
the entire California Central Valley at the scale of individual fields 
on a daily basis. The project produced estimates of crop water needs 
for each field, providing a new source of information that can be used 
by growers to account for optimal irrigation rates when scheduling 
irrigation. NASA and CDWR worked with grower associations and 
individual growers in the project.
NASA's GRACE Data Enhances the U.S. Drought Monitor
    The U.S. Drought Monitor provides weekly maps of national 
vulnerability to drought, supporting state and local effort to focus on 
preparedness and risk management to manage water supply and deliver 
drought aid where it is needed most. A project sponsored by NASA's 
Earth Science Division integrated data products from the GRACE (Gravity 
Recovery and Climate Experiment) satellite to enhance the U.S. Drought 
Monitor. The project combined GRACE data and other observations to 
improve information on soil moisture and groundwater records, which are 
used to produce weekly maps of wetness conditions in the soil and 
aquifers. Prior to the addition of the new GRACE-based products, the US 
Drought Monitor lacked information on deep soil moisture and 
groundwater storage--water resources that can be used to gauge the 
impacts of long episodes of wet or dry weather.

          ``These maps provide regional to national-level water 
        resource information that was previously unavailable to policy 
        and decision-makers. The novel use of satellite-based gravity 
        data in combination with advanced modeling techniques has given 
        us a unique perspective on groundwater that was not resolvable 
        through just ground-based observations that can provide new 
        information for hydrologic drought monitoring.''
                    --Brian Wardlow, National Drought Mitigation 
                Center.
California Department of Health Using NASA Satellite Products
    A NASA-funded project with the California Department of Health led 
to the operational integration of NASA data products, such as MODIS and 
Landsat, into the California Vector-borne Disease Surveillance Gateway. 
Enhanced products are distributed to Gateway users throughout 
California for improved risk assessment of mosquito-borne encephalitis 
viruses, including the West Nile Virus.
NASA Satellite Products Support Mapping Carbon Flux in Oregon Forests
    Forests play a vital role in the carbon cycle through the 
absorption of carbon dioxide and release of carbon through events such 
as wildfires, insect infestations, and timber harvests. This dichotomy 
complicates forest management strategies that incorporate carbon 
absorption through the cycle of forest growth, death and regeneration. 
To help forest managers understand carbon flux, a NASA-funded project 
developed a unique model that uses remote sensing data to gain insight 
into the carbon flux of Oregon's forests. Created by the Oregon 
Department of Forestry (ODF), the Oregon Roundtable on Sustainable 
Forests uses the project's approach to carbon assessment to assess the 
feasibility of forest management plans.

          ``We have traditional estimates of carbon flux based on 
        inventory plots, but [the project's] data integrates the 
        physiological functions of forest ecosystems with state-of-the-
        art landscape modeling, satellite remote sensing, large-scale 
        vegetation mapping, and computer simulation. [The project] uses 
        the technology investments of NASA and puts them into a useful 
        format to help us better understand the annual flux of carbon 
        through Oregon forests.''
                    Andrew Yost, Oregon Department of Forestry

    Question 3. Shellfish farmers in Washington State are being 
severely impacted by ocean acidification. In Washington, the shellfish 
industry employs over 3,200 Washingtonians and has a total economic 
contribution of $270 million annually.
    In 2010, I secured funding to acquire and deploy ocean 
acidification sensors near major shellfish hatcheries in Washington 
State. Today, these sensors, combined with buoys from NOAA's Integrated 
Ocean Observation System program, allow shellfish growers to monitor 
ocean acidity in real time. Real time ocean acidification data has made 
all the difference to the shellfish industry, illustrating a strong 
nexus between ocean acidification data and shellfish recruitment. 
Without real time monitoring, the shellfish industry cannot survive.

          a. Dr. Abdalati, are we getting close to having reliable 
        satellite data on the acidity of the ocean like we do for sea 
        surface temperature?

    Answer. Yes, we are getting closer. However, it is not yet possible 
to directly measure the acidity of the ocean from space. It is possible 
to estimate some properties of the ocean related to ocean acidity (or 
pH, a measure of acidity or basicity of an aqueous solution, in this 
case, the ocean) and the biological, chemical, and ecological impacts 
of changing ocean acidity from what are known as ``ocean color'' 
satellites. Properties of the ocean related to ocean acidity and the 
impacts of ocean acidification on ocean biology that can be estimated 
from ``ocean color'' satellites include new data products such as 
particulate inorganic carbon (PIC), biogenic silica, and the partial 
pressure of carbon dioxide (pCO2), as well as standard products such as 
phytoplankton chlorophyll (chl).
    ``Ocean color'' sensors can measure light coming from the ocean in 
the ultraviolet to infrared portions of the electromagnetic spectrum. 
The light coming from the ocean is referred to as the ocean's optical 
properties or ``color'', and can provide quantitative, detailed 
information on the ocean's biology, ecology, and chemistry. Researchers 
can use ocean color satellite data of the optical properties of the 
ocean to estimate or model ocean acidity indirectly, as well as the 
biological impacts of ocean acidification. For example, recently-
published NASA-funded research has developed a method for predicting 
coastal surface-water pCO2 (partial pressure of carbon dioxide, or CO2) 
from remote-sensing data, based on self organizing maps and a nonlinear 
semi-empirical model of surface water carbonate chemistry (Hales et 
al., 2012, in press, Progress in Oceanography). In the ocean, the pCO2 
is determined from measurements of two of the following: dissolved 
inorganic carbon, pH and alkalinity. pCO2 in the ocean can change based 
on location (sampling depth, latitude), ocean temperature, and the 
ocean's alkalinity (or measure of the ocean's capacity to balance acid, 
such as hydrogen ions, with base, such as carbonate ions). Biological 
processes in the ocean also influence the pCO2 in the ocean. While this 
algorithm is experimental, this type of study not only gives us insight 
in to what properties from ocean color satellites can be used to 
estimate ocean acidity regionally and globally, but also provides 
quantitative information on carbon cycling.
    Question 3b. What monitoring sensors and algorithms are still 
needed to observe the acidification of the ocean remotely from 
satellites?
    Answer. Continued observations from NASA satellite ocean color 
sensors will provide data on properties of the ocean such as 
phytoplankton chlorophyll (proxy for ocean plants), which help to 
detail ecological impacts of ocean acidification on ``primary 
producers'' (bottom of the food chain). Understanding the impacts of 
ocean acidification on the primary trophic level will allow researchers 
and managers to identify and understand the impacts of ocean 
acidification on higher trophic levels (e.g., fisheries) that depend on 
primary producers for food. Satellites can provide this information 
from a local to a global scale. Continuity of ocean color data from 
past sensors such as the Sea-Viewing Wide Field-of-view Sensor 
(SeaWiFS), and existing sensors such as the Moderate resolution Imaging 
Spectroradiometer (MODIS), and perhaps future data from the Suomi NPP 
VIIRS (Visible Infrared Imager Radiometer Suite) are critical to 
providing a time series of biological data in the ocean critical for 
detailing the response of the ocean's biology and ecology to ocean 
acidification.
                                 ______
                                 
     Responses of Leonard Berry to Questions From Senator Bingaman
    Question 1. Opponents of policies to reduce carbon emissions often 
cite the costs and economic burden of such policies as a main reason 
for their opposition. Your testimony here today would indicate that the 
costs of inaction, and also of not planning for a certain level of 
climate change that we have already committed to, are quite high. Are 
there studies that effectively quantify these costs, and if so, how do 
they compare to the costs of being proactive?
    Answer. It is almost common sense to want to understand a problem 
and build a response to it over time--the old proverb ``a stitch in 
time saves nine''. Apart from that, the economics show that the cost of 
inaction is great. A 2008 study by Tufts University reports that by 
2075 in Florida alone, the cost of inaction would be $184 billion and 
$345 billion by 2100 (Stanton and Ackerman, 2007). Research that is 
currently being conducted is starting show that this may be an 
underestimation.
    In the recent ClimAID report for New York State (Rosenzweig et al., 
2011, ch. 7), a detailed case study of the impacts of a 100 year storm 
on transportation and economic activity in New York City estimates 
additional costs (as compared to the present) of $12 billion for a 2-
foot rise in sea level, and $26 billion in additional costs for a 4 
foot rise. (p. 348.) This is for just one storm, and not the worst 
conceivable storm. Moreover, NPCC 2010 p. 177 notes that estimates 
indicate that the current 100-year storm is likely to occur once every 
15 to 35 years by the 2080s. This all suggests that we need more 
detailed information of assets at risk.
    Question 2. Are there particular power plants or other pieces of 
energy infrastructure that are of primary concern? Is it feasible to 
protect them, or will they simply need to be retired or replaced?
    Answer. The critical infrastructure includes transportation, water 
supply and treatment systems, power stations and buildings among 
others. There are methods for dealing with relatively near term climate 
hazards, including flood walls and evacuation plans; for the longer 
term, larger infrastructure may be required, such as harbor surge 
barriers in some areas.
    We need a national assessment of energy infrastructure at risk to 
sea level rise. However in Florida we do know during Hurricane Andrew, 
the Turkey Point nuclear power station was briefly compromised and we 
must make doubly sure that any new facilities build at least three feet 
of level rise into their environmental assessment and into their 
operation.
     Responses of Leonard Berry to Questions From Senator Murkowski
                      tools for fixing the problem
    Question 1. In Congress, it has become apparent that cap-and-trade 
lacks the support needed to pass, and internationally, the U.N. has 
failed to develop a treaty that all nations are willing to ratify. What 
we are left with at the moment are regulations by the EPA under the 
Clean Air Act, which many of us oppose due to our concerns about their 
economic impact.

          a. How much of a difference will CAFE standards and New 
        Source Performance Standards for power plants actually have on 
        projected sea level rise?

    Answer. While we can't prevent sea level rise over the next 50-60 
years. We can take mitigation efforts in order to prevent further 
global temperature increases and thus reduce the seas thermal expansion 
causing much of sea level rise.
                           setting priorities
    Question 2. A New York Times article from 2007, entitled ``Feel 
Good vs. Do Good on Climate,'' brings up a number of interesting points 
on this subject. Using New York as a case in point, the article states 
that ``The warming that has already occurred locally is on the same 
scale as what's expected globally in the next century.'' Bjorn Lomborg 
is also quoted as saying, ``No historian would look back at the last 
two centuries and rank the rising sea level here as one of the city's 
major problems.''

          a. In comparison to malaria, famine, and other global 
        problems that are affecting people right now, how much 
        attention should be paid to rising sea levels?

    Answer. When it comes to future climate change, past is not 
prelude. Sea level rise is expected to continue at an accelerating 
rate, making this a critical global problem that, in fact, is happening 
now. In Southeast Florida freshwater wells are becoming saline and 
flood control structures are losing capacity. Trillions of dollars of 
infrastructures are at risk, imperiling our future national economy 
including--our ability to address other global problems. Because 
adaptations that involve significant infrastructure changes take many 
decades to plan, design and build, we must be proactive in making 
initial adaptations (flood walls and evacuation plans) and also be 
proactive now as we begin the long planning process for potentially 
larger solutions. Mayor Bloomberg is treating this issue of climate 
change seriously enough to set up a special process to examine the 
impacts on the city and make adaptation plans.
    Florida and our nation spends a great amount of time and money on 
Emergency Preparedness to minimize the future impacts of floods, 
hurricanes, earthquakes, etc., and to react to relatively short term 
postdisaster recovery needs. The warming of oceans and rapid increases 
in ice loss in polar regions are ``Leading Indicators'' of future sea 
level rise which will produce important permanent changes in our 
natural and built environments. These changes will produce large 
investment losses for those directly impacted by sea level rise and 
large indirect financial costs or tax burdens in other areas unless 
society begins to shift new developments to lower risk areas and 
implements policies that encourage established developments to move to 
these lower risk areas as appropriate.
                            accuracy to date
    Question 3. Scientists and researchers have been making projections 
about sea level rise for years--if not decades. Climate models are 
constantly being re-worked, and refined, but hearings like these 
provide an opportunity to look back as well as forward.

          a. To the extent that past projections were made for sea 
        level rise in 2010, 2012, or another point around the current 
        period, how accurate have those projections been?

    Answer. Projections have generally been on the low side because the 
IPCC did not include estimates of polar and glacial ice reductions in 
its projections.
     Responses of Leonard Berry to Questions From Senator Cantwell
    Question 1. In the Puget Sound region, sea level is projected to 
rise by six inches by 2050--13 inches by the end of the century. And 
due to potential ice melt from Greenland and Antarctica, increases of 
up to four feet for Puget Sound are even possible by the end of the 
century. This is particularly alarming to me and my constituents 
because structures located in flood hazard areas are valued at 28.7 
billion dollars in Puget Sound alone.
    Sea level rise and severe storms could be a big problem for the 
many military installations in Puget Sound that are critical to our 
national security. We've already seen how Florida's Homestead Air Force 
Base was essentially destroyed by Hurricane Andrew in 1992. And 
Hurricane Ivan badly damaged Naval Air Station Pensacola in 2004.
    And sea level rise is just one of the many harmful impacts my state 
is going to have to deal with because of global warming pollution. 
Climate change is expected to severely disrupt our very supply and 
demand of energy. Shifts in the amount and timing of stream-flow will 
lead to substantial changes in our seasonal hydroelectric power 
generation, which my state depends upon for two-thirds of its 
electricity needs. Projected snowpack decreases of 29 percent by the 
2020s, 44 percent by the 2040s, and 65 percent by the 2080s are frankly 
quite daunting when we already have too little water to go around and 
our needs are just going to increase over time. Unless we act, in 
coordination with the rest of the world, this snowpack decline is going 
to cost my constituents billions of dollars in lost hydropower, 
irrigation water, and industries that depend on salmon recovery.
    All of the expected impacts add up to a rather expensive bill. A 
recent study estimated that climate change impacts in Washington state 
will reach nearly 10 billion dollars per year by 2020. That's just 
eight years from now, and it's the same burden on my constituents as an 
increase of three-and-a-half dollars for a gallon of gasoline.
    I am proud that my state is a national leader in developing a 
climate response strategy. Incorporating climate change into its 
planning decisions whether they are where to place new infrastructure 
or where to focus adaptation efforts.
    I was struck by Dr. Strauss's recent report that found the threat 
of a ``century'' flood in Washington state more than triples by 2030. 
That's a daunting assessment given that already since 1990, Puget Sound 
has experienced 16 federally declared flood disasters, and Interstate 5 
has closed four times due to flooding. One of those closures resulted 
in $47 million in lost economic output to the state.
    Our states are already struggling to keep their budgets balanced 
while maintaining critical funding for education, first responders, 
transportation systems, and other essential government services. As you 
look at the costs to Florida and New York city, how are you planning to 
pay for these necessary adaptation measures?
    Answer. The preferred way to pay for adaptation is to encourage new 
growth in low risk areas and provide incentives for existing coastal 
developments to relocate or rebuild as appropriate. This requires a 
long lead time and Congressional action to establish strategic long 
term policies to develop water resources, transportation, and power 
infrastructure for the new developments. The implementation of the 
interstate highway system and the subsequent growth of suburbs shows 
the potential for encouraging growth in new areas. Other policies are 
also needed to help those in high risk areas who want to relocate. 
These might include a special tax deduction category for developed 
property AND land which are subject to sea level rise impacts and are 
donated to a national seashore trust in advance of functional loss or 
after loss due to a tropical storm or other event. It might also 
include reforms to flood insurance and disaster relief programs to 
encourage or require property owners to relocate to lower risk areas 
after a damage event.
    As far as Florida is concerned, there are no special funds set 
aside to deal with these issues. Local governments are devoting 
considerable resources identifying issues and responding to current 
threats on a somewhat piece meal basis.
    Question 2. Knowing the responsibilities states, cities, and 
localities already have and their limited ability to raise additional 
resources, it seems like we are going to have to establish some sort of 
federal program that can direct the billions of dollars needed to adapt 
our nation's infrastructure to and protect our citizens from the 
impacts of climate change.

          a. Do you believe such a Federal role and funding stream is 
        necessary?

    Answer. A key principle for planning, especially long range 
planning for climate adaptation, is to have vision of a desired future 
condition and develop a plan to move consistently toward that goal. 
With regard to sea level rise, that goal would greatly reduce national 
exposure to sea level rise risk over the next 50+ years with policies 
that strongly encourage new development and relocations in low risk 
areas. This might involve federal investment in large scale, next 
generation infrastructure (transportation, water, sewer, power, and 
communication systems) as a framework for development of new energy 
efficient climate friendly communities, much like the way the current 
interstate system investment has helped energize and shape US community 
developments since the 1950s. When identifying low risk areas, it will 
be important to recognize that sea level rise is most likely to 
continue for multiple centuries and is very likely to accelerate 
briskly in coming years.
    Federal support will be necessary to help coastal areas adjust to 
rising sea level. The protection and possible relocation of 
transportation and wastewater treatment systems, for example, will be 
very expensive and not adapting will have significant adverse local and 
interstate consequences.

          b. Wouldn't a price on carbon, which could serve to both 
        reduce the severity of these climate impacts and provide the 
        needed funds, make the most sense?
    Answer. A carbon price would be very important. There are other 
approaches that can be pursued as well. For example, a recent key 
article in Science indicates that great progress can be made worldwide 
using existing technology in reducing methane emissions and black soot.
    Question 3. As we think about our economic and energy future, we 
need to consider the real costs of inaction. A recent study has 
estimated that the impacts of climate change will cost my home state of 
Washington 10 billion dollars per year by 2020. This is an enormous 
burden that will be arriving very soon.
    It is imperative that we get ahead of this curve and prepare for 
these impacts now. To that end, we must maintain vital funding of 
research programs and facilities that advance scientific knowledge and 
understanding and provide the foundation for cost-effective, innovative 
solutions. Unfortunately, funding carve-outs in the Department of 
Energy's Office of Science have impacted base program funding for user 
facilities and research in recent years.
    In my home state, PNNL is working on solutions to the challenges 
climate change imposes, but to succeed, they need our continued 
support. In these fiscally austere times, it makes even less sense to 
be a penny wise and a pound foolish. PNNL is conducting important 
research, for example through the Atmospheric Radiation Measurement 
(ARM) Program, to get a better sense of what changes in climate are 
already occurring and will likely occur in the future--advancing our 
understanding of the climate system that include complex components 
such as aerosols, clouds, and the carbon cycle.
    PNNL is also working to provide better information to plan for the 
coming impacts. They're developing high resolution models that 
incorporate critical infrastructure and natural resources of each 
region to inform mitigation and adaptation decisions at the state and 
regional level. This information will be invaluable for infrastructure 
planning by natural resource managers, energy companies, and government 
agencies that currently face great uncertainties in their decision 
making in response to changing regional climates.
    It seems to me that the upfront costs of this research and planning 
will be extremely modest relative to the costs coming down the road.

          a. Do all of you agree that proposed cuts to research and 
        development will impede our ability to prepare for and mitigate 
        the worst impacts of climate change?

    Answer. Yes, proposed cuts would have potentially significant 
negative effects. In fact, additional funding is needed for 
vulnerability assessments and the monitoring and collection that is 
needed for these assessments.

          b. Do you hear from states and localities appreciating your 
        analysis and that they use your data to make better planning 
        decisions?

    Answer. Yes, states and localities have been quite active in 
sharing information and planning approaches. These include the 
Southeast Florida Regional Climate Change Compact, Broward and Martin 
Counties, Florida's Department of Economic Opportunity, The City of 
Punta Gorda, Florida, The Florida Department of Transportation, and The 
City of New York.
    Question 4. Sea level rise, storm surges, and extreme weather 
events will increase the risk of flooding and damage to energy 
production and delivery systems such as power plants, transmission 
lines, pipelines, and oil refineries. More storm activity will increase 
the cost of power and infrastructure maintenance and lead to more, 
longer blackouts and disruptions of services.
    As we plan for these potential disruptions, we should be looking 
for ways to make the electric grid more resilient and reliable. The 
Department of Energy's 2011 Quadrennial Technology Review found that we 
are ``underinvesting in activities supporting modernization of the 
grid.'' This underinvestment delays the nation's transition to a more 
resilient, reliable, and secure electricity system, which is needed 
even more urgently due to the additional challenges from climate 
change.

          a. Should grid modernization efforts and making the grid 
        smarter be important parts of our response to electric 
        vulnerabilities created by climate change?

    Answer. Yes. Often the demands for power and power generating 
capacity are not co-located, which means that power will have to move 
long distances across the grid (note we lose about 6% of power in 
transmission). At present, the carrying capacity of the grid and the 
control systems required are not in place. As a result, without 
reinforcing the grid and migrating to digital controls, the grid will 
increasingly put populations at risk in the southeast, southwest, and 
Rocky Mountain states.

          b. Is securing our grid against these threats just as 
        important as against other potential threats such as 
        cyberattacks?

    Answer. The risks are categorically different. Cyber attacks can 
bring the grid down temporarily as a result of control interruptions. 
Hardening the access to the control system is the key to preventing 
cyber attacks. Climate change issues are associated with the carrying 
capacity of the wiring system. If power cannot get through the wiring, 
large scale interruptions will occur during the most vulnerable periods 
(very hot or cold).
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

             Questions for Adam Freed From Senator Bingaman
    Question 1. Opponents of policies to reduce carbon emissions often 
cite the costs and economic burden of such policies as a main reason 
for their opposition. Your testimony here today would indicate that the 
costs of inaction, and also of not planning for a certain level of 
climate change that we have already committed to, are quite high. Are 
there studies that effectively quantify these costs, and if so, how do 
they compare to the costs of being proactive?
    Question 2. Are there particular power plants or other pieces of 
energy infrastructure that are of primary concern? Is it feasible to 
protect them, or will they simply need to be retired or replaced?
            Questions for Adam Freed From Senator Murkowski
                      tools for fixing the problem
    Question 1. In Congress, it has become apparent that cap-and-trade 
lacks the support needed to pass, and internationally, the U.N. has 
failed to develop a treaty that all nations are willing to ratify. What 
we are left with at the moment are regulations by the EPA under the 
Clean Air Act, which many of us oppose due to our concerns about their 
economic impact.

          a. How much of a difference will CAFE standards and New 
        Source Performance Standards for power plants actually have on 
        projected sea level rise?
                           setting priorities
    Question 2. A New York Times article from 2007, entitled ``Feel 
Good vs. Do Good on Climate,'' brings up a number of interesting points 
on this subject. Using New York as a case in point, the article states 
that ``The warming that has already occurred locally is on the same 
scale as what's expected globally in the next century.'' Bjorn Lomborg 
is also quoted as saying, ``No historian would look back at the last 
two centuries and rank the rising sea level here as one of the city's 
major problems.''

          a. In comparison to malaria, famine, and other global 
        problems that are affecting people right now, how much 
        attention should be paid to rising sea levels?
                            accuracy to date
    Question 3. Scientists and researchers have been making projections 
about sea level rise for years--if not decades. Climate models are 
constantly being re-worked, and refined, but hearings like these 
provide an opportunity to look back as well as forward.

          a. To the extent that past projections were made for sea 
        level rise in 2010, 2012, or another point around the current 
        period, how accurate have those projections been?
                 responsibility for fixing the problem
    Question 4. Mr. Freed, as Deputy Director of Mayor Bloomberg's 
Office of Long-Term Planning and Sustainability, you've spent time 
looking at what projected sea level rise could mean for Manhattan. And 
the fact that you've looked at this is testament to the number of 
ways--and the number of entities--that could ultimately find a role in 
any problems that result.

          a. In your view, does responsibility for addressing and 
        preparing for sea level rise reside with state, local, or 
        federal governments, companies, insurance providers, 
        individuals--or some combination of all of them?
             Questions for Adam Freed From Senator Cantwell
    Question 1. In the Puget Sound region, sea level is projected to 
rise by six inches by 2050--13 inches by the end of the century. And 
due to potential ice melt from Greenland and Antarctica, increases of 
up to four feet for Puget Sound are even possible by the end of the 
century. This is particularly alarming to me and my constituents 
because structures located in flood hazard areas are valued at 28.7 
billion dollars in Puget Sound alone.
    Sea level rise and severe storms could be a big problem for the 
many military installations in Puget Sound that are critical to our 
national security. We've already seen how Florida's Homestead Air Force 
Base was essentially destroyed by Hurricane Andrew in 1992. And 
Hurricane Ivan badly damaged Naval Air Station Pensacola in 2004.
    And sea level rise is just one of the many harmful impacts my state 
is going to have to deal with because of global warming pollution. 
Climate change is expected to severely disrupt our very supply and 
demand of energy. Shifts in the amount and timing of stream-flow will 
lead to substantial changes in our seasonal hydroelectric power 
generation, which my state depends upon for two-thirds of its 
electricity needs. Projected snowpack decreases of 29 percent by the 
2020s, 44 percent by the 2040s, and 65 percent by the 2080s are frankly 
quite daunting when we already have too little water to go around and 
our needs are just going to increase over time. Unless we act, in 
coordination with the rest of the world, this snowpack decline is going 
to cost my constituents billions of dollars in lost hydropower, 
irrigation water, and industries that depend on salmon recovery.
    All of the expected impacts add up to a rather expensive bill. A 
recent study estimated that climate change impacts in Washington state 
will reach nearly 10 billion dollars per year by 2020. That's just 
eight years from now, and it's the same burden on my constituents as an 
increase of three-and-a-half dollars for a gallon of gasoline.
    I am proud that my state is a national leader in developing a 
climate response strategy. Incorporating climate change into its 
planning decisions whether they are where to place new infrastructure 
or where to focus adaptation efforts.
    I was struck by Dr. Strauss's recent report that found the threat 
of a ``century'' flood in Washington state more than triples by 2030. 
That's a daunting assessment given that already since 1990, Puget Sound 
has experienced 16 federally declared flood disasters, and Interstate 5 
has closed four times due to flooding. One of those closures resulted 
in $47 million in lost economic output to the state.
    Our states are already struggling to keep their budgets balanced 
while maintaining critical funding for education, first responders, 
transportation systems, and other essential government services. As you 
look at the costs to Florida and New York city, how are you planning to 
pay for these necessary adaptation measures?
    Question 2. Knowing the responsibilities states, cities, and 
localities already have and their limited ability to raise additional 
resources, it seems like we are going to have to establish some sort of 
federal program that can direct the billions of dollars needed to adapt 
our nation's infrastructure to and protect our citizens from the 
impacts of climate change.

          a. Do you believe such a Federal role and funding stream is 
        necessary?
          b. Wouldn't a price on carbon, which could serve to both 
        reduce the severity of these climate impacts and provide the 
        needed funds, make the most sense?

    Question 3. As we think about our economic and energy future, we 
need to consider the real costs of inaction. A recent study has 
estimated that the impacts of climate change will cost my home state of 
Washington 10 billion dollars per year by 2020. This is an enormous 
burden that will be arriving very soon.
    It is imperative that we get ahead of this curve and prepare for 
these impacts now. To that end, we must maintain vital funding of 
research programs and facilities that advance scientific knowledge and 
understanding and provide the foundation for cost-effective, innovative 
solutions. Unfortunately, funding carve-outs in the Department of 
Energy's Office of Science have impacted base program funding for user 
facilities and research in recent years.
    In my home state, PNNL is working on solutions to the challenges 
climate change imposes, but to succeed, they need our continued 
support. In these fiscally austere times, it makes even less sense to 
be a penny wise and a pound foolish. PNNL is conducting important 
research, for example through the Atmospheric Radiation Measurement 
(ARM) Program, to get a better sense of what changes in climate are 
already occurring and will likely occur in the future--advancing our 
understanding of the climate system that include complex components 
such as aerosols, clouds, and the carbon cycle.
    PNNL is also working to provide better information to plan for the 
coming impacts. They're developing high resolution models that 
incorporate critical infrastructure and natural resources of each 
region to inform mitigation and adaptation decisions at the state and 
regional level. This information will be invaluable for infrastructure 
planning by natural resource managers, energy companies, and government 
agencies that currently face great uncertainties in their decision 
making in response to changing regional climates.
    It seems to me that the upfront costs of this research and planning 
will be extremely modest relative to the costs coming down the road.

          a. Do all of you agree that proposed cuts to research and 
        development will impede our ability to prepare for and mitigate 
        the worst impacts of climate change?
          b. Do you hear from states and localities appreciating your 
        analysis and that they use your data to make better planning 
        decisions?

    Question 4. Sea level rise, storm surges, and extreme weather 
events will increase the risk of flooding and damage to energy 
production and delivery systems such as power plants, transmission 
lines, pipelines, and oil refineries. More storm activity will increase 
the cost of power and infrastructure maintenance and lead to more, 
longer blackouts and disruptions of services.
    As we plan for these potential disruptions, we should be looking 
for ways to make the electric grid more resilient and reliable. The 
Department of Energy's 2011 Quadrennial Technology Review found that we 
are ``underinvesting in activities supporting modernization of the 
grid.'' This underinvestment delays the nation's transition to a more 
resilient, reliable, and secure electricity system, which is needed 
even more urgently due to the additional challenges from climate 
change.

          a. Should grid modernization efforts and making the grid 
        smarter be important parts of our response to electric 
        vulnerabilities created by climate change?
          b. Is securing our grid against these threats just as 
        important as against other potential threats such as 
        cyberattacks?
                                 ______
                                 
         Questions for Anthony C. Janetos From Senator Bingaman
    Question 1. Opponents of policies to reduce carbon emissions often 
cite the costs and economic burden of such policies as a main reason 
for their opposition. Your testimony here today would indicate that the 
costs of inaction, and also of not planning for a certain level of 
climate change that we have already committed to, are quite high. Are 
there studies that effectively quantify these costs, and if so, how do 
they compare to the costs of being proactive?
    Question 2. Are there particular power plants or other pieces of 
energy infrastructure that are of primary concern? Is it feasible to 
protect them, or will they simply need to be retired or replaced?
        Questions for Anthony C. Janetos From Senator Murkowski
                      tools for fixing the problem
    Question 1. In Congress, it has become apparent that cap-and-trade 
lacks the support needed to pass, and internationally, the U.N. has 
failed to develop a treaty that all nations are willing to ratify. What 
we are left with at the moment are regulations by the EPA under the 
Clean Air Act, which many of us oppose due to our concerns about their 
economic impact.

          a. How much of a difference will CAFE standards and New 
        Source Performance Standards for power plants actually have on 
        projected sea level rise?
                           setting priorities
    Question 2. A New York Times article from 2007, entitled ``Feel 
Good vs. Do Good on Climate,'' brings up a number of interesting points 
on this subject. Using New York as a case in point, the article states 
that ``The warming that has already occurred locally is on the same 
scale as what's expected globally in the next century.'' Bjorn Lomborg 
is also quoted as saying, ``No historian would look back at the last 
two centuries and rank the rising sea level here as one of the city's 
major problems.''

          a. In comparison to malaria, famine, and other global 
        problems that are affecting people right now, how much 
        attention should be paid to rising sea levels?
                            accuracy to date
    Question 3. Scientists and researchers have been making projections 
about sea level rise for years--if not decades. Climate models are 
constantly being re-worked, and refined, but hearings like these 
provide an opportunity to look back as well as forward.

          a. To the extent that past projections were made for sea 
        level rise in 2010, 2012, or another point around the current 
        period, how accurate have those projections been?
         Questions for Anthony C. Janetos From Senator Cantwell
    Question 1. Knowing the responsibilities states, cities, and 
localities already have and their limited ability to raise additional 
resources, it seems like we are going to have to establish some sort of 
federal program that can direct the billions of dollars needed to adapt 
our nation's infrastructure to and protect our citizens from the 
impacts of climate change.

          a. Do you believe such a Federal role and funding stream is 
        necessary?
          b. Wouldn't a price on carbon, which could serve to both 
        reduce the severity of these climate impacts and provide the 
        needed funds, make the most sense?

    Question 2. As we think about our economic and energy future, we 
need to consider the real costs of inaction. A recent study has 
estimated that the impacts of climate change will cost my home state of 
Washington 10 billion dollars per year by 2020. This is an enormous 
burden that will be arriving very soon.
    It is imperative that we get ahead of this curve and prepare for 
these impacts now. To that end, we must maintain vital funding of 
research programs and facilities that advance scientific knowledge and 
understanding and provide the foundation for cost-effective, innovative 
solutions. Unfortunately, funding carve-outs in the Department of 
Energy's Office of Science have impacted base program funding for user 
facilities and research in recent years.
    In my home state, PNNL is working on solutions to the challenges 
climate change imposes, but to succeed, they need our continued 
support. In these fiscally austere times, it makes even less sense to 
be a penny wise and a pound foolish. PNNL is conducting important 
research, for example through the Atmospheric Radiation Measurement 
(ARM) Program, to get a better sense of what changes in climate are 
already occurring and will likely occur in the future--advancing our 
understanding of the climate system that include complex components 
such as aerosols, clouds, and the carbon cycle.
    PNNL is also working to provide better information to plan for the 
coming impacts. They're developing high resolution models that 
incorporate critical infrastructure and natural resources of each 
region to inform mitigation and adaptation decisions at the state and 
regional level. This information will be invaluable for infrastructure 
planning by natural resource managers, energy companies, and government 
agencies that currently face great uncertainties in their decision 
making in response to changing regional climates.
    It seems to me that the upfront costs of this research and planning 
will be extremely modest relative to the costs coming down the road.

          a. Do all of you agree that proposed cuts to research and 
        development will impede our ability to prepare for and mitigate 
        the worst impacts of climate change?
          b. Do you hear from states and localities appreciating your 
        analysis and that they use your data to make better planning 
        decisions?

    Question 3. All of the testimonies indicate that the impacts from 
climate change are already here, and more are coming soon. I am 
wondering how much influence the amount of emissions over the next few 
decades will have on future climate change impacts.
    Predicting the extent of future climate changes and evaluating 
impacts of alternative mitigation and adaptation strategies will 
require significant improvement in the accuracy of climate change 
models. We also need more complete representations of human systems at 
regional to local scales, where mitigation and adaptation planning 
occur.

          a. In improving the accuracy and scope of our models, how 
        helpful would it be to have a more certain emissions pathway 
        into the future?
          b. Would this certainty improve our ability to plan for and 
        adapt to climate change impacts?
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

     Statement of Ben Strauss and Remik Ziemlinski, Climate Central
            sea level rise threats to energy infrastructure
             a surging seas brief report by climate central
                                                    April 19, 2012.
Summary
    Sea level rise from global warming is well on the way to doubling 
the risk of coastal floods 4 feet or more over high tide by 2030 at 
locations nationwide. In the lower 48 states, nearly 300 energy 
facilities stand on land below that level, including natural gas 
infrastructure, electric power plants, and oil and gas refineries. Many 
more facilities are at risk at higher levels, where flooding will 
become progressively more likely with time as the sea continues to 
rise. These results come from a Climate Central combined analysis of 
datasets from NOAA, USGS and FEMA.
Rising seas
    Global warming has raised sea level about 8 inches since 1880, and 
the rate of rise is accelerating. Scientists expect 20 to 80 more 
inches this century, a lot depending upon how much more heat-trapping 
pollution humanity puts into the atmosphere. In the near term, rising 
seas will translate into more and more coastal floods reaching higher 
and higher, as sea level rise aggravates storm surges. These increases 
threaten widespread damage to the nation's energy infrastructure. This 
brief analyzes the potential risk.
Multiplying risk
    Based on peer-reviewed research, Climate Central's March 2012 
report, Surging Seas (surgingseas.org/NationalReport), made local sea 
level rise and coastal flood risk projections at 55 water-level 
stations distributed around the lower 48 states. At the majority of 
these sites and across the U.S., according to the projections, climate 
change more than doubles the odds of near-term extreme flooding, 
compared to a hypothetical world without warming. Across sites, median 
odds for floods reaching at least 4 feet above local high-tide lines 
are 55 percent by 2030. Median odds for floods exceeding 5 feet are 41 
percent by 2050. Odds vary regionally, but generally rank highest along 
the Gulf of Mexico. However, warming multiplies odds the most along the 
Pacific and then Atlantic coasts. Numbers are detailed in Table 2 of 
Surging Seas.
Energy infrastructure exposed
    A great number of coastal energy facilities lay below these 
elevations, exposed to increasing risk of floods. This analysis 
identifies 287 facilities less than 4 feet above the high-tide line, 
spread throughout the 22 coastal states of the lower 48. More than half 
of these are in Louisiana, mainly natural gas facilities. Florida, 
California, New York, Texas, and New Jersey each have 10-to-30 exposed 
sites, mainly for electricity in the first three states, and for oil 
and gas in the last two. All told, this brief catalogs 130 natural gas, 
96 electric, and 56 oil and gas facilities built on land below the 4-
foot line. Below the 5-foot line, the total jumps to 328 facilities 
with similar geographic and type distribution.
    Figure 1* shows a map of coastal facility locations below 4 feet. 
Table 1 presents total energy facilities below 1-to-10 feet, state by 
state. Tables 2-4 break out natural gas, electric, and oil and gas 
facilities.
---------------------------------------------------------------------------
    * Figure has been retained in committee files.
---------------------------------------------------------------------------
Analysis methods
    To arrive at the values presented here, we overlay point coordinate 
data for energy facilities from the Federal Emergency Management Agency 
HAZUS Database / MH (version 1.1), against previously developed flood-
risk zones. Surging Seas documents the methodology for developing these 
zones, which are based on the elevation of land relative to local high-
tide lines (as opposed to standard elevation). The Surging Seas 
analysis employed national datasets from NOAA and USGS.
    The HAZUS database breaks down energy facilities into several 
classes. We lump ``Oil / Gas Refinery'' and ``Oil / Gas Storage 
Facility / Tank Farm'' together with ``Oil / Gas Facility''; the 
database includes only two sites in the first two categories less than 
10 feet, vs. 118 for the last category. Similarly, we lump 
``Substation'' (1 below 10 feet) together with ``Electric Facility'' 
(201).
Limitations
    The results presented here should be presented with certain limits 
in mind. For example, the FEMA source data used includes only point 
coordinate values for each energy facility. Actual facilities cover 
larger areas that may include higher or lower elevations. This analysis 
uses the best publicly available elevation data covering the entire 
coast of the lower 48 states. However, like most datasets, the 
elevation dataset includes errors, so any point may be higher or lower 
than the value provided. These factors mean that results for any 
individual facility should be viewed cautiously. We therefore do not 
present results at the individual level. However, averaged over many 
facilities, potential errors should cancel out, making the aggregate 
findings presented more reliable.
    This analysis simply tallies facilities under different elevations. 
It does not account for levees, seawalls, or other features that may 
offer protection. However, areas depressed below a sea-flood level, 
even if isolated from the ocean, may be more subject to flooding from 
rainwater during storms, as drainage would be impeded.
    The Surging Seas report presents more thorough and detailed limits 
that all apply for this brief as well.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Licensing
    You may republish this brief report and/or its tables and graphics 
online, in their original form, provided you cite Climate Central and 
provide a link to sealevel.climatecentral.org. You must seek prior 
permission for print republication. You may also not sell or edit our 
content without permission. Contact us with questions or for 
permissions at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e59780959087898c968da586898c8884918086808b91978489cb8a9782cb">[email&#160;protected]</a> For more detailed 
information on our policy, see climatecentral.org/about/republish-our-
content.
About
    Climate Central Climate Central is an independent, non-profit 
journalism and research organization. For more information, visit 
climatecentral.org/what-we-do.
Disclaimer
    All content found herein is provided solely for personal 
informational purposes and is provided ``AS-IS.'' You acknowledge and 
agree that your use and possession of this content is subject to, and 
you agree to the provisions set forth in, Climate Central's Terms of 
Use (http://www.climatecentral.org/about/legal#terms_of_use), Privacy 
Policy (http://www.climatecentral.org/about/legal#privacy_policy) and 
Disclaimer (http://sealevel.climatecentral.org/about/disclaimer).
                                 ______
                                 
    Statement of Ben Strauss, Claudia Tebaldi, and Remik Ziemlinski
                 a climate central report: surging seas
    sea level rise, storms & global warming's threat to the us coast
                                                    March 14, 2012.
Executive Summary
    Global warming has raised sea level about 8 inches since 1880, and 
the rate of rise is accelerating. Scientists expect 20 to 80 more 
inches this century, a lot depending upon how much more heat-trapping 
pollution humanity puts into the sky. This study makes mid-range 
projections of 1-8 inches by 2030, and 4-19 inches by 2050, depending 
upon location across the contiguous 48 states.
    Rising seas dramatically increase the odds of damaging floods from 
storm surges. For over two-thirds of the locations analyzed (and for 
85% of sites outside the Gulf of Mexico), past and future global 
warming more than doubles the estimated odds of ``century'' or worse 
floods occurring within the next 18 years--meaning floods so high they 
would historically be expected just once per century. For over half the 
locations analyzed, warming at least triples the odds of century-plus 
floods over the same period. And for two-thirds the locations, sea 
level rise from warming has already more than doubled the odds of such 
a flood even this year.
    These increases are likely to cause an enormous amount of damage. 
At three quarters of the 55 sites analyzed in this report, century 
levels are higher than 4 feet above the high tide line. Yet across the 
country, nearly 5 million people live in 2.6 million homes at less than 
4 feet above high tide. In 285 cities and towns, more than half the 
population lives on land below this line, potential victims of 
increasingly likely climate-induced coastal flooding. 3.7 million live 
less than 1 meter above the tide.
    About half of this exposed population, and eight of the top ten 
cities, are in the state of Florida. A preliminary independent analysis 
suggests about $30 billion in taxable property is vulnerable below the 
three-foot line in just three counties in southeast Florida, not 
including the county with the most homes at risk in the state and the 
nation, Miami-Dade. Small pockets or wide areas of vulnerability, 
however, exist in almost every other coastal state.
    The population and homes exposed are just part of the story. 
Flooding to four feet would reach higher than a huge amount of dry 
land, covering some 3.0 million acres of roads, bridges, commercial 
buildings, military bases, agricultural lands, toxic waste dumps, 
schools, hospitals, and more. Coastal flooding made worse by global 
warming and rising seas promises to cause many billions of dollars of 
damage over the coming decades.
    This report and its associated materials, based on two just-
published peer-reviewed studies, is the first major national analysis 
of sea level rise in 20 years, and the first one ever to include:

  <bullet> Estimates of land, population and housing at risk;
  <bullet> Evaluations of every low-lying coastal town, city, county 
        and state in the contiguous US;
  <bullet> Localized timelines of storm surge threats integrating local 
        sea level rise projections; and
  <bullet> A freely available interactive map and data to download 
        online (see SurgingSeas.org).

    Summaries of these findings at a state-by-state level are available 
in fact sheets at SurgingSeas.org/factsheets. The original peer-
reviewed studies can be found via SurgingSeas.org/papers. All findings 
reflect best estimates from the research; actual values may vary.
    This report focuses on new research and analysis, not 
recommendations; but it is clear from the findings here that in order 
to avoid the worst impacts, the United States must work to slow sea 
level rise by reducing emissions of heat-trapping gases, and work to 
diminish the remaining danger by preparing for higher seas in coastal 
cities and counties everywhere. SurgingSeas.org/plans lists a selection 
of existing resources, plans and efforts to prepare, from local to 
national levels.
                            sea level rising
Background
    Global average sea level has increased over 8 inches since 1880,\1\ 
and global warming has caused the great majority, if not all, of that 
rise.\2\ Warming has acted in two main ways: by heating up and thus 
expanding the global ocean; and by attacking glaciers and polar ice 
sheets, pouring meltwater and icebergs into the sea.\3\ The planet has 
heated by more than one degree Fahrenheit over the last century, rising 
faster as we have burned coal, oil and gas faster, and so sent ever 
more heat-trapping gases into the air.\4\ Scientists overwhelmingly 
agree that these building gases are responsible for most of the warming 
observed thus far.\5\
---------------------------------------------------------------------------
    \1\ Church J A and White N J 2011. Sea-level rise from the late 
19th to the early 21st century. Surveys in Geophysics
    \2\ Moore J C, Jevrejeva S and Grinsted A 2011. The historical 
global sea-level budget. Annals of Glaciology. Also Church J A, White N 
, Konikow L F, Domingues C M, Cogley J G, Rignot E, Gregory J M, van 
den Broeke M R, Monaghan A J, and Velicogna I 2011. Revisiting the 
Earth's sea-level and energy budgets from 1961 to 2008. Geophysical 
Research Letters. Also Shum C K and Kuo C-Y 2011. Observation and 
geophysical causes of present-day sea-level rise. In Climate Change and 
Food Security in South Asia, R. Lal et al, eds.
    \3\ Ibid. Also Bindoff N L and others 2007. Observations: Oceanic 
climate change and sea level. In S Solomon and others, editors, Climate 
Change 2007: The Physical Science Basis. Contribution of Working Group 
I to the Fourth Assessment Report of the Intergovernmental Panel on 
Climate Change.
    \4\ S Solomon and others 2007. Climate Change 2007: The Physical 
Science Basis. Contribution of Working Group I to the Fourth Assessment 
Report of the Intergovernmental Panel on Climate Change. Cambridge 
University Press.
    \5\ Oreskes N 2004. The scientific consensus on climate change. 
Science
---------------------------------------------------------------------------
    Warming and sea level rise\6\ are both accelerating, as is the rate 
of decay of ice sheets on Greenland and Antarctica.\7\ Loss of ice from 
these sources has the potential to raise sea level by many tens of feet 
over centuries. In the warm period before the last Ice Age--when the 
planet was as warm as we expect it to become by 2100 or sooner, at 
least without deep and immediate cuts to pollution--global sea level 
very likely reached over 20 feet higher than it is today,\8\ an 
eventual sea level we could be committing to within decades\9\ if not 
already.\10\ That rise would be enough to drown many major coastal 
metropolises.
---------------------------------------------------------------------------
    \6\ Church J A and White N J 2006. A 20th century acceleration in 
global sea-level rise. Geophysical Research Letters
    \7\ Rignot E, Velicogna I, Van den Broeke M R, Monaghan A, and 
Lenaerts J 2011. Acceleration of the contribution of the Greenland and 
Antarctic ice sheets to sea level rise. Geophysical Research Letters.
    \8\ Kopp R E, Simons F J, Mitrovica J X, Maloof A C, and 
Oppenheimer M 2009. Probabilistic assessment of sea level during the 
last interglacial stage. Nature.
    \9\ Ibid. and Overpeck J T, Otto-Bliesner B L, Miller G H, Muhs D 
R, Alley R B and Kiehl J T 2006. Paleoclimatic evidence for future ice-
sheet instability and rapid sea-level rise. Science
    \10\ Rohling E J, Grant K, Bolshaw M, Roberts A P, Siddall M, 
Hemleben Ch, and Kucera M 2009. Antarctic temperature and global sea 
level closely coupled over the last five glacial cycles. Nature 
Geoscience
---------------------------------------------------------------------------
Projections
    This century, scientists expect about 20 to 80 more inches of 
global sea level rise, depending significantly on how much more heat-
trapping pollution humankind puts into the sky.\11\ The amount also 
depends on just how strongly pollution translates into warming, and 
just how strongly warming translates into sea rise. The analysis 
presented in this report, based on a paper by Tebaldi and others,\12\ 
takes a wide range of possibilities into account. It also factors in 
the gradual sinking or rising of coastal land around much of the U.S., 
which leads to faster or slower rates of local sea level rise, compared 
to global rates.
---------------------------------------------------------------------------
    \11\ Vermeer M and Rahmstorf S 2009. Global sea level linked to 
global temperature. Proceedings of the National Academy of Sciences. 
Also Pfeffer W T, Harper J T and O'Neel S 2008. Kinematic constraints 
on glacier contributions to 21st-century sea-level rise. Science. Also 
Grinsted A, Moore J C, and Jevrejeva S 2009. Reconstructing sea level 
from paleo and projected temperatures 200 to 2100AD. Climate Dynamics
    \12\ Tebaldi C, Strauss B H and Zervas C E 2012. Modelling sea 
level rise impacts on storm surges along US coasts. Environmental 
Research Letters.
---------------------------------------------------------------------------
    This study's middle-of-the-road projections for 2030 range from one 
inch of local sea level rise in the northwest corner of Washington 
State, where the land is slowly rising, to 8 inches near New Orleans, 
where it is sinking. By 2050, these projections increase to 4 and 19 
inches, respectively. Best-and worst-case projections range from lower 
to considerably higher values. Table 1 shows findings for all 55 
locations studied, plus regional and national summaries.
Storm surge: The risk multiplier
    Rising seas dramatically increase the odds of damaging floods from 
storm surges. For over two-thirds of the 55 locations analyzed (and for 
85% of sites outside the Gulf of Mexico), past and future global 
warming more than doubles the estimated odds of ``century'' (or worse) 
floods occurring by 2030--meaning floods so high they would 
historically be seen with only a one percent (or less) chance per year. 
For over half the locations analyzed, warming at least triples the odds 
of century-plus floods. Figure 1* illustrates these changes around the 
nation, and Table 2 shows results at all flood study sites. 
Additionally, for two-thirds of the locations, sea level rise from 
warming has already at least doubled the annual risk of century-plus 
floods (see Table 2 and footnote 18). These calculations all 
incorporate the assumption that 90% of historic sea level rise has 
stemmed from warming.
---------------------------------------------------------------------------
    * Figure 1 has been retained in committee files.
---------------------------------------------------------------------------
    The increases in odds come despite the fact that sea level rise 
from warming, over the next two decades and over the last century, is 
better measured in inches than in feet. In many places, only inches 
separate the once-a-decade flood from the once-a-century one; and 
separate the water level communities have prepared for, from the one no 
one has seen. Critically, a small change can make a big difference, 
like the last inch of water that overflows a tub. Sea level rise is 
raising the launch pad for storms and high tides, and being experienced 
by the ever-more frequent occurrence of extreme high water levels 
during these events--long before the ocean reaches damaging heights 
permanently.
    Flood waters will reach different levels in different places on 
different schedules. Part of these differences will come from uneven 
local rates of sea level rise, part will come from chance, and part 
will come from how big local storm surges tend to be, which can vary a 
lot. Mostly because of this last factor, expected heights above high 
tide are generally about a foot higher than the national average in the 
Gulf of Mexico, and a foot lower than average in southern California 
and the southern Atlantic coast. But lower heights do not necessarily 
imply lower risk. For example, two feet of sea level rise should make 
an enormous difference in places where two-foot surges are rare 
extremes, and relatively less in places where ten-foot surges are 
sometimes seen.
    This study found that at over half the sites examined, there is a 
one-in-two or better chance of water reaching at least 4 feet higher 
than the average local high tide by 2030, at least once. 85 percent of 
stations have at least one-in-six odds. By 2050, many locations should 
experience 5-foot or higher floods, with at least one-in-two odds at 
nearly half of stations, and at least one-in-six odds at nearly two-
thirds. In all cases, sea level rise caused by global warming increases 
the odds, usually doubling or tripling them or more. Table 2 provides 
details for each site studied.
U.S. vulnerability
    Floods exceeding these levels are likely to cause an enormous 
amount of damage. Across the country, nearly 5 million people live in 
2.6 million homes on land less than 4 feet above high tide. In 285 
cities and towns, more than half the population lives below this line, 
potential victims of increasingly likely climate-induced coastal 
flooding. And nationwide, over 6 million people live on land less than 
5 feet above average high tide. Based on a paper by Strauss and 
others,\13\ this study estimated the land, housing and population less 
than 1-10 feet above local high tide levels, for every coastal town, 
city, county and state in the contiguous 48 states. SurgingSeas.org 
presents full results in a searchable, interactive map and in tables. 
3.7 million live on land less than 1 meter above the local high tide.
---------------------------------------------------------------------------
    \13\ Strauss B H, Ziemlinski R, Weiss J L, and Overpeck J T 2012. 
Tidally adjusted estimates of topographic vulnerability to sea level 
rise and flooding for the contiguous United States. Environmental 
Research Letters
---------------------------------------------------------------------------
    About half of the exposed population under 4 feet, and eight of the 
top ten cities, are in the state of Florida. A preliminary independent 
analysis suggests about $30 billion in taxable property lies below the 
three-foot line in just three counties in southeast Florida, not 
including the county with the most homes at risk in the state and the 
nation, Miami-Dade.\14\
---------------------------------------------------------------------------
    \14\ Draft Regional Climate Action Plan of the Southeast Florida 
Regional Climate Change Compact, Appendix E, via http://
www.southeastfloridaclimatecompact.org/index--files/Page648.htm, 
accessed January 2012.
---------------------------------------------------------------------------
    Small pockets or wide areas of vulnerability, however, exist in 
almost every other coastal state, as Figure 2* makes clear. Table 3 
shows the top ten states, counties and cities by total population 
living less than 4 feet above local high tide. State fact sheets at 
SurgingSeas.org/factsheets provide more summary information at a state 
level. The map at SurgingSeas.org links each city displayed with the 
nearest flood analysis site used in this study, as an indicator for 
when and with what chances a given water height might be achieved in 
the area. Actual odds may vary over even small distances.
---------------------------------------------------------------------------
    * Figure 2 has been retained in committee files.
---------------------------------------------------------------------------
    The population and homes exposed are just part of the story. 
Flooding to four feet would reach higher than a huge amount of dry 
land, covering some 3 million acres of roads, bridges, commercial 
buildings, military bases, agricultural lands, toxic waste dumps, 
schools, hospitals, and more. Coastal flooding made worse by global 
warming and rising seas promises to cause many billions of dollars of 
damage over the coming decades. This report focuses on population, 
housing and land, but future analyses will address infrastructure, 
landmarks, and property threatened.
    A number of state and local governments are beginning to plan or 
even take action against the challenge of sea level rise. 
SurgingSeas.org/plans presents a list and further resources.
Research methods
    To make maps of low and vulnerable coastal land, this study used 
the highest-resolution nationwide coastal elevation data publicly 
available, from the National Elevation Dataset (US Geological Survey; 
cells ca. 30 feet on a side). We adjusted elevations to indicate 
heights compared to the nearest average high tide levels, because these 
can vary by several feet from place to place. Tidal information came 
from VDatum, a tool created by the National Oceanic and Atmospheric 
Administration. We then removed from consideration all wetland area as 
defined by the National Wetlands Inventory, and overlaid the remaining 
map elevation zones against high-resolution data from the 2010 Census 
to extract population and housing estimates. SurgingSeas.org/
LandAnalysis provides more detail.
    To analyze future high water levels from sea level rise plus storm 
surge and tides, we studied 55 water level gauges around the US. We 
combined local factors, such as sinking land, and global future sea 
level rise estimates, to make local sea level rise projections at each 
site. We then used historic patterns of local extreme water levels to 
forecast future probabilities of extremes assuming the same patterns 
continue, but augmented by the projected local sea level rise. Our 
analysis also included developing confidence intervals around best 
estimates. SurgingSeas.org/FloodAnalysis provides more detail.
    To estimate how global warming shifts the odds of high storm 
surges, we computed extreme event probabilities in a hypothetical world 
with no warming-induced sea level rise, past or future, and then 
compared the results with our first calculations including warming. We 
retained local sea level change from vertical land movement in the no-
warming scenario. Based on a review of scientific literature, we 
assumed that 10% of the global average sea level rise observed since 
1880 came from factors other than warming, and so also retained this 
10% of global rise in the no-warming scenario.
    For more detail, visit SurgingSeas.org/research, which includes 
links to fuller descriptions of our methods, and the two core 
scientific papers upon which this report is based:

          Tebaldi C, Strauss B H and Zervas C E 2012. Modelling sea 
        level rise impacts on storm surges along US coasts. 
        Environmental Research Letters.
          Strauss B H, Ziemlinski R, Weiss J L, and Overpeck J T 2012. 
        Tidally adjusted estimates of topographic vulnerability to sea 
        level rise and flooding for the contiguous United States. 
        Environmental Research Letters.
Limitations
    The results presented here should be interpreted with certain 
limits in mind. One set of limits comes from the elevation data used. 
Like almost any dataset, it includes errors--so any point classified as 
below a given height, may in fact be above it; and any point classified 
as above a height, may be below it. These potential errors should 
cancel out when evaluating the totals of what is affected over larger 
areas like towns, cities and counties. However, elevation error should 
be kept in mind when looking at any individual point on the map that 
accompanies this analysis (SurgingSeas.org/map).
    Another issue from the elevation data concerns their horizontal 
resolution. Cells 30 feet on a side are too large to completely capture 
fine features like levees or seawalls, which may protect land even when 
it is below the water level, such as in the New Orleans area. 
Therefore, this analysis quantifies the land, housing and population 
below different threshold elevations--amounts not affected by built 
protection--but does not evaluate how much would be inundated, given 
each water level. Of course, many areas are not protected; protected 
areas are protected only to limited heights; and being below water 
level poses challenges for storm water drainage, increasing the risk of 
rain-driven flooding.
    The analysis of flood odds and timing applies strictly only at the 
55 water level gauge sites studied, and can only be considered general 
indicators for the surrounding areas. This is mainly because storm 
surge patterns can vary from place to place, even over short distances, 
due to geography and storm directions. Statistics among gauges 
sometimes correspond well over wide areas, suggesting wide 
applicability. But they also sometimes vary greatly over short 
distances, suggesting the opposite.
    This report assumes that recent historic storm patterns do not 
change in the future. However, global warming may change the frequency 
or intensity of storms that affect coastal flooding. This analysis also 
leaves out projected changes in Atlantic circulation expected to add 
several extra inches of sea level rise along the Northeast Corridor by 
mid-century;\15\ and projected changes in the ``gravity fingerprint'' 
of global oceans,\16\ which may partly counteract the first change.\17\
---------------------------------------------------------------------------
    \15\ Yin J, Schlesinger M E and Stouffer R J 2009. Model 
projections of rapid sea-level rise on the northeast coast of the 
United States. Nature Geoscience.
    \16\ Mitrovica J X, Gomez N, Morrow E, Hay C, Latychev K, and 
Tamisiea M E 2011. On the robustness of predictions of sea level 
fingerprints. Geophysical Journal International.
    \17\ Tebaldi C, Strauss B H and Zervas C E 2012. Modelling sea 
level rise impacts on storm surges along US coasts. Environmental 
Research Letters. See supplemental materials.
---------------------------------------------------------------------------
    Most broadly, this report presents our best estimates for the 
quantities analyzed, given the underlying data and our assumptions. 
True values are likely to fall above or below our estimates.
Licensing
    Excepting the stand-alone cover image, you may republish this 
document and/or its tables and graphics online, in their original form, 
provided you cite Climate Central and provide a link to 
sealevel.climatecentral.org. You must seek prior permission for print 
republication. You may also not sell or edit our content without 
permission. Contact us with questions or for permissions at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7301160306111f1a001b33101f1a1e12071610161d0701121f5d1c01145d">[email&#160;protected]</a> For more detailed information on our 
policy, see http://www.climatecentral.org/about/republish-our-content.
About Climate Central
    Climate Central is an independent, non-profit journalism and 
research organization. For more information, visit climatecentral.org/
about. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Table 2. Increase in flood odds driven by sea level rise from 
global warming.\18\
---------------------------------------------------------------------------
    \18\ Odds are for floods by given years, not within given years. 
Flood heights measured relative to local high tide. Century flood 
levels estimated using historic flooding patterns and assuming 2009 sea 
level as a baseline. Global warming multipliers indicate how much sea 
level rise from global warming has multiplied flood odds, compared to a 
world without warming, to reach the projected odds shown. 90% of 
historic global average sea level rise since 1880 is assumed to come 
from warming. Historic century flood odds have already doubled at all 
sites with multipliers >2 by 2030, except for at Solomons Island, MD 
and Freeport, TX, where odds have increased by 90% or more. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Disclaimer All content found herein is provided solely for personal 
        informational purposes and is provided ``AS-IS.'' You 
        acknowledge and agree that your use and possession of this 
        content is subject to, and you agree to the provisions set 
        forth in, Climate Central's Terms of Use (http://
        www.climatecentral.org/about/legal#terms_of_use), Privacy 
        Policy (http://www.climatecentral.org/about/
        legal#privacy_policy) and Disclaimer (http://
        sealevel.climatecentral.org/about/disclaimer). Cover image, 
        copyright WCU Program for the Study of Developed Shorelines
                                 ______
                                 
      Attachments of Leonard Berry, Director, Florida Center for 
    Environmental Studies, Florida Atlantic University, Jupiter, FL
    annex a.--southeast florida sea level rise concerns for federal 
                             consideration
    Based on the findings of the Final Recommendations of the 
Interagency Ocean Policy Task Force (July 2010), a National Priority 
Objective in an Area of Special Emphasis is to ``Strengthen resiliency 
of coastal communities . . .and their abilities to adapt to climate 
change impacts and ocean acidification.'' Southeast Florida is highly 
vulnerable to the effects of climate change, especially sea level rise. 
In order to effectively address sea level rise issues, the Southeast 
Florida Regional Climate Compact Counties have identified a number of 
concerns for federal assistance related to adaptation policies, 
adaptation funding and technical needs.
     southeast florida regional climate change compact 2012 joint 
                          legislative program
Statements on Sea Level Rise
    SUPPORT--greater incorporation of adaptation strategies in the 
development of state climate and energy policies, legislation, and 
appropriations priorities.
    SUPPORT--legislation which complements and enhances the utilization 
and implementation of Adaptation Action Area comprehensive plan 
designation in law for areas that experience coastal flooding and that 
are vulnerable to the related impacts of sea level rise. (See expanded 
language below under Broward County Legislative Program).
    SUPPORT--programs and efforts that provide technical assistance and 
funding to local governments to aid the integration of adaptation 
planning in local comprehensive plans.
    SUPPORT--funding for adaptation planning and investments (see 
attached letter) in the areas of water management, water supply, 
transportation and other projects that provide hazard mitigation and 
serve to reduce immediate and long-term risks (of sea level rise) to 
infrastructure.
    SUPPORT--policies, legislation and funding that will provide for 
the complete implementation of the Comprehensive Everglades Restoration 
Plan as fundamental to Everglades Restoration, but also the vitality of 
local water resource management efforts given the overall contributions 
of the Everglades to regulated water storage and aquifer recharge which 
will become increasingly important under variable climate conditions 
and in the face of sea level rise.
    SUPPORT--greater recognition of the role of Everglades Restoration 
in planning for economic and environmental sustainability, climate 
adaptation, including the impacts of sea level rise and extreme 
weather, such as droughts and floods.
2012 Broward County Legislative Program
    SUPPORT: Federal legislation that would create and fund a national 
infrastructure bank or other new infrastructure funding source to 
finance projects needed by state and local governments to adapt to the 
impacts of climate change and the growing regional needs for improved 
infrastructure with emphasis on investments in areas such as water 
management, water supply, transportation and other projects that 
provide hazard mitigation and serve to reduce risks to urban 
infrastructure from extreme weather events and rising sea levels.
    SUPPORT: Specific recognition of an ``Adaptation Action Area'' 
through designation in federal legislation for those regions, such as 
Southeast Florida, that are uniquely vulnerable to climate impacts, 
including sea level rise, for the purpose of prioritizing funding for 
infrastructure needs and adaptation planning, This specifically 
includes support for the inclusion of Adaptation Action Area language 
with the Army Corps of Engineers (USACE) and the Environmental 
Protection Agency (EPA), enabling at-risk regions to develop long-term 
plans for adaptation.
Technical Needs Identified in Compact Work Group Discussions
  <bullet> Continued technical support from federal agencies. The 
        Compact acknowledges the significant role and contributions of 
        federal agency partners in local and regional planning efforts 
        relating to water supply, water resource management, and sea 
        level. These collaborations have served to substantially 
        advance programmatic efforts and the Compact with the applied 
        expertise and resources of the USACE, NOAA, USGS, and EPA staff 
        in local and regional offices. Continued support is need to 
        develop technical tools and aid in the implementation of the 
        Southeast Florida Regional Climate Change Action Plan.
  <bullet> Improved and expanded hydrologic modeling for the region to 
        understand the impacts of sea level rise with scenario testing 
        for adaptation infrastructure improvements. Particular areas of 
        vulnerability and analysis will include sea level rise, 
        drainage and flood control infrastructure, changing 
        precipitation patterns, impacts on groundwater levels, surface 
        water management, and saltwater intrusion and its influence on 
        potable wellfields and water supplies. The USGS is currently 
        working on this type of modeling in select pilot areas of South 
        Florida.
  <bullet> Installation of additional National Water Level Observation 
        Network (NWLON) stations. NOAA conducted an assessment of tidal 
        stations along the Florida Coast and identified the need for 
        additional NWLON stations and subordinate gages. This 
        additional monitoring equipment will be important in 
        understanding and tracking changes in sea level rise for the 
        region.

    Inventory of infrastructure at risk: While NOAA, USGS, USACE and 
others have aided the region in the development of inundation maps, 
vulnerability assessments are impeded by the lack of complete and 
accurate geographic information system (GIS) coverages for select 
infrastructure, such as historical and cultural resources. Funding is 
needed to create these coverages to determine impacts associated with 
sea level rise and storm surge.
                     Congress of the United States
                          washington, dc 20515
                                                      May 13, 2011.

Hon. Rodney Frelinghuysen,
Chairman, House Appropriations Committee, Subcommittee on Energy and 
        Water, 2362-B Rayburn House Office Building, Washington, DC.
Hon. Pete Visclosky,
Ranking Member, House Appropriations Committee, Subcommittee on Energy 
        and Water, 1016 Longworth House Office Building, Washington, 
        DC.
    Dear Chairman Frelinghuysen and Ranking Member Visclosky:

    As you begin work on the Fiscal Year 2012 Energy and Water 
Appropriations bill, we respectfully request you to include language 
with the Army Corps of Engineers enabling at-risk, multi-county regions 
impacted by rising sea levels to develop long-term plans for 
adaptation.
    Scientists around the world and within our most respected 
institutions note an alarming level in sea level rise, possibly by 
several feet over the next century. This will inudate low-lying coastal 
zones, impacting hundreds of millions of people worldwide and tens of 
millions of Americans here at home. Our states and local communities 
are just beginning to grapple with the possible effects of what this 
kind of massive, permanent flooding will mean. It is critical that 
local leaders be given the necessary tools to start planning now, so 
that our communities will have enough time to prepare for these life-
altering effects.
    We request that the following language be inserted into the Army 
Corps of Engineer's Operations & Maintenance account, or whichever 
account you feel is most relevent:

          ``Funds will be used to study, define and designate several 
        ``Adaptation Action Areas,'' which are at-risk, multi-county, 
        regions of the country, uniquely vulnerable and significantly 
        impaced by rising sea level.''

    We hope that this language will enable regional groups to begin 
effectively strategizing and planning for adaptation to sea level rise. 
We thank you for your consideration of this important request.
            Sincerely,
                                         Alcee L. Hastings,
                                                Member of Congress.
                                                Ted Deutch,
                                                Member of Congress.
                                  Debbie Wasserman Schultz,
                                                Member of Congress.
                                          Frederica Wilson,
                                                Member of Congress.
              annex b.--sea level risk and response summit
                  the future of florida and the coast
                   Boca Raton Marriott, FL, June 20, 21 & 22, 2012.
Introduction
    This Summit will result in raising an awareness and visibility of 
sea level rise and climate change issues to make them a central agenda 
item for the future of Florida and to emphasize how local and regional 
actions can be translated to other regions in the U.S. and abroad. 
Furthermore, this Summit will result in highlighting the ``now'' of sea 
level rise and showcase the myriad of activities taking place in 
Florida and the organizations that are mobilizing to address the issue 
to a national and global audience. In addition, the Summit will produce 
specific recommendations to local, state and federal agencies presented 
in a report summary and a website where visual aids and publications 
will be used to educate summit participants before and after the 
summit.
Format And Purpose
    The Center for Environmental Studies (CES) at Florida Atlantic 
University, the Florida Sea Grant Program, and the United States 
Geological Survey will hold a Sea Level Rise Risk and Response Summit 
June 20th through June 22nd. The organizers have collaborated with a 
diverse group of experts in designing the program, goals and outcomes. 
The Summit will take place in Boca Raton, Florida and seek to bring in 
an audience of up to 300.
    The purpose of this summit is three-fold: Highlight the 
interrelationships between sea level rise, limestone geology, and water 
management in Florida; share the ongoing responses and adaptation 
planning of agencies, institutions, and civic society to sea level 
rise; and compare the Florida situation and response with other 
vulnerable localities in the US and worldwide. This summit will focus 
on the complex sea level rise issues in Florida and provide examples 
from other coastal regions within the US and internationally.
Goals And Objectives
    The goals are to make a diverse audience of Summit attendees aware 
of the myriad of adaptation activities currently underway in the region 
and beyond. From this shared awareness, there will be a plan to 
continue a process of cooperation and coordination of adaptation 
responses. The primary objective is to present an awareness and 
understanding of the effects of sea level rise on the built environment 
and other social and societal issues and to explore adaptation and 
mitigations practices and policies that could be used to offset 
negative impacts. Other objectives include:

  <bullet> Highlighting current and ongoing sea level rise and climate 
        change research initiatives from academia, regional planning, 
        state and federal projects taking place in Florida.
  <bullet> Share methods and lessons learned with other states/regions 
        to improve planning, decision making and adaptation.
  <bullet> Provide scientific information to enable effective decision 
        making to enable effective decision making to address the 
        threats and opportunities posed by climate and sea level rise 
        (similar to US Global Change Research Program goal).
  <bullet> Identify concerns, compatibilities and links between social 
        and economic issues, underserved populations, and the built 
        environment with regards to sea level rise, salt water 
        intrusion and water supply issues.
     annex c.--additional resources, collaborations, and research*
---------------------------------------------------------------------------
    * Map to Annex C has been retained in committee files.
---------------------------------------------------------------------------
1) Department of Transportation Research: Development of a Methodology 
        for the Assessment of Sea Level Rise Impacts on Florida's 
        Transportation Modes and Infrastructure
    In Florida, low elevations can make transportation infrastructure 
in coastal and low-lying areas potentially vulnerable to sea level rise 
(SLR). Because global SLR forecasts lack precision at local or regional 
scales, SLR forecasts or scenarios for parts of the state have been 
prepared using varying tools and approaches. However, Florida still 
lacks a consensus on the appropriate methodology to forecast potential, 
adverse impacts. Also, a comprehensive analysis of transportation 
infrastructure potentially at risk in Florida from SLR has not been 
conducted.
    In this project, Florida Atlantic University researchers analyzed 
findings, including data sources and methodologies used to forecast 
SLR. They recommended data sources and methods for forecasting SLR and 
related impacts in Florida and investigated integrating SLR forecasts 
with FDOT information systems to identify at-risk infrastructure. Using 
the Weiss Overpeck 1-meter (?3 ft) estimate of SLR to illustrate the 
methodology, researchers linked mapping software and datasets to create 
a framework for identifying transportation facilities at risk. Project 
Manager: Maria Cahill, AICP, FDOT Planning Office, Principal 
Investigator: Dr. Leonard Berry, Florida Atlantic University 
www.dot.state.fl.us/research-center, www.ces.fau.edu/climate_change/
fdot
2) Integrative Collaboration on Climate and Energy (ICCE)
    Launched by Florida Atlantic University in the spring of 2009, ICCE 
is a cross-university program creating relevant linkages across 
disciplines. With Florida Atlantic University as the lead institution 
ICCE includes more than 80 faculty members in a multitude of climate 
change-related disciplines. Collectively, we have strong collaborative 
linkages with local, state and federal governmental and non-
governmental organizations, the business community, and public. Other 
University collaborators include: University of South Florida, Florida 
Gulf Coast University, and Columbia University. Our partners provide 
strong support in topical and regional areas. Based on our expertise, 
deep community connections, and long-held partnerships, we are uniquely 
positioned to take research-based knowledge and apply it to practical 
decision-making that focuses on the needs of the region and its people. 
Furthermore, we know that the work of ICCE will have implications for 
addressing the climate change issues that will soon be faced by much of 
the Unites States and the world. www.ces.fau.edu/climate_change/icce
3) Resilient Tampa Bay 2011
    A Knowledge Exchange with Dutch Experts was hosted by the 
University of South Florida's Patel Center for Global Solutions in 
Tampa, Florida, on February 21-23, 2011. The three-day workshop was 
organized in collaboration with local, regional, state, and 
international entities. More than 150 attendees heard from Dutch and 
local water experts on resiliency issues relating to Tampa Bay, 
particularly on urban flooding, storm surge, and sea level rise. 
Additionally, key stakeholders formed four geo-focal teams to identify 
vulnerabilities and to make recommendations on resiliency strategies 
for four defined locations: Tampa Bay, City of Tampa, City of St. 
Petersburg, and Gulf Beach Communities.
    Today, coastal cities around the world face a range of dynamic 
regional and global pressures. These pressures make coastal cities more 
vulnerable to flooding, storm surges, coastal erosion, and more. Global 
change pressures serve as threat multipliers thus increasing existing 
problems for these cities. The Tampa Bay region is one of these coastal 
areas that will become more vulnerable in the future; hence the 
critical need to improve its resiliency. Tampa Bay's key 
vulnerabilities related to water include:

  <bullet> Urban flooding events caused by heavy rainfall induce 
        frequent but limited local damage
  <bullet> Storm surges caused by hurricanes. Occurrence probability is 
        low but as high-impact events, they can lead to catastrophic 
        flooding along the entire coast.
  <bullet> Sea level rise caused by climate change. As a long-term 
        driver, it will increase existing flooding problems.

    The goal of Resilient Tampa Bay 2011 was to exchange ideas on 
developing resiliency plans for the Tampa Bay region. The challenge was 
to consider plans that would protect vital infrastructure, improve 
conditions for economic development, and minimize the impact of 
hurricanes and other natural disasters. Key issues addressed were:

  <bullet> Determining the factors that make Tampa Bay vulnerable
  <bullet> Establishing progress toward improving resiliency in Tampa 
        Bay
  <bullet> Understanding existing visions and solutions for improving 
        resiliency in Tampa Bay
  <bullet> Recommending the next steps for improving resiliency in 
        Tampa Bay

    As part of an ongoing effort to engage Dutch water experts in 
addressing resiliency challenges in Tampa Bay, we partnered closely 
with the Dutch Consulate in Miami and the Dutch Embassy in Washington, 
D.C., to secure the participation of several Dutch speakers who shared 
some of their most effective and reliable solutions for flood 
resiliency. The Patel Center has been instrumental in establishing a 
dialogue between Dutch water experts and their counterparts in the 
Tampa Bay region through two previous workshops in June 2009 and 
November 2009. Resilient Tampa Bay 2011 built upon the momentum created 
from the prior workshops and will serve as a springboard to launch 
ongoing resiliency planning efforts in our region.
4) Florida Water Management and Adaptation in the Face of Climate 
        Change
     A White Paper on Climate Change and Florida's Water Resources
   supported by the state university system of florida november 2011
    The State of Florida will be faced in the coming years with 
significant challenges and opportunities for managing water in a highly 
dynamic and changing climate. The impacts of climate change on water 
resources management will have consequences for the economic 
sustainability and growth of the state. A strong awareness of climate 
change impact issues and potential adaptation strategies that could be 
implemented by the state will increase its resilience over the long-
term to uncertain climatic conditions and sea level rise. To that end, 
a series of white papers have been prepared by State University System 
(SUS) of Florida Universities to coalesce our understanding of realized 
and predicted climate change impacts with a focus on various topics. 
The report presented herein addresses water resources and adaptation 
issues across the state.
    The primary objectives of this report are: (1) to identify 
Florida's water resources and water-related infrastructure that are 
vulnerable to climate change; (2) show demographics in the state that 
are vulnerable to climate change impacts with a focus on water 
resources and sea level rise; and (3) highlight some of the alternative 
technologies currently being used to solve water resource supply issues 
in the state that are likely to expand and be challenged under various 
scenarios of climate change.
    Florida is highly vulnerable to climate change as a result of its 
expansive shoreline, low elevation and highly permeable aquifers, and 
the location of high population centers and economic investments close 
to the coastline. Further, the state receives a high frequency of 
tropical storm landings that are accompanied by tidal surges that 
compound the risks of sea level rise. Because the state is highly 
vulnerable compared to other regions globally, Florida's academic, 
governmental and non-governmental institutions are developing 
adaptation strategies and conducting research on climate change. In 
this white paper, we highlight climate change issues relevant to water 
management, but also recognize the financial challenges to implement 
adaptation measures to address climate change solutions. Implementing 
adaptation measures will require an unprecedented level of resource 
leveraging and coordination among academic, governmental, non-
governmental, and private sector entities. http://floridaclimate.org/
whitepapers/ http://floridaclimate.org/water_management_pdf.php

                               <all>



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
